<html>
<title> - LICENSURE AND CERTIFICATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                      LICENSURE AND CERTIFICATION

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2010

                               __________

                           Serial No. 111-96

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
58-063                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             July 29, 2010

                                                                   Page
Licensure and Certification......................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    30
Hon. Gus M. Bilirakis............................................     2

                               WITNESSES

U.S. Department of Labor, Hon. Raymond M. Jefferson, Assistant 
  Secretary, Veterans' Employment and Training Service...........    14
    Prepared statement of Mr. Jefferson..........................    41
U.S. Department of Defense, John R. Campbell, Deputy Under 
  Secretary of Defense (Wounded Warrior Care and Transition 
  Policy)........................................................    16
    Prepared statement of Mr. Campbell...........................    45
U.S. Department of Veterans Affairs, Margarita Cocker, Deputy 
  Director, Vocational Rehabilitation and Employment Service, 
  Veterans Benefits Administration...............................    18
    Prepared statement of Ms. Cocker.............................    51

                                 ______

American Legion, Joseph C. Sharpe, Jr., Director, National 
  Economic Commission............................................     5
    Prepared statement of Mr. Sharpe.............................    32
Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations...........................................     5
    Prepared statement of Dr. Zampieri...........................    35
Military.com/Monster Worldwide, Master Chief Petty Officer Vince 
  Patton, III, USCG (Ret.), Ed.D., Director, Community Outreach..     7
    Prepared statement of Dr. Patton.............................    38
Veterans of Foreign Wars of the United States, Eric A. Hilleman, 
  Director, National Legislative Service.........................     3
    Prepared statement of Mr. Hilleman...........................    30

                       SUBMISSIONS FOR THE RECORD

Boozman, Hon. John, Ranking Republican Member, Subcommittee on 
  Economic Opportunity, and a Representative in Congress from the 
  State of Arkansas, statement...................................    52
Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director, statement................................    52
Paralyzed Veterans of America, statement.........................    55

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Eric A. Hilleman, Director, National Legislative Service, 
        Veterans of Foreign Wars of the United States, letter 
        dated August 12, 2010, and Mr. Hilleman's responses......    58
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Joseph C. Sharpe, Jr., Director, National Economic 
        Commission, American Legion, letter dated August 12, 
        2010, and response letter dated September 23, 2010.......    59
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Thomas Zampieri, Ph.D., Director of Government Relations, 
        Blinded Veterans Association, letter dated August 12, 
        2010, and response letter dated September 3, 2010........    60
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Vince Patton, III, Ed.D., Master Chief Petty Officer of 
        the United States Coast Guard (Ret.), Director, Community 
        Outreach, Military.com/Monster Worldwide, letter dated 
        August 12, 2010, and response letter dated September 2, 
        2010.....................................................    62
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Hon. Raymond M. Jefferson, Assistant Secretary, Veterans' 
        Employment and Training Service, U.S. Department of 
        Labor, letter dated August 12, 2010, and DOL responses...    65
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        John R. Campbell, Deputy Under Secretary of Defense 
        (Wounded Warrior Care and Transition Policy), U.S. 
        Department of Defense, letter dated August 12, 2010, and 
        DoD responses............................................    67
      Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
        Economic Opportunity, Committee on Veterans' Affairs, to 
        Margarita Cocker, Deputy Director, Vocational 
        Rehabilitation and Employment Service, Veterans Benefits 
        Administration, U.S. Department of Veterans Affairs, 
        letter dated August 12, 2010, and VA responses...........    71


                      LICENSURE AND CERTIFICATION

                              ----------                              


                        THURSDAY, JULY 29, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Adler, and 
Bilirakis.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Veterans' Affairs Economic Opportunity Subcommittee hearing 
on Licensure and Certification will come to order.
    There is a pending vote and not much time left. So we are 
going to make our opening statements, and then we will have to 
take a break. We want to get through as much as we can, because 
of some time concerns with other votes this afternoon.
    Before I begin my opening statement, I would like to say 
that the Disabled American Veterans had asked to submit a 
written statement for the hearing record. I ask for unanimous 
consent that the statement be entered for the record. Hearing 
no objection, so entered.
    On March 12, 2010, the U.S. Bureau of Labor Statistics 
published its finding on the status of unemployed military 
veterans. The report highlights that veterans between the ages 
18 to 24 had an unemployment rate of 21.6 percent in 2009. 
While these numbers are troubling, today we have the 
opportunity to build upon the progress we have made on the 
areas of education and employment that seek to address the high 
unemployment rates among veterans.
    This hearing seeks to build upon the feedback we received 
in previous hearings on licensure, certification and employment 
matters. During these hearings, we received testimony on the 
barriers encountered by veterans. Barriers such as: non-
transferable Military Occupation Skills (MOS) to the civilian 
sector; required supplemental training even though one's 
military career may have surpassed the requirement in some 
States; inadequate education benefits under title 38; and the 
need to augment the Transition Assistance Program (TAP).
    I am glad to see we are joined by representatives from the 
U.S. Department of Defense (DoD), which is responsible for 
training our men and women in uniform to meet the demands of 
their respective military careers. I am also glad to see the 
U.S. Department of Veterans Affairs (VA) and U.S. Department of 
Labor (DOL) who both oversee these unique benefits and programs 
that may help our Nation's veterans gain meaningful employment 
after their military service.
    While servicemembers and veterans all have unique career 
goals, it is vitally important that all Federal agencies 
continue to work hand-in-hand to provide the best licensing and 
certification assistance available to our men and women who 
have answered out Nation's call to duty.
    I look forward to hearing from all of our panelists today 
so that we may continue to help our servicemembers and 
veterans.
    I now recognize our distinguished Ranking Member, Mr. 
Bilirakis, for his opening remarks.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 30.]

             OPENING STATEMENT OF GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much. In reading today's testimony, I saw lots of discussion 
about the Transition Assistance Program and lots off Web sites 
that translate military skills and occupations into civilian 
equivalents.
    But I saw very little about how we go about getting 
education and training institutions to adjust their curricula 
to account for military training and education.
    Secretary Jefferson, I congratulate you for directly 
identifying the core of the issue as the role of State and 
local governments, and licensing, and certification. Too often 
our men and women are needlessly required to repeat education 
or training already gained in military service.
    To me that means that States need to be more flexible in 
recognizing military training and skills. I am disappointed the 
National Governors' Association declined once again to join us 
here today. To me the States hold the key to solving this 
dilemma.
    We cannot afford the current economically inefficient 
system that ignores the millions of dollars spent on top-
quality military education and training.
    Madam Chair, we need to provide veterans with the best 
education and training benefits and work with the education and 
certifying industries to increase the credit given for training 
as a way to speed licensing and certification. I yield back. 
Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis. We will now 
take a brief recess. And then when we return, we will welcome 
our panelists testifying before the Subcommittee today.
    [Recess.]
    Ms. Herseth Sandlin. We thank everyone for their patience 
during that last series of votes. Again, we will welcome our 
panelists testifying on the first panel today. Joining us is 
Mr. Eric Hilleman, Director of National Legislative Service for 
the Veterans of Foreign Wars of the United States (VFW); Mr. 
Joseph Sharpe, Jr., Director of the National Economic 
Commission for the American Legion; Dr. Thomas Zampieri, 
Director of Government Relations for the Blinded Veterans 
Association (BVA); and Dr. Vincent Patton, Retired Master Chief 
Petty Officer of the U.S. Coast Guard, Director of Community 
Outreach for Military.com/Monster Worldwide.
    I would like to remind our panelists that your complete 
written statements have been made part of the hearing record. 
Please limit your remarks to the 5 minutes so that we can have 
sufficient time for follow-up questions once everyone has had 
an opportunity to testify.
    Mr. Hilleman, we will begin with you. You are recognized 
for 
5 minutes.

STATEMENTS OF ERIC A. HILLEMAN, DIRECTOR, NATIONAL LEGISLATIVE 
SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED STATES; JOSEPH 
    C. SHARPE, JR., DIRECTOR, NATIONAL ECONOMIC COMMISSION, 
AMERICAN LEGION; THOMAS ZAMPIERI, PH.D., DIRECTOR OF GOVERNMENT 
RELATIONS, BLINDED VETERANS ASSOCIATION; AND MASTER CHIEF PETTY 
   OFFICER VINCE PATTON, III, USCG (RET.), ED.D., DIRECTOR, 
       COMMUNITY OUTREACH, MILITARY.COM/MONSTER WORLDWIDE

                 STATEMENT OF ERIC A. HILLEMAN

    Mr. Hilleman. Thank you Madam Chairwoman, Members of this 
Subcommittee. We appreciate the opportunity to testify at 
today's hearing on licensure and credentialing. On behalf of 
the 2.1 million men and women of the Veterans of Foreign Wars, 
we thank you for a voice at this important hearing.
    Upon leaving the military, servicemembers typically follow 
two tracts: an education tract or an employment tract. A 
transition process that is helpful and friendly is central to 
having a successful transition from active duty to civilian 
life. Securing licensure, credentials or education credit in 
the areas comparable to their military expertise is central to 
that transition. The VFW has found that previous military 
training and experience, whether in a technical field or on the 
battlefield, is not widely recognized by the private sector.
    In the area of education credit, the American Council on 
Education (ACE) seems to be the primary link between the 
military and the private sector. The Department of Defense 
contracts with ACE to review military courses of study, MOS's, 
for transferable credit into institutions of higher learning. 
ACE examines specific MOS schools for education credit and 
recommends credits to be placed on transcripts of 
servicemembers. These recommended educational equivalents are 
then accepted by individual schools, depending on the school, 
the nature of the credit, and the veteran's course of study.
    Further, ACE produces a guide entitled, ``A Transfer Guide; 
Understanding Your Military Transcript and ACE Credit 
Recommendations,'' which aids veterans and their institutions 
in better understanding how and what translates into college 
credit.
    The number of schools accepting ACE credit varies State by 
State. In South Dakota, for example, 4 universities accept full 
ACE recommendations, Arkansas has 11, Nebraska has 24, and 
Oklahoma has 36 universities. While ACE's recommendations help 
veterans who would be at a serious disadvantage when applying 
for enrollment without ACE, many schools do not recognize 
military credit.
    Employment credit, finding viable employment remains one of 
the largest challenges facing veterans today. Many 
servicemembers seek civilian licensure for their experiences, 
often requiring training or varying levels of experience. 
Success in securing licensure or certification in all fields 
varies by geographic location and prerequisite experience, MOS, 
and the industry in which they are applying.
    For example, within the nursing profession, South Dakota 
and North Carolina, the States only accept Army Licensed 
Practical Nurse Program (MOS 68WM6) for veterans to qualify to 
sit for the practical nurse program as a prerequisite to the 
test. Because nursing requirements are set by State regulation, 
different States, as well as different schools within those 
States, determine any credit, if any, for prior service.
    Each industry and State determines prerequisite experience 
and licensure for certification. With such a high degree of 
variance, veterans could benefit greatly from a more 
centralized information resource. Ideally, industries and 
associations would invest in and promote translating specific 
MOSs into accreditation.
    VFW recommends two broad scope studies; one on education 
credits and one on industry accreditation examining how and 
what the military experience translates into in the private 
sector.
    When each study determines what is currently taking place 
across all branches of services and all MOSs, then 
recommendations can be made to expand successful programs. 
These programs can be incorporated into the National Resource 
Directory available through the TAP program.
    To examine and expand current cooperation between DoD and 
the American Council on Education, we would recommend Congress 
fund a complete study of all MOSs across all branches of 
service. While not every MOS will have a clear transferable 
credit, schools and veterans alike will benefit from 
comprehensive process resulting in clearly defined military-
educational equivalencies.
    The VFW also recommends licensure and credentialing study 
to identify MOSs and their applicable civilian employment 
career counterparts. By examining direct skills and how they 
can be applied via State-by-State regulations, we could begin 
to see some of the standardization within industries.
    Through this study we would like to see the high variance 
of accepted military skills evolve into a widely-accepted 
accreditation specific to each MOS and those that apply towards 
credit in that industry.
    Madam Chairwoman, we appreciate the opportunity to testify 
today. And we look forward to answering any of your questions.
    [The prepared statement of Mr. Hilleman appears on p. 30.]
    Ms. Herseth Sandlin. Thank you, Mr. Hilleman. We appreciate 
your testimony and recommendations.
    Mr. Sharpe, you are now recognized.

               STATEMENT OF JOSEPH C. SHARPE, JR.

    Mr. Sharpe. Madam Chair, Members of the Subcommittee, I 
appreciate this opportunity to share the views of the American 
Legion on licensure and accreditation of transitioning 
veterans.
    The Department of Defense provides some of the best 
vocational training in the Nation for its military personnel 
and establishes measures and evaluates performance standards 
for every occupation with the armed forces.
    There are many occupational career fields in the armed 
forces that can easily translate to a civilian counterpart. 
Additionally, there are many occupations in the civilian 
workforce that require a license or a certification.
    Upon separation, however, many servicemembers certified as 
proficient in their military occupational career are not 
licensed or certified to perform the comparable job in the 
civilian workforce, thus hindering chances for immediate 
civilian employment and delaying a career advancement.
    This situation creates an artificial barrier to employment 
upon separation from military service. Military Occupational 
Specialties or ratings such as motor transport, corpsman or 
medic, need to undergo additional training once out of the 
service to work in their career path. This process slows down 
the veteran in obtaining gainful employment.
    These servicemembers have enormous talents, skills, and 
attributes that they have used while in theater. However, 
because the tasks they performed are so unique and difficult to 
succinctly describe, they are left with a resume left wanting.
    With over two million servicemembers having served in Iraq 
or Afghanistan, TAP and other transition programs need to be 
modernized to give relevant guidance and training to all 
transitioning servicemembers and their families.
    The American Legion supports efforts to eliminate 
employment barriers that impede the transfer of military job 
skills to the civilian labor market. We also support efforts 
that require DoD to take appropriate steps to ensure that 
servicemembers be trained, tested, evaluated, and issued any 
license or accreditations that may be required in the civilian 
workforce prior to separation. The American Legion supports 
efforts to increase civilian labor market acceptance of the 
occupational training provided by the military.
    Madam Chair, this concludes my statement. We appreciate the 
opportunity to present the view of American Legion.
    [The prepared statement of Mr. Sharpe appears on p. 32.]
    Ms. Herseth Sandlin. Thank you, Mr. Sharpe. We appreciate 
those views.
    Now, Dr. Zampieri, you are recognized.

              STATEMENT OF THOMAS ZAMPIERI, PH.D.

    Dr. Zampieri. Madam Chair and Members of the Subcommittee, 
on behalf of Blinded Veterans Association, I appreciate the 
opportunity to testify here today on this issue.
    A lot of my testimony has data and statistics on the 
problems that the returning servicemembers have in 
transitioning into the world of academics. One of the things 
that the testimony states is the problems specifically with 
medics and corpsmen that have been mentioned by the other 
veteran service organizations (VSOs).
    Yesterday, I found out that the actual number of individual 
medics that have been awarded the Combat Medical Badge for 
service in Iraq was 12,342 and 2,732 Army medics that have 
served in Afghanistan.
    This is a large talent of highly skilled and educated 
individuals with medical experience. They come home to find out 
that their education in the military doesn't translate well 
into trying to get into physician assistant programs or into a 
lot of private or university programs. The average training 
that they have is just for the basic courses over 704 hours. 
And if you are a Special Forces medical skills medic, it is 
over 48 weeks of training.
    It is interesting. There was a study that was done and 
published about a year ago, ``From Soldier to Student, Bridging 
the Gaps of Transition.'' And when they surveyed the American 
Association of State Colleges and Universities, servicemembers, 
and the American Council on Education, they found that only 48 
percent actually offered any kinds of academic advising or 
counseling. And most universities, even fewer, offered any 
special programs for those who have any kind of physical 
disabilities.
    One of the big things is that the universities today I 
think do not want to sit and go through the transcripts that a 
veteran walks in the door with. And it was interesting. One of 
the things that came out of a statement from the American 
Association of Collegiate Registrars and Admissions Offices, 
along with the Council For Higher Education, in regards to 
transfer and award of academic credits. It is important because 
it highlights that in the world of changing academic 
environment, the problems that the veterans face. In regards to 
this statement, they said that it is up to each individual 
academic institution to consider inter-institutional transfer 
of credits involving these considerations: the educational 
quality of the learning; the comparability of the nature, 
content, and level of the learning experience to that 
experience--that the program offers by the receiving 
institution.
    Basically what happens is most of the university program 
directors that I talk to said that there are just large volumes 
of individuals applying. And it is much easier for someone in 
an admissions office to look at the standard transcript that a 
transferring student from another university walks in the door 
with than to spend the time, and manpower, and expense of 
sitting down and counseling a veteran who walks in with a 
variety of different types of military occupational training 
and skills. And that is sort of where the unfairness comes in 
in the system.
    Today's medics and corpsmen are some of the most highly 
skilled in history. And it is a shame that they are not able to 
transfer those credit easily into the current environment in 
the universities. We also want to mention that we would 
recommend that the vocational rehabilitation benefits for 
assistance for housing allowance be increased, which would be 
helpful for those individuals entering into the vocational 
rehabilitation program, because currently the new GI Bill 
benefits are actually better for veterans.
    And we would recommend some sort of a pilot military 
pathway demonstration program, a 5-year program for medics and 
corpsmen, that would provide grants to programs to actually 
help them in getting the credit hours that they need.
    I thank you again for the opportunity to testify. And I am 
happy to answer any of your questions.
    [The prepared statement of Dr. Zampieri appears on p. 35.]
    Ms. Herseth Sandlin. Thank you very much, Dr. Zampieri, for 
your insights and particular attention to the medics and the 
corpsmen and what we might be might be able to do. Dr. Patton, 
we will now recognize you as the final witness in this panel.

STATEMENT OF MASTER CHIEF PETTY OFFICER VINCE PATTON, III, USCG 
                         (RET.), ED.D.

    Dr. Patton. Thank you, Madam Chairwoman and thank you 
Members of the Subcommittee for inviting us here today to 
discuss important issues associated with veteran employment. 
Today I will discuss what Military.com is doing to assist 
servicemembers in transferring their military training and 
experience to the civilian sector as they seek employment 
opportunities.
    Military.com was founded in 1999 by a young Navy reservist 
to revolutionize the way our 30 million Americans with military 
affinity stay connected and informed. Today, Military.com is 
the largest military and veteran membership organization with 
more than 10 million members. And we are the ninth largest news 
destination site on the Internet.
    In 2004, Military.com joined forces with Monster Worldwide 
to accelerate our growth and change the playing field for 
career and educational opportunities for active-duty personnel, 
as well as Guard and Reservists, veterans and military spouses. 
Monster's vision is bringing people together to advance their 
lives. And this partnership reinforces Military.com's members 
first ethos and mission.
    Recognizing this, Military.com created a veteran career 
center using technology to successfully deliver a personalized 
experience with a variety of interactive tools and resources. 
We offer the largest veteran job board in the world featuring 
military-friendly employers as well as hundreds of thousands of 
job postings available through our Monster.com database.
    We also offer personalized email alerts for new postings 
that match a veteran's resume and job interests, as well as 
resume writing tools, education and training information, 
mentoring through our Veteran Career Network, and electronic 
newsletters with news and employer information.
    To help veterans begin their new career search, we 
developed our Military Skills Translator. We use the Department 
of Labor's online resource known as ``O-Net,'' or Occupational 
Data Network as a baseline to translate current and older 
military occupational specialty codes into civilian occupations
    Then Military.com is taking it one step further. We present 
the veteran with equivalent jobs currently posted on the 
Monster job board, including those posted by thousands of 
military employers specifically looking for veterans. The 
veteran can immediately apply to one of these jobs from our 
site or review the job postings and learn what specific 
experiences, skills, education, and training employers are 
seeking for this type of position. This information can help 
the job seeker better ``civilianize'' their military experience 
on their resume and best communicate the skill, knowledge, and 
abilities they acquired while in service.
    Through the Military Skills Translator, not only are 
veterans empowered to apply to currently available jobs, they 
can also see members of our Military.com's Veteran Career 
Network who have indicated they held that same Military 
Occupational Specialty.
    One of our fastest growing services that is still in beta 
form is a mentor network that connects veterans seeking new 
careers with employed veterans as well as military supporters. 
Military.com members who volunteer for this feature create a 
profile containing details about their military experience, 
professional interests, and their current job position and 
employer.
    Veterans using this feature can find a career network 
mentor by company, government agency, career field, industry or 
geographic location. Once the veteran job seeker has identified 
someone with whom they would like to network, he or she can 
contact a mentor directly through our secure Military.com email 
tool.
    Since the implementation of our Veteran Career Network in 
2007, over one million Military.com members have signed on to 
network with other veterans and help transitioning 
servicemembers jumpstart their civilian careers.
    Military.com's success over the past 10 years is also 
attributable to the strength of our partnerships with the 
private and public sectors, both online and offline. For 
example, we partner with the Noncommissioned Officers 
Association to host more than 30 veteran career fairs annually 
on or near military installations around the country. We have 
tremendous participation from military-friendly employers who 
come ready to hire veterans for their skills and working with 
organizations such as Helmets to Hardhats, which focuses on 
building and construction trade occupations, Troops to 
Teachers, which helps them go into the teaching profession.
    The American Legion also attends our career fairs to assist 
veteran job seekers with important details about their 
benefits. And State veteran service offices frequently attend 
our events as well.
    I would like to thank the Subcommittee for this opportunity 
to present this testimony and share what Military.com is doing 
in making a positive impact on veteran employment.
    Madam Chairwoman and Members of this Subcommittee, this 
concludes my statement. I would be pleased to answer any 
questions that you may have. Thank you.
    [The prepared statement of Dr. Patton appears on p. 38.]
    Ms. Herseth Sandlin. Thank you, Dr. Patton.
    I will start with a couple of questions for you. From all 
the Military.com's transition career tools, which ones have 
been in the greatest demand by servicemembers and veterans? Is 
it the Mentor Network.
    Dr. Patton. Yes, ma'am. The Mentor Network definitely is 
one of the best in demand, because what we have found is by not 
just having the technology itself. But our veterans would like 
to have somebody to connect with one another. And this is 
probably one of the successes of the Internet as a whole that 
people are connecting together with one another.
    By using our Veteran Career Network where the veterans are 
connecting and talking to each other, helping them with writing 
resumes, that has been very, very helpful.
    Ms. Herseth Sandlin. For Mr. Hilleman and Mr. Sharpe, you 
had both stated in your testimony one of the recommendations, 
Mr. Hilleman, was to fund a study of all MOSs.
    Mr. Sharpe, you had stated that it would be helpful to have 
a system that could be devised to translate the full nature of 
a servicemember's skills and abilities. Do you think that 
having a study that would look at all MOSs and having a system 
designed in that way would provide something that Military.com 
either currently isn't providing or is not capable of providing 
at this point.
    Mr. Hilleman. Madam Chairwoman, currently ACE does study 
specific schoolhouses and specific MOSs, with the exception of 
the Air Force, because the Air Force has their own junior 
college or community college that gives transferable credit for 
education.
    But the contract between DoD and ACE is at the request of 
DoD. So it does not study every single MOS or every single 
course. It is just what DoD has contracted with ACE to study. 
That and ACE currently only has--partners with our credit 
reciprocity or credit acceptance at 2,300 universities 
nationwide. But the list is not fully encompassing. We would 
like to see if we could improve the number of universities that 
accept military credits.
    Ms. Herseth Sandlin. Yes. So you are focused on the study, 
so that it would look at the transfer of credits into colleges 
and universities versus the career transition into direct 
employment.
    Mr. Hilleman. I think that there needs to be a wall between 
two studies to focus on what is going on with ACE and currently 
with DoD. And then take a look at also on an industry-to-
industry basis and State by State. The Army Nursing Program 
that we mentioned in our testimony, nowhere on the site does it 
say that Air Force, Navy, or Coast Guard nurses are accepted to 
sit for the same test that the Army nurses are accepted to sit 
for.
    So there are high degrees of variance from State to State. 
And I think that is the largest challenge to developing some 
agreement where credits transfer directly from the military 
into the private sector.
    Ms. Herseth Sandlin. Mr. Sharpe.
    Mr. Sharpe. I agree with everything that Mr. Hilleman has 
stated. But also the other thing we are really focusing on is 
we would like to see a lot of this done prior to the person 
transitions out of the military.
    Ms. Herseth Sandlin. Right.
    Mr. Sharpe. They should know exactly what their MOS 
training will allow them to do once they leave.
    Ms. Herseth Sandlin. Well, that raises another very 
important question on TAP. I know Secretary Jefferson is 
committed to reforming TAP.
    But I think, Dr. Patton, you had some testimony as it 
relates to your perspective on how TAP perhaps doesn't always 
provide servicemembers what they need. I have had a mixed bag 
of responses from my constituents recently. Two different 20-
year-plus members of different branches of the Armed Forces who 
separated from service. One thought TAP was fabulous, and the 
other one thought it was completely useless. They didn't take 
the program in the same place. Otherwise, I think we would have 
had more consistent response to the program.
    What are your thoughts as it relates to TAP or how do we 
restructure this, if necessary?
    Dr. Patton. Madam Chairwoman, as I was going through my TAP 
class, my needs were a little bit different than some of the 
other people that were sitting in that TAP class. Sitting next 
to me was a young man with 3 years in the Coast Guard at Grade 
E-4. He has got a total different focus on what is going to 
happen at the end of his time as compared to mine.
    I am getting a retirement. My resume is a little bit more 
padded than his is. He is focused on trying to get into using 
education. So what happens in the TAP class is that I have no 
problem with the content. And I don't think anyone does. The 
problem is is that it is not a one size fit all.
    But the system has kind of set that to be by virtue of 
getting everybody with different military walks of life into 
one setting and trying to come up with something of a 
commonality.
    What probably needs to happen, in my opinion, is more of 
looking at how we can reinforce that information before TAP, 
during TAP, as well as after TAP. So the whole TAP process is 
something that is evolving that should continue on well past 
the individual leaving the service.
    Ms. Herseth Sandlin. Any other comments on TAP? I am over 
time. But I want to recognize the Ranking Member and come back 
for another round.
    Mr. Sharpe. Well we know that Department of Labor is in the 
midst of redoing their entire TAP program. They are modernizing 
the program, something that we strongly agree with.
    A lot of the recommendations that are going into this new 
program are coming from many of the businesses that sit on 
their Veterans Advisory Board.
    A couple of years ago we all went to a number of TAP 
programs across the country and looked to see how it could be 
improved. And a lot of the recommendations that came from 
various business owners we just thought it was a great idea. So 
we do think they are on the right road.
    We are still concerned with the fact that many 
servicemembers are still not getting access to the TAP program.
    Ms. Herseth Sandlin. I would also like to explore with you 
this issue of the challenge of State by State and the licensure 
and certification. But I will do so after recognizing the 
Ranking Member for his questions. Mr. Bilirakis.
    Mr. Bilirakis. Thank you so much. And most of the material 
you covered, Madam Chair, so good job.
    I do have a question for Mr. Sharpe. Should the counsel for 
licensure enforcement be a member of the Veterans' Advisory 
Committee on Education?
    Mr. Sharpe. I believe so.
    Mr. Bilirakis. Again, that is another big issue where an 
individual leaves the military with a certain amount of 
training. And depending on the State that individual resides 
in, their credentials are accepted or not.
    We do believe there should be one national standard for a 
lot of the military skills that folks are leaving as they 
leave. And I think it would be great if an individual like that 
was to sit on one of the councils.
    I thank you, Madam Chair. I yield back.
    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis.
    The Ranking Member had mentioned in his opening statement 
the issue of the fact that the National Governors' Association 
wasn't able to help us out today.
    I am wondering if any of your organizations have reached 
out to the National Governors' Association and what kind of 
response you have received on the issue of licensure and 
certification and credentialing.
    No. Well let me raise just something to consider. You know, 
right now we are having a rigorous debate. Although in some 
instances not a healthy discussion but a rigorous debate about 
the role of the Federal Government. There is a serious 
challenge when you are dealing with 50 different State sets of 
standards.
    This is why some in the industry want us to pass a 
renewable electricity standard, because one State has no 
mandate, one State has 10 percent, one State has 20 percent. 
You have folks that are businesses that are operating across 
States, and they would like some certainty. They would like 
essentially for the Federal Government to come in and preempt 
State laws and at least set a minimum.
    My question for each of you is, should there be a 
discussion recognizing the challenges with 50 different State 
standards. We have also dealt with this issue in this Congress 
and in past Congresses about State law governing child custody 
disputes when we are dealing with a national military and 
whether or not we leave their legal rights, whether for child 
custody or employment, up to the States or whether we have 
national standards.
    Should there be a discussion about national certification, 
or the transfer of military skills so that we can provide some 
certainty and assist our military men and women who are 
separating from service to transition more effectively into the 
workforce, especially in high employment growth sectors of the 
economy.
    Mr. Sharpe. There should be a national standard. Not only 
that, but we have advocated for the federalization of the 
Disabled Veterans Outreach Program specialists (DVOPs) and 
Local Veterans Employment Representatives (LVERs) for the 
Department of Labor, because right now you have 50 different 
programs. And a veteran shouldn't have to go from one State to 
another to try and get certain basic services.
    Right now a lot of this depends on how the State wants to 
allocate money that comes from the Federal Government. And we 
feel like the Federal Government should be in charge of it.
    Since the veteran is--you know, he has deployed by the 
national government. So as he transitions out, that 
responsibility should rely on the Federal Government and not 
the State.
    Mr. Hilleman. Madam Chairwoman, you have unearthed probably 
one of the longest standing debates in our democracy, in our 
Federal system, States' rights versus Federal. Without 
weighing----
    Ms. Herseth Sandlin. I don't know that I have unearthed it. 
I think it has been on 24/7 cable is that debate. But anyway I 
appreciate that.
    Mr. Hilleman. Yes, ma'am.
    Ms. Herseth Sandlin. Maybe in this instance, we are giving 
it something that is an important and healthy discussion we 
could on what we do to best serve a veteran.
    Mr. Hilleman. Yes, ma'am. Without weighing in on the 
philosophical issue, the practical issue is that each industry 
has specific standards that are recognized State by State.
    I think of my fiancee as an example. She is a social 
worker. And she is licensed in Virginia. She is a licensed 
clinical social worker. But in order for her to practice 
exclusively in the District of Columbia, she must transfer her 
license, which is a cost to her.
    When you start talking about military occupational 
specialties, some of the licensing is important at the State 
level and some of it is not, information technology (IT) for 
example. If you have a Red Hat security certification, your 
employer, whether it is small, local company or a national, 
huge or international company, recognizes the certification, 
not the State. And it doesn't require State certification.
    However, as Mr. Zampieri points out, the medical industry 
is strictly governed by States. And I think we need to dig down 
and figure out what States are giving licensing and 
certification or allowing individuals at least to sit for those 
tests and why. We need to understand practically what makes the 
Army program better than the Navy's nursing program. And is 
that reasonable?
    And I don't think that any one of us would have the depth 
of insight in there to answer those questions. That is why we 
are calling for a study to drill down into those specific 
industries.
    Dr. Zampieri. I would echo that. I think one of the big 
problems having been around the world for a little while in the 
world of medicine and coming out of the service in 1975, I was 
one of those licensed practical nurses (LPNs) that was allowed 
to take my boards back then.
    So in the State of Georgia and when I moved to New Jersey, 
when the military transferred me to New Jersey, New Jersey told 
me they wouldn't accept my boards, even though I still had the 
same rank as a sergeant in the Army.
    It was just an example that, you know, we fast forward to 
the future. And here we are today in the world of Internet and 
everything else. And we are in the same dilemma.
    I think there are two things. One is if, you know, you 
thought health care was a problem. And the debate there if you 
enter into the world of certification, licensure, and 
universities, I wish anybody luck, because it is a dangerous 
animal and especially in the world of medical colleges and 
universities and stuff.
    I think the carrot should be that universities should--who 
accept Federal money, that will get them, because they all do, 
should be, you know, encouraged to take the time to look at the 
individual servicemember's record of education, you know, for 
whatever ways that you do that. And then, you know, I think 
that it is interesting.
    The military has worked to try to--like for example medics 
and corpsmen. All of the training now is done at one location 
at Fort Sam Houston, Texas, at Brooke Army Medical Center at 
the Uniformed Services Health Sciences Academy.
    So what has happened is the good news is I think the 
services are working towards the University Services Health 
Sciences Academy where they could also help with this by giving 
college credits for the courses that the individuals complete, 
which makes the transferring of that easier. When a person 
comes off active duty and they are a veteran, they apply.
    And then this third part of this is the universities have 
all admitted in this survey, just in 2008, that very few of 
them do any kind of academic counseling for veterans. And there 
are some interesting pilot things that are going on at the 
universities.
    The University of Arizona started a vets clinic, meaning 
not a medical clinic but a vets education counseling center. 
And they staffed it with Operation Iraqi Freedom/Operation 
Enduring Freedom (OIF/OEF) volunteers originally. And then they 
actually found that there was so much interest on the campus 
that they actually began to pay interns to work in that office.
    And they did the full range of, you know, whether it was a 
problem with financial aid, or whether it was a problem with 
again academic credits for their courses and their training, 
whether it was just a place where veterans could go to talk to 
other veterans when, you know, things build up. It was 
interesting. And then there are some successes out there like 
that.
    But I can tell you, I have been licensed in six different 
States as a physician assistant. Wow. Yeah, I mean, you run 
into the whole host of problems with State licensing medical 
boards. I mean, everybody is going to jump into this fray.
    And I guess my recommendations are just that, you know, 
maybe if there is some ways of incentives for the universities 
to try to work with veterans, it may be a little easier until 
whatever financial ways or whatever.
    And then, you know, work with the Department of Defense on 
trying to encourage them to--like he mentioned the Air Force 
already gives college credits for a lot of the different 
training that they have despite the----
    Ms. Herseth Sandlin. I appreciate your thoughts and your 
recommendations. I think both on side of the incentives to gear 
more services at the university level towards student veterans 
to work through some of these unique issues.
    But I think also, Mr. Sharpe you had mentioned in your 
testimony encouraging the DoD to do more on the front end 
before separation of service, either in coordination/
collaboration with governors, State certification boards. Let 
us just start with some identifiable areas where there is high 
need on high-growth areas, as well as with the university 
community.
    Mr. Bilirakis, anything final for this panel.
    Mr. Bilirakis. I think we are okay here.
    Ms. Herseth Sandlin. Okay. Thank you all. We appreciate 
your testimony, your insights and recommendations, and your 
continued service to our Nation's veterans.
    I would now like to invite the second panel to the witness 
table. Joining us today on the second panel of witnesses is the 
Honorable Raymond Jefferson, Assistant Secretary for Veterans' 
Employment and Training Service (VETS), U.S. Department of 
Labor; Mr. John Campbell, Deputy Under Secretary of Defense, 
Wounded Warrior Care and Transition Policy, U.S. Department of 
Defense, who is accompanied by Mr. Ron Horne, Deputy Director 
of Transition Assistance Program, Wounded Warrior Care, 
Transition Policy, the United States Department of Defense. We 
are also joined by Ms. Margarita Cocker, Deputy Director, 
Vocational Rehabilitation and Employment (VR&E) Service, 
Veterans Benefits Administration (VBA) with the U.S. Department 
of Veterans Affairs.
    Thank you all for your written testimony, which has been 
made part of the hearing record. We appreciate welcoming you to 
this Subcommittee.
    Assistant Secretary Jefferson, we are going to begin with 
you. You are now recognized for 5 minutes.

 STATEMENTS OF HON. RAYMOND M. JEFFERSON, ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
  LABOR; JOHN R. CAMPBELL, DEPUTY UNDER SECRETARY OF DEFENSE 
 (WOUNDED WARRIOR CARE AND TRANSITION POLICY), U.S. DEPARTMENT 
   OF DEFENSE; ACCOMPANIED BY RON HORNE, DEPUTY DIRECTOR OF 
TRANSITION ASSISTANCE PROGRAM, WOUNDED WARRIOR CARE, TRANSITION 
   POLICY, U.S. DEPARTMENT OF DEFENSE; AND MARGARITA COCKER, 
   DEPUTY DIRECTOR, VOCATIONAL REHABILITATION AND EMPLOYMENT 
 SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

             STATEMENT OF HON. RAYMOND M. JEFFERSON

    Mr. Jefferson. Chairman Herseth Sandlin, Ranking Member 
Bilirakis, Members of the Committee, we are thrilled to be 
here. Thank you for the opportunity to be here as a witness.
    Secretary Solis and I remain passionately committed to 
helping veterans and transitioning servicemembers translate 
their military education experience into meaningful careers and 
opportunities.
    We are doing this in very close cooperation with Congress 
and many of our partners who are here today, the Department of 
Defense, VA, the Office of Personnel Management (OPM) U.S. 
Department of Housing and Urban Development, Department of 
Homeland Security, the veteran service organizations, State 
workforce agencies, other government entities, non-profits, and 
the private sector.
    So what are we doing? We have three broad categories of 
activities. I will call them prepare, provide and protect. We 
are preparing transitioning servicemembers and veterans for 
meaningful careers. We are providing them with access to 
opportunities and careers. And we are protecting their 
employment rights.
    And for all of that, we are doing it with transformation, 
innovation and excellence. We are transforming our current 
programs. We are innovating and launching new initiatives. And 
we are benchmarking everything we do to best practices to 
ensure that we are striving and achieving excellence.
    Let me break down some of these for us today. Preparation, 
the Transition Assistance Program has been spoken about a great 
deal. For the past 17 years, TAP has not been fully modernized. 
Right now, today, it is 180 PowerPoint slides given over 2\1/2\ 
days. For the first time in 17 years, we are transforming and 
modernizing this program as we speak.
    There are going to be six components to the new TAP. The 
first is pre-work, predictive assessments to determine a 
servicemember's employability readiness. This is going to allow 
us to segment, which gets to component number two, three 
different types of TAP, one for servicemembers who are highly 
ready, one for moderately ready, and one for what I will call 
entry level of readiness.
    We are also going to bring in best practice content, mental 
training, life and career planning, stress reduction 
techniques, storytelling, how to communicate your value 
proposition, networking, and how you transition from a military 
context to a civilian context.
    The third component is experiential facilitation, learning 
by doing, getting away from the PowerPoint slides.
    Fourth component, after TAP support. After you finish TAP, 
you have been drinking through a fire hose for 2\1/2\ days. You 
can go online and make a phone call to get customized 
application of what you learned for your personal situation.
    Fifth component, a best practice virtual resource with 
classes, and videos. So you can go back and retrain on things 
you want to refresh.
    And sixth component, performance metrics. One point seven 
million people have gone through TAP. We have no idea what 
their feedback is, so three moments of truth. How do you feel 
about the program when you finished it, how valuable was it 
when you were actually going through your job search, and how 
helpful was it to help you transition? We are doing the 
Bidder's Conference on August 11th. And we are going into 
contract in September.
    Number two, preparation and also providing access to career 
opportunities. Last time I was here I mentioned that we are 
going to be launching a pilot program with Job Corps. We 
launched it 
2 weeks ago. And I am pleased to say 300 veterans are going to 
be in this pilot. The three sites are in Kentucky, Indiana, and 
Missouri.
    This is going to be an all-expense paid, all transportation 
provided, housing provided, 6-8-month customized, accelerated 
training program leading to a credential or certificate, 
leading to a job and 21 months of post-employment support. They 
will get training in a broad array of skills and trades such as 
green jobs, health care, IT, and construction.
    I want to thank the stakeholders in this room for helping 
us get the word out. Madam Chairwoman, we would be very 
grateful for your assistance, and Representative Bilirakis 
yours as well, to help us get the news of this important 
initiative out to other Members of Congress.
    The third thing I would like to talk about is in the area 
of providing access, increasing engagement with employers. We 
are doing a pilot program with the U.S. Chamber of Commerce. We 
are going to launch that on Labor Day in ten States. What this 
is going to do is for the first time instead of our State 
directors talking to one employer or chief executive officer 
(CEO) at a time, they are going to talk to 100, 150 CEOs at a 
time to communicate the value of hiring a veteran and how you 
hire a veteran in your State or your city.
    We are also training our State directors in customer 
service, and networking, and public speaking and presentation.
    Finally, the Federal Hiring Initiative. We are working with 
the Department of Veterans Affairs as a co-chair with OPM and 
all of the Federal Government agencies to increase the hiring 
of veterans.
    We are doing a boot camp today, yesterday, and tomorrow to 
train all the hiring managers and the veterans employment 
program managers on best practices for hiring veterans, where 
to find them, how to translate their resumes, how to treat them 
properly so they become long-term members of the organization.
    I spoke to Director Barry this morning. And I am pleased to 
say that for the past 5 months, the number of veteran hirings 
in the Federal Government is up.
    I will just say that next month is my 1-year anniversary 
serving as your Assistant Secretary. I hope you see that our 
agency is fulfilling our promises and our commitments. We are 
passionate about what we do. We look forward to your questions. 
Thank you.
    [The prepared statement of Mr. Jefferson appears on p. 41.]
    Ms. Herseth Sandlin. Thank you for your testimony and your 
commitment. Assistant Secretary Jefferson, we have a number of 
questions both as it relates to your work on TAP and some 
issues that came up in a previous hearing 3 years ago.
    Mr. Jefferson. Okay.
    Ms. Herseth Sandlin. So I don't necessarily expect that you 
will be--but they are questions we want to pose, important 
followup of commitments that were made by some of your 
predecessors in the agency.
    Mr. Jefferson. We are ready to go.
    Ms. Herseth Sandlin. I look forward to visiting with you 
about that.
    Mr. Campbell, you are now recognized. Thank you for being 
with us today.

                 STATEMENT OF JOHN R. CAMPBELL

    Mr. Campbell. Thank you. Good afternoon, Madam Chairwoman, 
Ranking Member Bilirakis. Thank you for the opportunity to 
discuss the Department of Defense's role in assisting 
transitioning servicemembers obtain licenses and certifications 
while in the service as they transition to civilian life.
    Education and training are imperative to the meaningful 
employment and quality of life for our separating 
servicemembers. Servicemembers are encouraged to take full 
advantage of their educational opportunities and training 
programs afforded while they are on active duty. Some of these 
programs include tuition assistance, United States Military 
Apprenticeship Program, Army and Navy COOL, and the Post-9/11 
GI Bill.
    DoD also provides separating servicemembers with useful 
information and assistance in all aspects of the transition 
process. This includes preparation for post-military employment 
as they re-enter civilian life. Attaining a civilian credential 
promotes professional growth and communicates to employers the 
transferability of military training and occupational 
experience. It is crucial to the transition process that 
servicemembers are able to take full advantage of their 
military experience in order to reach their full employment 
potential after they leave the military.
    The Transition Assistance Program, known as TAP, remains 
the primary platform used by DoD, the Department of Labor, and 
the Department of Veterans Affairs.
    TAP informs, educates, and provides one-on-one coaching to 
transitioning servicemembers. When accomplished, this enables 
servicemembers to be strong competitors for career 
opportunities in the civilian workforce.
    The current program has been in place for nearly two 
decades without major enhancements. And the original design was 
not intended for today's demand. To strengthen TAP and 
reinforce its value to servicemembers and their families, we 
will be putting initiatives in place to move TAP from a 
traditional event-driven approach at the end of service to a 
modern, innovative life cycle approach, which will begin at the 
start of service.
    DoD is working to implement this strategic plan with 
specific focus on information technology, strategic messaging, 
and personalized coaching. The end-state for the TAP overhaul 
will be a population of beneficiaries who have the knowledge, 
skills, and abilities that empower them to make informed career 
decisions, be competitive in the global marketplace, and become 
positive contributors to their community.
    We continue to provide licensure and certification 
information in a wide range of ways and different formats to 
appeal to individuals learning styles. A key component of 
effective licensure and certification is introducing the 
information to the servicemember early in their careers, not 
just at the time of separation. Waiting until the end of a 
military service to educate the war fighter on licensure and 
certification is too late.
    DoD and the military services have significantly increased 
their focus on licensure and certification. My written 
statement provides details on the additional programs and tools 
put in place by DoD and the services.
    These efforts include analysis to identify potential gaps 
between military training and civilian credentialing 
requirements along with providing extensive information on 
resources available to fill those gaps.
    The Department understands there is a strong consensus 
within Congress and the veterans' community that more needs to 
be done to help servicemembers translate their military 
occupational specialties into civilian sector language.
    DoD recognizes more can be done. And we continue our 
efforts toward this goal. Since the Committee's hearing on this 
subject in September 2007, we have taken the following steps.
    We have implemented a mandatory credentialing program for 
information assurance workforce, both military and civilians 
throughout the Department. The Navy has implemented a 
discretionary program that allows sailors to obtain government-
paid vouchers for credentialing exams mapped to their rating, 
job, or occupational specialty.
    For our wounded, ill and injured personnel, we have worked 
to expedite security clearances to assist in civilian-sector 
employment for those expected to be medically separated.
    The DoD-DOL Credentialing Working Group has identified ten 
major occupational specialties that might require minimal 
additional training or minor adjustments to existing 
curriculum, which could result in certification. They also 
analyzed data on all Military Occupational Specialties, 
including the National Guard and Reserves.
    The working group has concluded--conducted a crosswalk of 
those specialty codes that correlates to the ten highest growth 
civilian occupations. They also began an analysis comparing the 
military training to civilian credentialing requirements.
    In closing, the Department acknowledges the importance of 
providing servicemembers with clear and definitive information 
on licensure and credentials during their military careers. 
Providing this information early on allows our war fighters to 
plan and seek out any additional training required to achieve 
their goals.
    To that end, the Department, in collaboration with their 
partners at DOL and the VA, is revamping TAP as we move into 
the next decade. Their transition assistance process must be 
transformed to occur throughout the military life cycle from 
the time of accession to reintegration back into the community. 
This is not a single event that occurs at the time of 
separation or retirement or in the case of demobilizing, 
deactivating National Guard and Reserves when they leave 
active-duty status.
    Madam Chairwoman, this concludes my statement. I will be 
happy to answer your questions, or Ranking Member Bilirakis' 
questions, or any others who may have. Thank you.
    [The prepared statement of Mr. Campbell appears on p. 45.]
    Ms. Herseth Sandlin. Thank you, Mr. Campbell.
    Ms. Cocker, welcome to the Subcommittee. You are now 
recognized.

                 STATEMENT OF MARGARITA COCKER

    Ms. Cocker. Thank you. Madam Chairwoman and Members of the 
Subcommittee, thank you for inviting me to appear before you 
today to discuss how VA's Vocational Rehabilitation and 
Employment (VR&E) Program helps servicemembers apply their 
Military Occupational Specialties to employment in the civilian 
sector.
    VR&E strives to ensure a seamless transition for 
servicemembers and veterans through early outreach and 
intervention. VA's vocational rehabilitation counselors and 
employment coordinators leverage servicemembers' and veterans' 
transferable skills whenever possible, while keeping the focus 
on individuals' current level of abilities, aptitudes, as well 
as their future career potential. VA greatly appreciates the 
opportunity to discuss this important topic.
    VR&E's primary mission is to assist servicemembers and 
veterans with service-connected disabilities prepare for and 
obtain meaningful and sustainable employment through the 
provision of robust services individually tailored to each 
individual's needs.
    Services are provided at our 57 regional office locations 
and over 100 out-based VR&E locations. VR&E services begin with 
comprehensive evaluations to help servicemembers and veterans 
understand their interests, aptitudes, and transferable skills.
    Next our vocational exploration phase focuses their 
potential career goals based on labor-market demands and market 
requirements. This process helps each veteran or servicemember 
make informed choices and participate in the development of 
their rehabilitation plan that to the maximum extent possible 
builds on his or her transferable skills towards an ultimate 
career goal.
    To help these individuals achieve their rehabilitation 
goals, VR&E may provide a broad range of employment services 
such as translation of military experience to civilian skill 
sets using industry standard transferable skills assessments; 
short-term training geared toward augmenting existing skills 
that increase employability, such as certification preparation 
tests and sponsorship of certification; long-term training, 
including on-the-job training, apprenticeship training, and 
college-level training or services that support self-
employment; and direct job placement services, including resume 
development, job-seeking-skills training, and post-placement 
follow-up services.
    Licensing and credentialing assistance is provided as 
needed to facilitate employment in a particular individual's 
specific occupation. For example, many information technology 
jobs require certification, while nursing and mental health 
counseling fields require licensure. For veterans and 
servicemembers with more severe injuries and barriers to 
employment, additional leading-edge certifications can also be 
provided to make them more competitive.
    The goal of each VR&E rehabilitation plan is to maximize 
the individual's transferable skills, match his or her 
interests and skill sets with labor-market demand, ensure 
compatibility of the job with existing disability issues, use 
adaptive technology whenever possible, and help the veteran or 
servicemember enter the job market at a level on par with his 
or her peer group and into a career position in which he or she 
can thrive, even if his or her disability should worsen.
    I would like to emphasize the importance of transferable 
skills assessments and corresponding licensure or 
credentialing. During the vocational exploration phase, VR&E 
counselors identify servicemembers and veterans military and 
civilian transferable skills and discuss these skills with 
them.
    The VR&E program conducts thorough assessments of veterans' 
interests, aptitudes, and abilities and then provides necessary 
services to ensure that exiting servicemembers and veterans are 
able to compete for and achieve the highest level of civilian 
employment for which they could qualify.
    VR&E counselors help individuals capitalize on their 
transferable skills when developing the plans for future 
civilian career goals, while also ensuring that interests, 
aptitudes, and abilities are matched up to these goals. Once 
servicemembers' and veterans' career goals are identified, VR&E 
tailors individualized and comprehensive services to ensure 
employability in their chosen fields, including proper 
credentialing, education, and licensing.
    The focus on basing the next career step on transferable 
skills enables these individuals to maximize their existing 
skills and ultimately obtain careers at a more advanced level.
    The challenges our disabled servicemembers and veterans 
face while in transition are an urgent priority for VR&E and 
for VA. Building upon the excellent skills obtained in the 
military makes these individuals more marketable and assists 
them in qualifying for more technical and advanced career 
opportunities.
    VR&E focuses on enhancing preexisting certifiable and or 
licensed skills attained during servicemembers' and veterans' 
military experience, thus maximizing the investment in training 
they have made during their service on active duty.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or Members of the 
Subcommittee may have.
    [The prepared statement of Ms. Cocker appears on p. 51.]
    Ms. Herseth Sandlin. Thank you, Ms. Cocker.
    Now according to your written testimony, and I think you 
have touched on it just now as well, the VA provides 
certification preparation tests. Can you specify for which 
specialties and how you determine if a veteran's eligible for 
participation in the preparation tests?
    Ms. Cocker. Yes, ma'am. Preparation tests can be provided 
to any servicemember or veteran that requires it in order to be 
able to pass the exam. The process will involve the VRC, the 
vocational rehabilitation counselor, sitting down with the 
veteran and preparing the rehabilitation plan, including any 
preparation tests that might be needed.
    Depending on the industry standard for those types of exams 
and whether a preparation exam is typically expected to help 
the individual pass, that could be a given in the 
rehabilitation plan that the preparation tests would be written 
in.
    However, if during the progress of the plan if it had not 
been written into the plan, it can be added later if the 
veteran feels that he/she is not confident enough to pass the 
test without a preparation course.
    Ms. Herseth Sandlin. On average, how long would it take for 
a servicemember or veteran to complete a transferable skills 
assessment from the point when they go through the vocational 
exploration phase, then receive an individualized and 
comprehensive plan, until they are employed in their chosen 
field? Do you have a rough average?
    Ms. Cocker. I do not have an average. I can take that 
question for the record. However, what I can say is that that 
is very individualized and dependent upon the level of 
education that that veteran will need to complete to get to the 
point of licensing and certification, if it is required for 
that occupation.
    The evaluation process, the comprehensive assessment, which 
includes the transferable skills assessment is conducted during 
the initial phase. And I can certainly provide average numbers 
for the evaluation and planning phase. I can take that 
question.
    [The VA subsequently provided the following information:]

         An evaluation and assessment of current skills is provided 
        after a veteran is determined eligible for Vocational 
        Rehabilitation and Employment (VR&E) services and meets with 
        one of VA's vocational rehabilitation counselors. Counselors 
        can use a multitude of transferable skills analysis (TSA) tools 
        in assessing the skills and abilities of each veteran and 
        developing a comprehensive plan of services and career goals. 
        The counselor gathers information about the veteran's 
        educational and occupational experience and uses that 
        information to complete a TSA. In some cases, counselors use 
        their expert knowledge of occupational requirements, without a 
        need for a structured tool, to analyze the veteran's skills.

         The TSA does not impose a delay in the processing and 
        development of a plan of services. The analysis itself can be 
        completed in 1 to 3 hours, depending on the complexity of the 
        veteran's background and disability conditions. Once the skills 
        are identified and a job goal is selected with the veteran, 
        continued development of the plan occurs until all services are 
        identified to enable the veteran to reach his/her goals. VA's 
        goal to complete the evaluation and planning phase in an 
        average of 105 days, and the national average as of June 2010 
        was 113 days. The average number of days it takes a veteran to 
        complete a program from plan development to the point of 
        successful employment in his/her field was 978 days as of May 
        2010.

    Ms. Herseth Sandlin. Okay. I appreciate that. Can you give 
any examples from different career fields where it has been 
particularly challenging to secure license or certification?
    Ms. Cocker. I don't have any specific occupations where I 
can say it has been challenging to achieve that.
    Ms. Herseth Sandlin. Any States?
    Ms. Cocker. I can take that for the record though and 
research it further.
    Ms. Herseth Sandlin. States, too?
    Ms. Cocker. I do not have any----
    Ms. Herseth Sandlin. Okay.
    Ms. Cocker [continuing]. Specific details on States where 
it has been more challenging than others. But I can take that 
question for the record.
    [The VA subsequently provided the following information:]

         VR&E counselors work diligently to develop rehabilitation 
        plans that utilize each Veteran's transferable skills from 
        active duty. Some veterans enter the VR&E program with 
        marketable skills, but must take additional courses or pass 
        exams to meet licensure or certification requirements to obtain 
        employment in their field. Counselors work closely with schools 
        and educational facilities to streamline this process to create 
        a smooth transition for Veterans.

         Counselors also work with programs that assist veterans in 
        obtaining degrees that apply a significant amount of military 
        credit. The National College Counseling Center is one program 
        that evaluates a veteran's training record and works to 
        identify colleges and degrees that will accept military 
        training. VR&E Service encourages all VA vocational 
        rehabilitation counselors to use programs such as the National 
        College Counseling Center to assist veterans in receiving the 
        credit they deserve for their military service.

         Strict requirements by schools and certification and licensing 
        organizations create a barrier for Veterans getting back to 
        work quickly using the skills obtained while in service. Most 
        educational facilities and training programs align core class 
        requirements with State and national licensing and certifying 
        bodies. For example, the National Council of State Boards of 
        Nursing, the National Registry of Emergency Medical 
        Technicians, the Dental Assisting National Board, and the 
        National Institute for Automotive Service Excellence have 
        stringent requirements that make it difficult for veterans to 
        use existing skills to obtain suitable employment in those 
        fields. State certification and licensing barriers also affect 
        veterans using current skill sets, and the requirements vary 
        from State to State. Although national certifying and licensing 
        organizations play a role in course requirements, many schools 
        design their curricula to meet the needs of 18-year-old high 
        school graduates, with little flexibility to apply the credit 
        Veterans have earned through military training.

         VR&E counselors will continue working with veterans to utilize 
        their current skills to the greatest extent possible in 
        returning to civilian employment. When veterans require 
        additional training, certification and/or licensing to become 
        employed, VR&E counselors incorporate those requirements into 
        veterans' rehabilitation plans and funds those requirements.

    Ms. Herseth Sandlin. Thank you, Ms. Cocker.
    Okay. Assistant Secretary Jefferson, I am going to start 
with one of these questions. But if it is something that you 
would want to go back and take a closer look at the record of 
our hearing on September 20th, 2007, and get back to us, I will 
just submit the other questions to you in writing.
    We did have a previous hearing about 3 years ago on the 
issue of licensure and certification. A witness informed us 
that in Fort Sam Houston after Army medics graduate from the 
medical training center, they have the option of taking an 
Emergency Medical Technician (EMT) exam.
    We were informed that it took 3 years to get all 50-plus 
jurisdictions to agree to accept this one exam that was a 
combination of written, oral, and practical. Do you know if 
this program--or maybe Mr. Campbell could answer. Are you aware 
of whether or not this program is still in existence at Fort 
Sam Houston or any other similar programs in the country that 
have worked to try to get all the jurisdictions to agree to 
take the results of the exam for purposes of their 
certification?
    Mr. Jefferson. Sure. When I was in the 3rd Ranger Battalion 
I actually went through the EMT program and got a complete 
certification myself. So I remember going through that program.
    I don't know what the current status of it is. I will--if 
my colleague has--John Campbell has anything to share, I 
welcome that. But what we will do is we will go back, we will 
research that, and provide information for the record.
    Ms. Herseth Sandlin. Mr. Campbell.
    Mr. Campbell. No.
    Ms. Herseth Sandlin. Mr. Horne.
    Mr. Jefferson. I will go ahead and take it for the record 
for both of us. And we will liaison with DoD to come up with an 
answer.
    Ms. Herseth Sandlin. I would appreciate that, because if it 
is still in existence, then we also need to look at whether or 
not it has been replicated or could be replicated in other 
areas.
    Mr. Jefferson. Absolutely.
    Ms. Herseth Sandlin. I mean this is what we are looking to. 
This is essentially the model we need----
    Mr. Jefferson. Yes.
    Ms. Herseth Sandlin [continuing]. In trying to streamline 
it so it doesn't take 3 years.
    Mr. Jefferson. Exactly.
    Ms. Herseth Sandlin. That we have things that we can point 
to that are working effectively----
    Mr. Jefferson. Yes.
    Ms. Herseth Sandlin [continuing]. That has set the 
precedent that might ease the way.
    Out of that hearing, there were workgroups that we talked 
about that had been set up under the guidance of Public Law 
109-461. I will submit some of these other questions with 
regard to what came out of that hearing and sort of progress 
that you could provide to date on the work of either the 
workgroups, working with service schools and industries. There 
was a solicitation for grant applications in the 2007 funding 
year. There was a DoD/DOL credentialing working group. So I am 
going to submit those questions----
    Mr. Jefferson. Thank you, Madam Chairwoman.
    Ms. Herseth Sandlin [continuing]. To the both of you. Then 
we will followup.
    [The DOL subsequently provided the following information:]

         We are not aware of whether this program is still in existence 
        at Ft. Sam Houston, or if there are similar programs in the 
        country. We have provided this question to the DoD for their 
        review. [The DoD provided a response in the answer to Question 
        1 of the Post-Hearing Questions and Responses for the Record, 
        which appears on p. 65.]

    Ms. Herseth Sandlin. Hopefully we have the program at Fort 
Sam Houston that sort of serves as a model for where we can 
make more progress.
    Are you aware, Assistant Secretary Jefferson, if there is a 
model whereby someone at the State level may have coordinated 
licensing and accreditation with State boards to allow National 
Guard and Reservists to directly transfer their license or 
certification to civilian employment in a State?
    Mr. Jefferson. Right now we are working with General Stultz 
of the Army Reserve, and also with Assistant Secretary Dennis 
McCarthy to look at some of the current programs out there.
    I think that there is a variety of initiatives, Madam 
Chairwoman, many of them effective but not all integrated. I 
know that there is one called GAPA.
    So we are working--we are reaching out to the Guard and 
Reserve. They have been very supportive, very helpful, and 
collaborative to find out what exactly is the nature of the 
apprenticeship initiative, and how we can look at it to broaden 
it, increase its scope, et cetera. So that is something that we 
are aware of and we are looking at. And how we can, you know, 
make it more robust, more effective.
    Ms. Herseth Sandlin. Okay. Mr. Campbell, Mr. Horne, are you 
working with State adjutant generals or others who may have 
been point people in State departments for military and 
veterans' affairs who have tried to coordinate efforts with 
State boards for purpose of National Guard men and women?
    Mr. Horne. Madam Chairwoman, we don't really know of any 
specific programs. But we will certainly get back to you if you 
give us that for the record. And we will collaborate with our 
partners at the National Guard Bureau and our other partners at 
the Reserve components, as Mr. Jefferson has already indicated.
    Ms. Herseth Sandlin. Okay. I know that Mr. Boozman and I, 
since we come from smaller States where we have had governors 
and adjutant generals who I think have been very proactive as 
have some other folks trying to grapple with some of what their 
National Guard men and women face when they come back from 
deployments.
    You know, even this is sort of 3 years removed, our combat 
tempo remains the same, even if it is higher on one front than 
the other from what it was 3 years ago.
    I think especially in high unemployment that continues to 
plague the recovery, as we seek to strengthen and sustain that, 
we really need to get moving on this. I appreciate the efforts 
you have undertaken during the tenure of the positions you have 
currently held.
    But we are more than happy to work with you and your 
agencies to get the governors more involved here, not just for 
National Guard men and women but for our active duty who are 
separating from service and are going home to where they grew 
up or staying in the State from the base where they recently 
separated.
    Especially for the younger veterans where the unemployment 
rates are remaining at a staggeringly high rate, we want to 
move quickly to identify if there are programs out there. If 
not, what we do to facilitate this in a more aggressive way.
    Mr. Jefferson. And, Madam Chairwoman, we have an Advisory 
Committee for Veterans' Employment of which the National 
Governors' Association is a member. And we are reaching out to 
them to get a higher level of engagement and participation in 
the Committee going forward.
    Ms. Herseth Sandlin. Thank you.
    Mr. Campbell. Madam Chairwoman.
    Ms. Herseth Sandlin. Yes.
    Mr. Campbell. There is a meeting scheduled next week, I was 
just informed, that will be meeting. There is a State liaison 
office within the DoD. And we are meeting with that group next 
week to talk about issues that involve the States.
    Ms. Herseth Sandlin. Okay.
    Mr. Campbell. So we will raise this.
    Ms. Herseth Sandlin. Thank you. Maybe just a final question 
on TAP. I appreciated in your oral testimony as well as the 
written testimony, and we have talked about this before, 
Assistant Secretary Jefferson, and I know, Mr. Campbell, you 
had mentioned TAP in your testimony as well.
    We heard from the prior panel just how we can customize it. 
I was pleased as you were taking us through sort of the six 
different phases.
    Mr. Jefferson. Six components, yes.
    Ms. Herseth Sandlin. The fourth phase or the fourth 
component is the customizing.
    Mr. Jefferson. Yes.
    Ms. Herseth Sandlin. I mean, just as you think about the 
program theoretically, is this something where you feel that 
there is a responsibility among the agencies to just provide 
sort of a minimum amount of information that every 
servicemember should be equipped with before separating from 
service. All servicemembers should get at least a floor of 
information. Then from there on out, depending on the 
particular servicemember's unique circumstances, desires, 
wants, needs, that you ratchet it up from there, going sort of 
to the issue of customizing.
    Rather than taking the time now in this hearing, because we 
will want to have others as we have had in the past 
specifically on TAP, I just want us to take a step back and 
just sort of say theoretically what do we think this program 
should be providing.
    Mr. Jefferson. Yes.
    Ms. Herseth Sandlin. How do we deal with the issue of the 
ongoing concern many of us have that not all servicemembers are 
getting access to it? As you know, it is mandatory for the 
Marines, but it is not mandatory for anybody else. I would just 
be curious from the two of you how you see it. Well, and Ms. 
Cocker, you as well. I mean, what is the base that we should be 
providing here?
    Mr. Jefferson. Yes. It is a great question. And it is one 
that we have been reflecting on. And I think we are making a 
lot of progress, because it is a very exciting program 
potentially. That is what it can be.
    I will tell you that on September 10th, VETS is meeting 
with the Deputy Secretary of Defense and the Deputy Secretary 
of Labor to talk in detail about what we can do in TAP to make 
a significant step forward in the scope, the reach, the impact. 
And I would say that this degree of collaboration is occurring 
at all levels between Labor, DoD, and VA.
    But let me just comment on the philosophical component. I 
think there are two elements of preparing servicemembers for 
effective careers. One is employment readiness and the second 
is certainty. The employment readiness is how ready are they in 
terms of their knowledge, skills and abilities for a career.
    The second is certainty. Do they know what they want to do? 
You can be very ready. You can have a great degree, some 
certifications, but you may not know how to use them. So we 
want to prepare them for both elements, the readiness and also 
the certainty.
    We feel we have finally, you know, cracked the riddle on 
segmentation, which is pre-work predictive assessments, 
assessing their employment readiness and also assessing the 
certainty. Then creating three different elements of TAP, so 
each person based upon their employment readiness gets a basic 
suite of knowledge, information, and training. And then they 
can decide how much further they want to go. And that online 
virtual resource we spoke about and the after TAP support will 
allow them to have further customization.
    If they just want the basics, they can get that in the 2\1/
2\ days. If they want the basics plus, or if they need 
refreshment on what they learned later, there is an online 
resource and then there is after TAP support.
    Ms. Herseth Sandlin. Mr. Campbell, I think in your 
testimony--I mean, is that complementary as what Secretary 
Jefferson sort of again--philosophically if you were--is that 
complementary to the point you made about we need a modern, 
innovative lifestyle approach that starts at the beginning of 
service? So that by the time we get to these components the 
servicemember is familiar with them, they kind of know better 
how to utilize them versus where the mindset is once there is a 
decision to separate.
    Mr. Campbell. Yes, ma'am. I just met Assistant Secretary 
Jefferson before the hearing, so we did not have a chance to 
compare notes. But our philosophy is similar. We believe that 
TAP should really start early on in the servicemember's career 
so it is not a rush at the end to fill them with as much 
information as you can so that he or she can check the box.
    It really is incumbent on us to have a program that 
educates them all along the way, so they can make informed 
decisions as they go through their career. And we think that is 
important, because at the end of the day we want these 
servicemembers, when they decide to leave the service, they 
remember the military as being really a very terrific place to 
work, because they got the training, the education, and they 
really brought them along and showed them exactly what the 
future may look like so they could make informed decisions. And 
they will be a great referral source for the military.
    Mr. Horne. And, Madam Chairperson, if I could add to that 
statement.
    Ms. Herseth Sandlin. Yes.
    Mr. Horne. Based on your question, Congress was very 
brilliant when you look at the construct of the TAP program in 
chapter 58 of title 10, especially section 1142.
    Ms. Herseth Sandlin. We will quote you on that. We haven't 
been called brilliant.
    Mr. Horne. I am sorry. I did it so often. But the layout of 
the pre-separation counseling really embodies the core 
curriculum standardized pieces of TAP as an overview. And in 
the wisdom of the statute and in our policy, you also added 
there should be an individual transition plan that should be 
unique to the individual servicemember.
    We agree with you. There should be some basic information 
from DOL, VA, both on the benefit side and the disabled veteran 
side. But once that core of what we call classroom or 
curriculum information is passed on to the servicemember, then 
they should move in. And this is where we need to wrap it up to 
a more robust, individualized transition plan that is unique to 
that one individual.
    If I may share with you very quickly that in fiscal year 
2009, after 179,000 plus a few hundred servicemembers retired 
and left active duty. During that same fiscal year, which is 
sort of like 179,000 people sitting in seats, we had over 1.28 
million individual demands for individual one-on-one services.
    So although it might not appear from some of those who may 
be falling through the cracks, there is a huge individual 
demand for the one-on-one assistance. And it is being provided 
every day by DOL, VA, and DoD.
    Ms. Herseth Sandlin. Do you feel that there are adequate 
career counselors across all three agencies to meet the 
magnitude of that demand?
    Mr. Horne. May we take that for the record?
    Ms. Herseth Sandlin. Yes.
    [The DoD subsequently provided the following information:]

         The DoD-DOL Credentialing Working Group will conduct a 
        comprehensive review and analysis of the various resources 
        currently providing licensure and certification counseling/
        coaching services within various DoD programs such as by 
        Command Career Counselors, education services officers, 
        Voluntary Education or TAP to determine if sufficient resources 
        are in place to provide the counseling and coaching required. 
        We will be able to answer this question once the results of the 
        review, which is expected to be completed no later than 
        September 30, 2011, are analyzed.

         Question: Is this service separate from TAP?

         Licensure and certification counseling/coaching is a service 
        separate from TAP for all the Military Services.

    Mr. Jefferson. We can always use more.
    Ms. Herseth Sandlin. Careful, Mr. Secretary. Ms. Cocker, do 
you have any final comments?
    Ms. Cocker. Yes, ma'am. And like the TAP program, the 
Disabled Transition Assistance Program, DTAP, we are currently 
in the process of looking at revising, and modernizing it; and 
trying to look at it from the perspective of what is it that 
our servicemembers today really need.
    We are considering what mediums we will use, instead of 
using just using the basic PowerPoint lecture method. Really 
looking at attention spans and what is going to capture their 
interests, so that they get the information in a way that they 
will really be able to absorb it. Because we recognize that not 
every servicemember is ready to hear the message that we have 
for them, and really absorb it, and take it to the next level, 
which is to pursue the benefit.
    So in addition to revamping DTAP, we also are continuing to 
increase our outreach efforts post-separation. But DTAP is 
being revamped. And we are currently in that process. And we 
are collaborating with our partners, DoD and DOL in that also.
    Ms. Herseth Sandlin. Thank you. Just one final question, 
Mr. Campbell. Should TAP be mandatory for all military branches 
to help separating servicemembers capitalize on their training 
and experience?
    Mr. Campbell. At the moment--at the present time the TAP is 
mandatory for the Marine Corps. The Navy it is mandatory unless 
the sailor opts out of the program.
    Ms. Herseth Sandlin. So the Navy has an opt-out program.
    Mr. Campbell. Has opt out, right. And the Army all 
components of TAP are mandatory for any soldier referred to a 
medical or physical evaluation board and any soldier assigned 
to a warrior transition unit. That is what we have now.
    Ms. Herseth Sandlin. In your opinion, do you think that the 
other branches should adopt the Marine Corps position?
    Mr. Horne. Madam Chairman, we are evaluating that policy 
right now. The Joint Executive Council have had two meetings on 
this issue. Mr. Jefferson will be appearing before the Council 
this coming September the 10th. Mandatory TAP is being looked 
at by Deputy Secretary Gould and Deputy Secretary Lynn.
    We will like to come back to the Committee with a written 
response if you give us it for the record, because the senior 
leadership is looking at that issue, realizing we have to weigh 
any mandatory policy with mission, OPS Tempo, those kinds of 
things from the commander's perspective.
    But we are looking at it. It is a very difficult issue. But 
we know we must do what is in the best interests of our 
servicemembers and their families at the end of the day.
    Ms. Herseth Sandlin. I appreciate and understand your 
response. I would just say for the record that Operations Tempo 
for the Marine Corps is probably here. The position they have 
taken on mandatory TAP is here. You can look at even as you 
described where the other branches are as it relates to 
mandatory TAP, everyone's been carrying a load here as it 
relates to combat tempo and operations tempo clearly.
    But I think we are all aware of what OIF and OEF have meant 
to the United States Marine Corps. We also understand that in 
the time of very tight Federal budgets, that there is a 
resource issue here.
    But we also recognize that this should be a priority. The 
state of the economy, and what these men and women have given 
to the country, and making their transition as smooth as 
possible should be a priority.
    I understand that you are evaluating it in part, because 
you are looking at it in tandem for improving the quality of 
the program. Because I can understand the reluctance perhaps of 
some of the other branches given even the mixed opinions of TAP 
as it currently exists from some of my constituents who have 
been through it. If you make something mandatory, that some 
members are going to find not useful, if you are going to make 
it mandatory, you want it to be of the highest utility in 
making that transition.
    I am glad to know that it is part of what is being 
evaluated in tandem with what I think is sort of the 
outstanding work and clear commitment of the Department of 
Labor to try to figure out a way to reform this program. 
Clearly, Mr. Campbell, your testimony of the need to, again, 
make it more modern, make it more innovative, start it earlier, 
maximize the utility, and hopefully thereby, you know, get the 
best return on the investment that we make, particularly if 
there is a decision which I think--I think we should make it 
mandatory. I think that is pretty clear what my position has 
been.
    But I thank you all.
    Mr. Jefferson. Madam Chairwoman.
    Ms. Herseth Sandlin. Yes.
    Mr. Jefferson. Would it be possible to just make two quick 
comments?
    Ms. Herseth Sandlin. Yes.
    Mr. Jefferson. First, I want to acknowledge the outstanding 
collaboration that has been taking place between DoD, VA, and 
Labor on this notion of transforming TAP and the fact that we 
are working with the Deputy Secretary's of Defense and VA on 
September 10th on this issue of mandatory TAP. I think it is a 
very important and serious step forward. I just want to 
acknowledge and welcome John to that community. And it is his 
first week.
    Secondly, our last hearing we did speak about the high 
unemployment for those veterans 23, 24 years old. And the fact 
that there are 50,000 of them. And we wanted to create an 
initiative. We do now have that Job Corps initiative. And the 
Department of Labor would be extremely appreciative of any 
assistance that your staffs could provide to help us raise 
awareness of this very timely program. We are signing up to 300 
veterans right now with other Members of Congress. The slots 
are there. If there are veterans in need, if you could help us 
raise awareness of that, we would be extremely appreciative.
    Ms. Herseth Sandlin. I will speak with Mr. Boozman and 
certainly our respective counsel and staff to brainstorm how we 
can be most helpful to your efforts.
    Mr. Jefferson. Thank you very much.
    Ms. Herseth Sandlin. Thank you to all of your testimony 
this afternoon. I look forward to working with all of you, the 
various Departments that you are representing here today, our 
veteran service organizations on the topics that we have 
discussed, so that we can find some effective strategies and 
solutions going forward.
    Thank you very much. Hearing stands adjourned.
    [Whereupon, at 3:20 p.m. the hearing was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    On March 12, 2010, the U.S. Bureau of Labor Statistics published 
its finding on the status of unemployed military veterans. The report 
highlights that veterans between the ages 18 to 24 had an unemployment 
rate of 21.6 percent in 2009. While these numbers are troubling, today 
we have the opportunity to build upon the progress we have made on the 
areas of education and employment that seek to address the high 
unemployment rates among veterans.
    This hearing seeks to build upon the feedback we received in 
previous hearings on licensure, certification and employment matters. 
During these hearings, we received testimony on the barriers 
encountered by veterans. Barriers such as: non-transferable Military 
Occupation Skills to the civilian sector; required supplemental 
training even though one's military career may have surpassed the 
requirement in some states; inadequate education benefits under Title 
38; and need to augment the Transition Assistance Program.
    I am glad to see we are joined by representatives from the 
Department of Defense which is responsible for training our men and 
women in uniform to meet the demands of their respective military 
career. I am also glad to see the Departments of Veterans Affairs and 
Labor who both oversee these unique benefits and programs that may help 
our nation's veterans gain meaningful employment after their military 
service.
    While servicemembers and veterans all have unique career goals, it 
is vitally important that all Federal agencies continue to work hand-
in-hand to provide the best licensing and certification assistance 
available to our men and women who have answered out nation's call to 
duty. I look forward to hearing from all of our panelists today so that 
we may continue to help our servicemembers and veterans.

                                 <F-dash>
       Prepared Statement of Eric A. Hilleman, Director, National
   Legislative Service, Veterans of Foreign Wars of the United States

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to provide testimony at today's 
hearing on licensure and credentialing for America's veterans. The 2.1 
million men and women of the Veterans of Foreign Wars and our 
Auxiliaries appreciate the voice you give them at this important 
hearing.
    Upon leaving the military, servicemembers typically follow two 
tracts: an educational tract or an employment tract. A transition 
process that is helpful and friendly is central to having a successful 
transition from active duty to civilian life. Securing licensure, 
credentials and/or education credit in areas comparable to their 
military experiences is a major component to a smooth transition. The 
VFW has found that previous military training and experience, whether 
in a technical field or on the battlefield, is not widely recognized by 
the private sector.
    When entering the military a servicemember is trained in a Military 
Occupational Specialty (MOS). This is often a field of interest for a 
servicemember and requires a concentration in a specific area within 
the military. Much of a veteran's post service life is shaped by the 
skills and training of their respective MOS. An MOS provides two 
distinct skill sets to veterans: highly recognized transferable skills 
and intangible skills. Highly recognized transferable skills include 
technical attributes, for example: a mechanic, nurse, or information 
technology specialist. The intangible skills are attributes that 
improve the work ability of a veteran. These skills aren't necessarily 
listed on a transcript or qualify the veteran for a license, for 
example those learned in an infantry combat role: organizational 
management, risk assessment, and leadership skills. Despite the highly 
recognized transferable skills being more accepted by industry leaders, 
MOS licensure and certification programs are still scant across private 
industry.

    Educational Credit

    The primary bridge between the military world and educational world 
is the American Council on Education (ACE). ACE evaluates military 
experience translating it into accreditation or college credit for its 
affiliate colleges and universities. When a servicemember leaves the 
military, they receive transcripts listing their training and 
experiences. Each service branch has their own system of tracking a 
servicemembers activities while in the military: AARTS (Army), SMART 
(Marines/Navy), CGI (Coast Guard), CCAF (Air Force). While slightly 
different, all transcripts list military training and coursework during 
service.
    The Department of Defense (DoD) contracts with ACE to review 
military courses of study and MOS for transferable credit into 
institutions of higher education. ACE examines specific MOS schools for 
education credit, recommending the credits be placed on transcripts of 
servicemembers. These recommended educational equivalents are then 
accepted or rejected by individual schools depending on the school, the 
nature of credit, and the veteran's course of study. Further, ACE 
produces a guide, ``A Transfer Guide; Understanding Your Military 
Transcript and ACE Credit Recommendations,'' which aids veterans and 
their educational institutions in better understanding how and what 
translates into college credit. According to the ACE Web site, ``More 
than 2,300 colleges and universities recognize these ACE-endorsed 
transcripts as official documentation of military experiences and 
accurate records of applicable ACE credit recommendations.'' ACE 
evaluations make it easier for veterans to apply to school, whether 
those veterans have highly recognized transferable skills or intangible 
skills. ACE's guide can be found at: http://www.acenet.edu/Content/
NavigationMenu/ProgramsServices/MilitaryPrograms/TransferGuide(4-6-
09).pdf.
    The number of schools accepting ACE credit varies by state. In 
South Dakota, for example, four colleges or universities accept full 
ACE recommendations, Arkansas has eleven, Nebraska has twenty-four, and 
Oklahoma has thirty-six. While ACE's recommendations help veterans, who 
would be at a serious disadvantage when applying for enrollment without 
ACE, many schools do not accept or recognize credits identified by ACE. 
Without recognized credit for military service, veterans are required 
to take course they may have already mastered through military service.

    Employment Credit

    Finding viable employment remains one of the largest challenges 
facing our veterans today. Many servicemembers seek civilian licensure 
for their military experiences, often requiring training and/or varying 
levels of experience. Success in securing licensing or certification in 
all fields varies by geographic location, prerequisite experience, MOS, 
and industry.
    For example, within the nursing profession, South Dakota and North 
Carolina accept only the Army Licensed Practical Nurse Program (MOS 
68WM6) for veterans to qualify for the state nursing test. Both states 
only accept the Army Licensed Practical Nurse Program as a prerequisite 
to sit for the accreditation test. Because nursing requirements are set 
by state regulation, different states, as well as different schools 
within those states, determine any credit, if any, for prior service.
    One industry of growing success for veterans is in Information 
Technology (IT). The Computer Technology Industry Association, or 
CompTIA, is a non-profit trade association advancing the global 
interests of information technology. Under their Educational Foundation 
is a program called Creating Futures, which provides free training and 
certification opportunities to groups such as veterans. Veterans and 
their spouses can qualify to receive free online training for 
certifications in numerous information technology certifications, such 
as, Linux, Security, and Server certifications. If a veteran has 
previous IT experience, they can qualify for higher certifications 
skipping over the most basic courses. The Creating Futures program is 
typically completed within three months and has helped hundreds of 
veterans receive credit and certification, regardless of their skill 
set.
    Each industry and state determines prerequisite experience for 
licensing and certification. With such a high degree of variance, 
veterans could benefit greatly from more centralized information 
recourses. Ideally, industry associations would invest in and promote 
translating specific MOSs into recognizable industry accreditation.

    Current Transition Programs

    The Transition Assistance Program (TAP) is the primary program 
thought of when examining transition assistance. TAP is offered to all 
military branches for servicemembers leaving the military. The 
mandatory workshop provides help with general skills such as resume 
building and interviewing, and they maintain a Web site which provides 
numerous internet job search engines. This is a great resource; 
however, by itself, it is inadequate in addressing veterans' need as 
they transition back into civilian life. TAP, like military 
transcripts, are less of a guide and more of a resource. It is also 
important to remember that TAP is offered at the time a servicemember 
is transitioning out of the military; many simply want to get home and 
are not immediately concerned with employment and education prospects.
    The VFW applauds ACE for their work and continues to support their 
efforts, as well as those schools that recognize ACE credit. The VFW 
also commends the many work sectors that recognize the value, 
importance, and abilities of veterans. Still, many educational 
institutions, as well as employers, have a difficult time understanding 
a veterans work abilities. We believe that this comes as a result of an 
inability to interpret, evaluate, and analyze a servicemembers past 
training and experiences.
    The VFW encourages all efforts to increase awareness of ACE among 
military members as well as educational institutions and employers in 
order to award veterans their due credit and recognize their many job 
attributes. The VFW also supports efforts to reach out to independent 
licensure and certification agencies within various work sectors on 
behalf of veterans. We must remember that all veterans, no matter their 
experience, understand the principles employers value as the foundation 
for success: discipline, dedication, and goal orientation.

    Reconditions

    The VFW recommends two broad scope studies, one on education 
credits and one on industry accreditation, to examine what and how 
military experience transfer into the private sector. When each study 
determines what is currently taking place across all branches of 
service and all MOSs, then recommendations can be made to expand 
successful programs. These programs can be then incorporated into the 
National Recourse Directory available through the TAP program.
    To examine and expand the current cooperation between the DoD and 
the American Council on Education, we would recommend Congress fund a 
complete study of every MOS across all branches of service. While not 
every MOS will have clear transferable credit, schools and veterans 
alike benefit from a comprehensive process resulting in clearly defined 
military-educational equivalencies. The 2,300 schools that accept 
military credits through ACE will have an expanded list of reviewed 
military credits and millions of veterans will have a detailed list of 
directly transferable military credit.
    The VFW also recommends a licensure and credentialing study to 
identify MOSs and their applicability in civilian employment in order 
to best gauge how to approach veteran employment. By examining direct 
skills and how they can be applied via state-by-state regulations, we 
could begin to see some standardization within industries. Through this 
study we would like to see the high variance of accepted military 
skills evolve into widely accepted accreditation specific to each MOS 
and apply those toward current industry practices.
    These suggestions, ideas and recommendations will not, in and of 
themselves, solve the educational and employment problems facing our 
nation's veterans today. We encourage Congress to consider these 
initiatives and programs. We believe the cumulative effect of a 
comprehensive study will help to achieve improvements in education and 
job quality for veterans and their families.
    We appreciate the opportunity to present our views to you today and 
we welcome any questions you may have.

                                 <F-dash>
         Prepared Statement of Joseph C. Sharpe, Jr., Director
           National Economic Commission, The American Legion

    Madam Chairwoman, Ranking Member Boozman and distinguished Members 
of the Subcommittee, thank you for the opportunity to submit the views 
of The American Legion regarding ``Licensure and Credentialing.''
    The American Legion asserts that veterans have been trained, 
educated, disciplined, and molded by the greatest military in the 
world, and yet a large number of these skills are deemed non-applicable 
in the civilian sector. The American Legion understands that veterans 
have attributes to make them extremely productive in the civilian 
sector. These attributes include an accelerated learning curve, 
leadership, teamwork, diversity and inclusion in action, efficient 
performance under pressure, respect for procedures, technology and 
globalization, integrity, consciousness of health and safety standards, 
and the ability to triumph over adversity.
    With all of these abilities, a casual observer would assume that 
veterans are easily employed and can transition their military 
experience to the private sector with ease. Unfortunately, that is not 
the case.
    There are several problems that exist for servicemembers 
translating their skills to the private sector: servicemembers might 
not know the credentialing requirements of their military specialty; 
credentialing boards are unaware of the comparability of military 
education, training and experience to the civilian sector or do not 
recognize military specific-training education, training and 
experience. The solution to this problem is through proper information 
dissemination by military leaders on civilian licensing and 
certifications, along with developing marketing campaigns to make 
civilian credentialing boards aware of transferable military skills and 
the quality of military education, training and experience. Another 
suggestion is that credentialing agencies could develop military-
specific credential requirements that recognize equivalent military 
training. Some universities and colleges take note of military training 
and grant college credits to veterans based on the amount of training 
they underwent. This could apply to credentialing as well.
    Another barrier is the cost of training to fill the disparities 
between military training and civilian training. In order to fill these 
gaps, servicemembers should have constant access to financial and 
training resources while they are still serving. Another means to 
filling this gap is by allowing vocational training to be accessed 
using the Post-9/11 GI Bill. The current law only allows Post-9/11 GI 
Bill recipients to attend classes at degree granting institutions. The 
American Legion's position is to allow vocational, apprenticeship, 
flight training and on-the-job training programs be included in the 
Post-9/11 GI Bill. The Servicemen's Readjustment Act 1944 allowed for 
vocational training with a significant amount of veterans taking 
advantage of this benefit. The men and women who served in harm's way 
should be entitled to a benefit that fits their personal needs.

    MILITARY TRAINING

    The Department of Defense (DoD) provides some of the best 
vocational training in the nation for its military personnel and 
establishes, measures and evaluates performance standards for every 
occupation with the armed forces. There are many occupational career 
fields in the armed forces that can easily translate to a civilian 
counterpart; additionally, there are many occupations in the civilian 
workforce that require a license or certification.
    In the armed forces, these unique occupations are performed to 
approved military standards that may meet or exceed the civilian 
license or certification criteria. Upon separation, however, many 
servicemembers, certified as proficient in their military occupational 
career, are not licensed or certified to perform the comparable job in 
the civilian workforce, thus hindering chances for immediate civilian 
employment and delaying career advancement. This situation creates an 
artificial barrier to employment upon separation from military service. 
Military Occupation Specialties (MOS) or ratings such as motor 
transport, corpsman or medic, need to undergo additional training, once 
out of the service, to work in their career path. This process slows 
down the veteran in obtaining gainful employment.
    A study by the Presidential Commission on Servicemembers' and 
Veterans' Transition Assistance identified a total of 105 military 
professions where civilian credentialing is required.

    MILITARY TRANSCRIPTS

    Military transcripts provided from each of the Armed Forces provide 
a very limited training and education record and at times incorrect, 
missing, or additional information is listed. The Army Training 
Requirements and Resource System (ATRRS), Navy's Sailor Marine American 
Council of Education (ACE) Registry Transcript (SMART), and the Air 
Force Institute of Advanced Distributed Learning (AFIADL) are all 
accepted by the American Council on Education.
    For example, National Guardsman and Reservists, many of them 
infantry, have enormous talents, skills, and attributes that they have 
used while in theater. However, because the tasks they performed are so 
unique and difficult to succinctly describe, they are left with an 
empty shell of a resume.
    When transitioning from military to civilian careers, many 
servicemembers can only list 11 B, Infantryman. It would be more 
advantageous if they can write 11 B, Infantryman, chief advisor to 
Mayor of Iraqi town, facilitator of incubator maintenance at local 
hospital, and more specified individual tasks. These OIF/OEF veterans 
have performed duties that could fall in line with many civilian 
professions. If a system could be devised to translate the full nature 
of a service Member's skills and abilities, as opposed to only listing 
a military occupation code, individual veterans would be positively 
affected.

    ONLINE ASSISTANCE

    There are so many Web sites for servicemembers and veterans to 
visit that it can become extremely confusing and complex. The Army and 
Navy COOL (Credentialing Opportunities Online) Web sites are excellent 
tools for potential recruits, current servicemembers, and transitioning 
veterans to use. The Air Force Personnel Center is also a useful tool. 
The Career One Stop and the Operational Information Network Online, or 
O*Net, both operated by the Department of Labor, are more helpful 
tools.
    These sites should be made easily accessible at all recruitment and 
transitioning stations. However, for those individuals who are 
constrained for time, have limited web access, are deployed overseas, 
and those with poor internet savvy, these Web sites are just not 
enough. The American Legion recommends more access of licensing and 
credentialing services at TAP sites.

    ACCESS AT TRANSITION ASSISTANCE PROGRAM FACILITIES

    The American Legion observes that transition assistance modules are 
excellent avenues for each individual U.S. state to access 
transitioning servicemembers. The American Legion supports mandatory 
TAP for transition servicemembers at least 180 days prior to the end of 
their contractual obligation. When servicemembers are at these TAP 
sites around the country, each state workforce agency or credentialing 
board can provide important information.
    Better coordination, communication and interaction of credentialing 
boards and the training commands of each of our Nation's armed forces 
are needed. Furthermore, military trainers, doctrine writers, and 
evaluation tests for military skills should coordinate with their 
civilian counterparts and attempt to synchronize military tests with 
their civilian counterparts.
    The majority of the onus and responsibility is on the veteran to 
contact authorization boards to ascertain what they will require to be 
successful in the profession that they choose. However, these boards 
should have two-way communication so that the onus is not completely on 
the veteran, especially in a time of war when they are focusing on 
their immediate tasks.
    The Council of Licensure, Enforcement and Regulation has a database 
of national approving boards. Listed below are selected Members of this 
national database. Each TAP site should coordinate with at least the 
following boards to have a representative participate. Additionally, 
each U.S. state regulatory board should also coordinate with TAP 
personnel and brief on transitioning servicemembers the unique relevant 
requirements needed for certification.

        <bullet>  National Association of State Boards of Accountancy 
        (NASBA)
        <bullet>  National Council for Architecture Registration Boards 
        (NCARB)
        <bullet>  The Federation of Chiropractic Licensing Boards 
        (FCLB)
        <bullet>  National Association of State Contractor Licensing 
        Agencies (NASCLA)
        <bullet>  American Association of State Counseling Boards 
        (AASCB)
        <bullet>  National Association of State Boards of Education 
        (NASBE)
        <bullet>  National Council of Examiners for Engineering and 
        Surveying
        <bullet>  International Conference of Funeral Service Examining 
        Boards
        <bullet>  National Association of Insurance Commissioners
        <bullet>  Council of Landscape Architectural Registration 
        Boards
        <bullet>  National Association of Boards of Examiners of Long 
        Term Care Administrators
        <bullet>  Association of Marital and Family Therapy Regulatory 
        Boards
        <bullet>  The Federation of State Medical Boards (FSMB)
        <bullet>  National Council of State Boards of Nursing (NCSBN)
        <bullet>  Association of Regulatory Boards of Optometry (ARBO)
        <bullet>  National Association of Boards of Pharmacy (NABP)
        <bullet>  The Federation of State Boards of Physical Therapy 
        (FSBPT)
        <bullet>  Association of State and Provincial Psychology Boards
        <bullet>  The Association of Real Estate License Law Officials 
        (ARELLO)
        <bullet>  Association of Social Work Boards (ASWB)
        <bullet>  American Association of Veterinary State Boards 
        (AAVSB)

    Web sites and online interaction are great tools but nothing can 
replace personal interaction. Personal visits by representatives of 
national and state boards at TAP sites and training commands can assist 
the transfer of military licensing and certification. At a minimum, 
these boards can provide a pamphlet or information sheet to put into a 
veteran's hand.

    CONCLUSION

    With over 2 million servicemembers having served in Iraq or 
Afghanistan, TAP and other transition programs need to be modernized to 
give relevant guidance and training to all transitioning servicemembers 
and their families. The American Legion supports efforts to eliminate 
employment barriers that impede the transfer of military job skills to 
the civilian labor market. We also support efforts that require DOD 
take appropriate steps to ensure that servicemembers be trained, 
tested, evaluated and issued any licensure or certification that may be 
required in the civilian workforce prior to separation. The American 
Legion supports efforts to increase the civilian labor market's 
acceptance of the occupational training provided by the military.
    There have been estimates that approximately 60 percent of the 
workforce will retire by 2020 and competent, educated, and capable 
individuals must replace the workforce in order to assure the United 
States retains its competitive edge in the world. The veterans of this 
nation make up a well-qualified disciplined pool of applicants. 
Increasing recognition of military training by integrating licensing 
and credentialing must be strengthened to assist our country's finest 
to achieve their professional goals.
    Again, thank you Madam Chairwoman, Ranking Member Boozman and 
distinguished members of the Committee for allowing The American Legion 
to present our views on this very important matter.

                                 <F-dash>
         Prepared Statement of Thomas Zampieri, Ph.D., Director
         of Government Relations, Blinded Veterans Association

INTRODUCTION

    Chairwoman Herseth Sandlin and Ranking Member Boozman and members 
of the House Veterans Affairs Subcommittee on Economic Opportunity on 
behalf of the Blinded Veterans Association (BVA), we thank you for this 
opportunity to present our testimony today regarding Licensure and 
Certification of Transitioning Veterans. As you know the unemployment 
rate for our returning veterans today is terrible and anything we can 
do to address this issue is critical because unemployment causes 
economic as well as additional psycho-social stress for not only the 
veteran but their families. BVA is celebrating 65 years of service and 
is the only Veterans Service Organization (VSO) exclusively dedicated 
to serving the needs of our Nation's blinded veterans and their 
families.
    BVA has joined with the other VSOs in making recommendations today 
to improve the unemployment numbers for our veterans which now exceed 
the national rate 14 percent and even higher for some reserve and 
National Guard members. We would urge those who are disturbed by those 
general unemployment numbers to please consider the rate of 
unemployment for disabled working age population (18-64) with sensory 
loss in America is 45 percent and they also face more challenges in 
this time of economic instability. Improving VA Vocational 
Rehabilitation Chapter 31 subsistence allowance and ensuring that the 
new Post-9/11 GI bill covers as many types of educational programs as 
possible is vital in improving this employment picture for veterans. 
Along with this must be the ability to transition military skills into 
civilian jobs by obtaining college credit hours for the Military 
Occupational Skill (MOS) education they receive often over years of 
their service to our nation.
    With any veteran today the ``pileup of unemployment'' in the 
current economy is worse when one reviews recent article describing how 
the bottom fell out for the job market for the most recent college 
graduating class of 2009. The Collegiate Employment Research Institute 
at Michigan State University, which tracks trends in employment of new 
college graduates nationwide found last spring large employer companies 
hired 42 percent fewer graduates than they had originally targeted when 
the school year started in 2008. In 2009 the unemployment rate for four 
year degree graduates stood at 8.8 percent double what it was in 2006. 
Veterans returning from the wars are competing in the age group of 21-
to-24 year old college graduates who are unemployed and then adding to 
this mixture is the older experienced workers, who have been laid off 
searching for even entry level jobs, they often have advanced degrees 
with previous senior experience worsening this overall situation more 
slowing down the normal escalator of career progression.\1\
---------------------------------------------------------------------------
    \1\ The Next Economy ``Children of Great Recession'' Ronald 
Brownstein Summer 2010 pages 5-6.

---------------------------------------------------------------------------
SERVICEMEMBERS OCCUPATIONAL CONVERSION AND TRAINING

    As the VA Committee examines the entire issue of returning 
servicemembers with military skills that are not easily converted into 
civilian employment. Congress might consider restarting a program 
similar to the Servicemembers Occupational Conversion and Training, 
(SMOCTA) program. Instead of being funded by the Department of Defense 
as in the old program we recommend it should be administered by the VA 
and the DOL. This was considered one of the better programs to serve 
transitioning military personnel in 1990's that have limited 
transferable military occupational skills MOS that do not correlate 
with civilian positions. SMOCTA also would assist those Reserve and 
Army National Guard members reentering the workforce following 
deployments.

MILITARY MEDICS AND CORPSMEN TRANSITIONING

    According to the Veterans of Foreign Wars more than 1,300 Army 
medics have served in Afghanistan, and more than 8,000 have served in 
Iraq, based on the number of Combat Medical Badges awarded. More than 
97 percent today of soldiers who are wounded are being saved (compared 
with 80 percent in Vietnam) and many credit the advanced emergency 
medical training of medics and corpsmen for this front line improvement 
in survival rates.\5\ If these skilled medics and corpsmen can provide 
primary and emergency care in a combat zone, they can be a huge benefit 
in rural and remote areas here at home--provided they are given the 
chance to do so with complementary civilian college PA education. Today 
PAs are well established in the civilian, military, and other federal 
health care systems, but barriers in the academic community prevent 
experienced medics and corpsmen from ever entering PA college program 
despite the fact they have on average 704 hours of initial medical 
training and for Special Forces Medical Skills (SFMS) training is 48 
weeks in length.
    On April 15 2010, this Subcommittee and on May 25, 2010 before the 
VA Committee Round Table discussion on employment issues the VSO 
witnesses cited the same problem of returning highly experience combat 
Army medics, Navy corpsmen, Air Force paramedics not being able to find 
jobs that accepted the high level of military advanced medical training 
and emergency medical care experience they had obtained. BVA along with 
the other VSO's would recommend that the VA Subcommittee include 
legislation this session for pilot ``Veteran Medic/Corpsman Transition 
to PA Program'' that would provide funding assistance in the form of VA 
Transition educational grants to accredited Physician Assistant 
Programs that provide the veteran student with these medical skills the 
additional college education necessary for certification and licensure. 
Grants would help the pilot college programs in doing individual 
transcript assessments, educational academic course counseling, develop 
training plans, and supportive services for the veteran applicant. I 
would point out that in the late 1960's and into 1970's when thousands 
of returning Vietnam combat medics and corpsmen were strongly 
encouraged to attend PA programs because of their emergency medical 
life saver skills this was highly successful. The Department of Labor 
has listed the physician assistant occupation in the top ten 
occupations for career growth in next decade and the demand for rural 
health care providers is growing.

FROM SOLDIER TO STUDENT BRIDGING THE GAPS of TRANSITION

    In a ground breaking educational survey of academic colleges and 
universities report July 2009 ``From Soldier to Student Bridging the 
Gap of Transition of Servicemembers on Campus'' the American Council on 
Education (ACE) working with Servicemembers Opportunity Colleges (SMOC) 
and American Association State Colleges and Universities (AASCU) 
examined the current state of veterans transitioning into academic 
programs. While more than half of those who responded to surveys (57 
percent) offer programs and services specifically designed for 
veterans, these were in the Office of Financial Aid offering 
information on loans, discounts for veterans, and college aid for 
veterans. Only (49 percent) offered office for employment services and 
even fewer (48 percent) offered veterans an office for academic 
advising. Significantly fewer 33 percent offered programs or services 
specifically designed to assist veterans with physical disabilities and 
less visible disabilities such as Traumatic Brain Injury (TBI) and 23 
percent had staffed trained to assist veterans with these conditions 
respectively.\2\ While many colleges surveyed have plans to increase 
the programs for veterans on campuses that leaves gaps for those trying 
to enter colleges today.
---------------------------------------------------------------------------
    \2\ From Soldier to Student Bridging the Gap of Transition of 
Servicemembers on Campus July 2009 ACE page iii.
---------------------------------------------------------------------------
    Focus groups of veterans highlighted that more academic counseling 
services to analyze and award credit for military training and 
occupational skills is necessary. While the AARTS/SMART Programs 
provide active duty personnel or veterans of the Army (AARTS) or Navy, 
Air Force, and Marine Corps (SMART) with an official transcript of 
military training or courses evaluated by American Counsel Education 
(ACE) and 2,300 public colleges do recognize these ACE endorsed 
transcripts as official documentation of military training, the student 
veteran must still find the academic counselor who will match the 
courses to admission and degree requirements which is lacking on many 
campuses.\3\ The American Association Collegiate Registrars and 
Admissions Office (AACRAO), along with Council For Higher Education 
Accreditation (CHEA) and ACE developed and published a joint statement 
on the issue of ``transfer and Award of Academic credit. It is 
important because it highlights that in the world of changing academic 
programs, with growing on-line degree programs, and institutions 
offering distant learning credits, that it is still up to the 
individual academic institution to consider inter-institutional 
transfers of credit involving these considerations: (1) The educational 
quality of the learning; (2) the comparability of the nature, content, 
and level of the learning experience to that offered by the receiving 
institution; and (3) The appropriateness and applicability of the 
learning experience to the programs offered by the receiving 
institution in light of the student's educational goals.
---------------------------------------------------------------------------
    \3\ From Solider to Student Bridging the Gap of Transition July 
2009 Page 23.
---------------------------------------------------------------------------
    In questioning former military medics and corpsmen, they also 
pointed to these Web sites where military occupational skill (MOS) 
courses can be translated into credits for courses completed. The use 
Navy College.com and the American Council of Education (ACE): http://
www.acenet.edu/AM/Template.cfm?Section=
Military_Programs.
    Which uses this site for colleges to evaluate course taken in the 
military: http://www.acenet.edu/Content/NavigationMenu/
ProgramsServices/MilitaryPrograms/ResourcesCollegeUniv.htm. However, 
former corpsmen point to the difficulty of having academic institutions 
accept that the Navy medical corpsmen may attend variety MOS medical 
skill schools ranging from the basic A school ``Navy Hospital Corpsmen 
School'' and then other senior enlisted B and C schools that focus on 
more advanced medical skills training from everything from Operating 
Room, Aviation, Special Operations Warfare, Diving, Tropical Medicine, 
with each adding higher levels of skill training and experience. Part 
of this complex struggle is not just translating the military courses 
into college credits but finding academic counselors who will 
individually assist the veteran with proper academic placement within 
any civilian college degree program.

VOCATIONAL REHABILITATION SERVICES

    In FY 2009, VR&E was authorized 1,105 FTEs. As endorser with IBVSOs 
BVA is concerned members of the committee when informed that this 
number has been ``frozen'' due to the unknown impact the implementation 
of chapter 33 benefits will have on the VR&E program. Last year, VSOIB 
recommended that total staffing be increased to manage the current and 
anticipated workload as stated in the Secretary's VR&E Task Force. VA 
currently has approximately 106,000 enrollees in Chapter 31. The IBVSOs 
believe that a ratio of 1:96 (which includes administrative support) is 
inadequate to provide the level of counseling and support that our 
wounded and disabled veterans need to achieve success in their 
employment goals. BVA supports the recommendation of the IBVSOs that 
Congress should authorize 1,375 total FTEs for the Vocational 
Rehabilitation and Employment Service for FY 2010. The Chapter 31 VR 
subsistence and housing allowance must be increased to allow service 
connected disabled veterans the ability to meet the additional costs of 
attending school.

CONCLUSIONS

    Madam Chair and members of this subcommittee, BVA would appreciate 
inclusion of the following issues in your list of changes as you move 
forward to improve the employment situation for our veterans. Our 
military servicemembers since 2001 have repeatedly sacrificed for their 
country and while congress is trying to create higher employment for 
our citizens our veterans should be given special consideration and 
additional educational assistance. BVA again appreciated the chance to 
provide this testimony and will answer any questions you might have 
now.

RECOMMENDATIONS:

        1.  Disabled veterans must experience a real seamless 
        transition from the DoD to the VA disability Vocational 
        benefits program with adequate staffing to meet the needs of 
        this growing population of service connected veterans. It 
        requires that the continuum of health care and VA benefits 
        processing be done efficiently--through a special office of 
        compliance if necessary between DoD and VA.
        2.  Recommend pilot educational assistance grant program for 
        five years for Physician Assistant Programs to assist returning 
        veterans with medical skills into the programs with grants as 
        Military Pathways Demonstration Programs. These grants to 
        accredited physician assistant colleges would assist 
        transitioning military medical personnel to build upon 
        occupational military medical skills in military jobs to enter 
        the growing demand for physician assistant workforce.
        3.  BVA supports the recommendation of the IBVSOs that Congress 
        should authorize 1,375 total FTEs for the Vocational 
        Rehabilitation and Employment Service for FY 2010. The Chapter 
        31 VR subsistence and housing allowance must be increased to 
        allow service connected disabled veterans the ability to meet 
        the additional costs of attending school.

                                 <F-dash>
            Prepared Statement of Master Chief Petty Officer
       Vince Patton, III, USCG (Ret.), Ed.D., Director, Community
                Outreach, Military.com/Monster Worldwide

                           Executive Summary:
    1. Purpose:  What Military.com is doing to assist servicemembers in 
transferring their military training and experience to the civilian 
sector as they seek employment opportunities.

    2. Overview of Military.com:

        a.  Created in 1999 as a private company focusing on providing 
        news, information on military and government benefits, career 
        services, educational opportunities targeted to the military 
        community. Membership is free to anyone who has an interest and 
        affinity to the military community.
        b.  Military.com is the largest military and veteran 
        organization with over 10 million Members; it is also the ninth 
        largest news destination site on the Internet.

    3.    Military.com's view on transition assistance:

        a.  `TAP' provides a large amount of information to 
        transitioning servicemembers in a short period of time. 
        Veterans often view their TAP experience as overwhelming and 
        sometimes incomprehensible because of the volume of information 
        covered.
        b.  With over 250,000 servicemembers transitioning annually, it 
        is next to impossible to deliver an effective `one size fits 
        all' transition program. Technology, particularly personalized, 
        comprehensive online access, is part of the solution in 
        supporting and assisting and effective transition process.

    4. Military.com's Career Transition Center tools:

        a.  Veteran Career Center provides a variety of interactive 
        tools and resources, which includes a `military-friendly 
        employer' job board, personalized email alerts, resume writing 
        tools, education and training information and mentoring.
        b.  Veteran Career Network consists of over one million 
        Military.com members who have volunteered to support 
        transitioning servicemembers as mentors.
        c.  Military Skills Translator offers veterans a unique online 
        tool using the O*Net Occupational Data from the Department of 
        Labor coupled with equivalent jobs currently posted on the 
        Monster.com job board to help in translating military 
        experience to civilian occupation.

                               __________

    Madam Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, thank you for inviting me to appear before you today to 
discuss issues associated with veterans employment. Today I will 
discuss what Military.com is doing to assist servicemembers in 
transferring their military training and experience to the civilian 
sector as they seek employment opportunities.
    Over the course of my 30 year career in the U.S. Coast Guard, I 
regularly assisted Members with their transition to civilian life. This 
experience combined with my current position as Military.com's director 
of community outreach has given me insights into the unique challenges 
our veterans face during the transition to civilian status, 
particularly when it comes to explaining their knowledge, skills and 
abilities for civilian employment opportunities.
    In your invitation, you noted that there is a strong consensus in 
the veteran community that more needs to be done to help servicemembers 
transition their Military Occupational Specialties (MOS) to the 
civilian sector.
    Military.com was founded in 1999 by a young Navy reservist to 
revolutionize the way our 30 million Americans with military affinity 
stay connected and informed. Today, Military.com is the largest 
military and veteran Membership organization with more than 10 million 
Members and we're the ninth largest news destination site on the 
Internet. Our free membership connects servicemembers, military 
families and veterans to each other and to all the benefits of service 
at all stages in their lives--government benefits, resources and career 
services, education information and scholarships, discounts, news and 
discussion forums to share the great stories and challenges inherent in 
military life, and more.
    In 2004, Military.com joined forces with Monster Worldwide to 
accelerate our growth and change the playing field for career and 
educational opportunities for active duty personnel, as well as Guard 
and reservists, veterans and military spouses. Monster's vision is 
bringing people together to advance their lives. This partnership 
reinforces Military.com's ``members first'' ethos and mission.
    I can say from personal experience that one of the most important 
stages in the life of a servicemember is their transition out of 
uniform and into the civilian sector. Throughout my career, from boot 
camp until retirement, I was reminded of the high value of the skills, 
knowledge and abilities I was accumulating while in uniform. I, like 
many of my fellow servicemembers, took advantage of continuing 
education opportunities, as well as additional responsibilities that 
required extensive training. We were motivated to do this in large part 
because we understood that our military skills and experiences were 
highly valued and transferable to private sector jobs.
    Before an active duty members transitions to civilian status, they 
are required to participate in the government's Transition Assistance 
Program (TAP) which, among many other subjects, addresses career 
transition. Before leaving the service I experienced firsthand its 
strengths and weaknesses. I believe many veterans who participated in 
TAP would agree that its format simply didn't deliver what we needed. 
The large amount of information presented over such a short period of 
time was overwhelming and to a large extent, incomprehensible. This 
continues to be true today for this generation of veterans, 
particularly when it comes to careers and employment.
    With over 250,000 servicemembers transitioning annually, many after 
multiple operational deployments, it is next to impossible to deliver 
an effective `one size fits all' transition program. There are so many 
end-of-service processing activities that occur in the course of the 
final three to 6 months prior to separation which require a 
servicemember's immediate attention, not the least of which is finding 
a job. While it may have been an effective approach years ago, the 
current program is simply not serving our men and women in uniform as 
it suggests that there is a simple, single event to address such a 
complex and challenging stage in our lives.
    This leads to the question of what should the government do to 
ensure that military members are adequately prepared for civilian life, 
particularly employment in the private sector? Military.com believes it 
has to be a high tech and high touch approach, one which leverages 
technology and relationships. In this day and age of instant 
communication, the Internet is a daily resource for information 
gathering and communication. Veterans today, especially those who have 
deployed to Iraq and Afghanistan, are technologically savvy and 
gravitate to using online resources. Clearly technology, particularly 
personalized, comprehensive online access, is part of the solution in 
supporting and assisting an effective transition process.
    Recognizing this, Military.com's Veteran Career Center uses 
technology to successfully deliver a personalized experience with a 
variety of interactive tools and resources. We offer the largest 
veteran job board in the world featuring military-friendly employers as 
well as hundreds of thousands of job postings available through our 
Monster.com database. We also offer personalized email alerts for new 
postings that match a veteran's resume and job interests, as well as 
resume writing tools, education and training information, mentoring 
through our Veteran Career Network and electronic newsletters with news 
and employer information.
    To help veterans begin their new career search, we developed our 
Military Skills Translator.
    We use Department of Labor's online resource known as `O*Net 
Occupational Data' as a baseline to translate current and older MOS 
codes into civilian occupations. Then Military.com takes it one step 
further: we present the veteran with equivalent jobs currently posted 
on the Monster job board, including those posted by thousands of 
military employers specifically looking for veterans. The veteran can 
immediately apply to one of these jobs from our site, or review the job 
postings and learn what specific experiences, skills, education and 
training employers are seeking for this type of position. This 
information can help the job seeker better `civilianize' their military 
experience on their resume and best communicate the skills, knowledge 
and abilities they acquired while in service.
    Through the Military Skills Translator, not only are veterans 
empowered to apply to currently available jobs, they can also see 
Members of Military.com's Veteran Career Network who have indicated 
they held that same MOS. One of our fastest growing services, still in 
``Beta'' form, is the Veteran Career Network, a mentor network that 
connects veterans seeking new careers with employed veterans as well as 
military supporters. Military.com members who volunteer for this 
feature create a profile containing details about their military 
service, professional interests, and their current job position and 
employer. Veterans using this feature can find a career network mentor 
by company, government agency, career field, industry or geographic 
location. Once the veteran job seeker has identified someone with whom 
they would like to network, he or she can contact a mentor directly and 
securely using our Military.com email tool.
    Since the implementation of our Veteran Career Network in 2007, 
over one million Military.com members have signed up to network with 
other veterans and help transitioning servicemembers jump start their 
civilian careers. We find that veterans across generations are willing 
to connect with each other out of a basic affinity for their shared 
military experience, whether the same service, unit or command 
assignment, rank or MOS, for example. Our Veteran Career Network is 
another example of how Military.com leverages veterans' needs and 
community affinity with technology to deliver a powerful, meaningful 
online experience to accelerate employment opportunities.
    Military.com's success over the past 10 years is also attributable 
to the strength of our partnerships with the private and public 
sectors, both ``online'' and ``offline.'' For example, we partner with 
the Noncommissioned Officers Association to host more than 30 veteran 
career fairs annually on or near military installations around the 
country. We have tremendous participation from military-friendly 
employers who come ready to hire as well as organizations like `Helmets 
to Hardhats,' which focuses on hiring veterans for the building and 
construction trade occupations, and `Troops to Teachers,' which 
advocates the teaching profession as a second career for veterans. The 
American Legion also attends our career fairs to assist veteran job 
seekers with important details about their benefits and state veteran 
service offices frequently attend our events to ensure job seeking 
veterans are aware of all of the Veterans Administration resources 
available to them locally.
    Again, I would like to thank the Subcommittee for the opportunity 
to present this testimony and share what Military.com is doing to make 
a positive impact on veteran employment. I'm pleased that Congress is 
placing such a high priority on reforming TAP and that leadership in 
the Departments of Labor, Veterans Affairs and Defense are equally 
committed to delivering a responsive, innovative 21st Century solution 
to our transitioning servicemembers. We appreciate the efforts of this 
Subcommittee to address the critical employment issues that veterans 
face and look forward to working with you, our Federal agencies, 
employers and other stakeholders to make meaningful changes.
    Madam Chairwoman and Members of the Subcommittee, this concludes my 
statement. I would be pleased to answer any questions you may have.

                                 <F-dash>
 Prepared Statement of Hon. Raymond M. Jefferson, Assistant Secretary,
  Veterans' Employment and Training Service, U.S. Department of Labor

    The Veterans' Employment and Training Service (VETS) proudly serves 
Veterans and transitioning servicemembers by providing resources and 
expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights.
    VETS understands the need to provide a clear pathway for Veterans 
to transfer the significant experience they gain in the military toward 
good jobs in the civilian economy. Our nation needs an increasingly 
skilled workforce and the Department of Labor recognizes that the 
skills obtained during an individual's military service can meet or 
exceed the requirements of the civilian workforce.
    The Department of Labor and VETS are facilitating this through 
innovative programs and collaborative engagement with public, private 
and nonprofit sector organizations that can accelerate the licensing 
and certification of our nation's Veterans.

        <bullet>  Redesign of the Transition Assistance Program (TAP) 
        Employment Workshop with a particular emphasis on accelerating 
        separating servicemembers' transition into meaningful civilian 
        careers and improve the process for transitioning 
        servicemembers looking for licensing and credentialing based on 
        their military skills and training.
        <bullet>  Coordination with the Department of the Navy to 
        support the United States Military Apprenticeship Program 
        (USMAP).
        <bullet>  Online assistance through O*Net, a database of 
        occupational requirements and worker attributes, and the 
        Workforce Credentials Information Center, a site that provides 
        detailed information and guidance on how a Veteran or 
        transitioning servicemember can translate military skills and 
        experience into credentials.
        <bullet>  Job Corps/VETS demonstration project that will allow 
        300 Veterans 20-24 years old to obtain training at no cost, 
        leading to an industry-recognized certification or state 
        licensure.
        <bullet>  Increased engagement with employers to increase the 
        hiring of Veterans and transitioning servicemembers, since 
        these employers oftentimes will assist in providing a new 
        employee with the required licensing and certification to 
        perform their work duties.
        <bullet>  Council on Veterans' Employment initiatives to 
        increase the number of Veterans in the Federal workforce to 
        leverage the considerable investment that the country has made 
        in military training and experience.

                               __________

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee:
    Thank you for the opportunity to appear as a witness before the 
Subcommittee and speak to you on the role of the Veterans' Employment 
and Training Service (VETS) in assisting transitioning servicemembers 
and Veterans in translating their military education and experience 
into licenses and certifications in the private sector.
    Every day, we are reminded of the tremendous sacrifices made by our 
servicemembers and by their families. One way that we can honor their 
sacrifices is by providing them with the best possible services and 
programs our Nation has to offer. Secretary Solis and I believe 
strongly that Veterans deserve the chance to find good jobs, and VETS 
works closely with the Departments of Defense (DoD), Homeland Security 
(DHS), and Veterans Affairs (VA) to help them get there.
    VETS proudly serves Veterans and transitioning servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights. We do that through four major programs that 
are an integral part of Secretary Solis's vision of ``Good Jobs for 
Everyone.''

        <bullet>  The Jobs for Veterans State Grants;
        <bullet>  The Transition Assistance Program Employment 
        Workshops;
        <bullet>  The Homeless Veterans' Reintegration Program; and
        <bullet>  The Uniformed Services Employment and Reemployment 
        Rights Act.

    We have created five aspirations that VETS will pursue during my 
tenure as Assistant Secretary in order to achieve our desired outcomes:

        1.  Providing Veterans and transitioning servicemembers a voice 
        in the workplace through serving as the national focal point 
        for Veterans' Employment and Training.
        2.  Creating a path to good jobs for Veterans through increased 
        engagement with employers, with a particular emphasis on the 
        private sector.
        3.  Helping servicemembers transition seamlessly into 
        meaningful employment and careers while emphasizing success in 
        emerging industries such as green jobs.
        4.  Facilitating a return to work for Veterans and protecting 
        vulnerable populations through boosting USERRA's impact by 
        increasing awareness of and commitment to servicemembers' 
        employment rights.
        5.  Investing in VETS' Federal team members and emphasizing 
        continuous improvement to further develop their potential and 
        better serve our clients. VETS' Federal staff has received 
        training in team building, customer service and networking that 
        will assist in serving our clients.

    Today's hearing focuses much needed attention on the ability of 
transitioning servicemembers and Veterans to translate their military 
experience and education into civilian licenses and certifications. The 
Department appreciates the Committee's interest in this very important 
issue for Veterans. The topic is especially relevant for Veterans 
returning from Operation Iraqi Freedom or Operation Enduring Freedom 
who need to obtain a license or certificate to pursue a career using a 
skill set learned in the military.
    One of President Obama's promises to Veterans is to provide them 
with the best possible programs and services. The Federal Government is 
interested in finding ways to ease Veterans' transition through a 
nationwide licensing and certification program that encompasses many of 
the more popular careers, and VETS has been supporting this effort in 
ways that are described below. We have discovered barriers to a 
national approach, but are making significant efforts to address them 
and improve the connectivity between military and civilian careers.
    Our Nation needs an increasingly skilled workforce and the 
Department of Labor recognizes that the skills obtained during an 
individual's military service can meet or exceed the requirements of 
the civilian workforce. However, the determination whether to require a 
certification or license for many professions, such as an electrician 
or plumber, is made by State and local governments. These requirements 
are often unique and can vary greatly from location to location. This 
prohibits the creation of a nationwide standard in many of the 
professional fields that we have identified.
    To ensure that we can support the smooth transition of our 
servicemembers into civilian careers, VETS has aggressively focused on 
educating transitioning servicemembers about the requirements for 
licensing and certification and providing them with the information on 
how to obtain this. VETS accomplishes this by providing Veterans with 
information on licensing and certification programs and opportunities 
through the Transition Assistance Program.

    Transition Assistance Program

    The primary purpose of the DOL/VETS Transition Assistance Program 
(TAP) Employment Workshop is to provide transitioning servicemembers 
with a solid foundation of knowledge and tools to assist in their 
successful transition into the civilian workforce. We are in the 
process of transforming our TAP employment workshops to make them more 
engaging, economically relevant and immediately useful. In 2009, over 
120,000 transitioning servicemembers attended these workshops.
    VETS will redesign TAP in 2011 to update and improve the complete 
TAP Employment Workshop with a particular emphasis on accelerating 
separating servicemembers' transition into meaningful civilian careers. 
This redesign will encompass the entire curriculum, delivery methods, 
and student materials. Our goal is to create a world-class program that 
most effectively meets the needs of transitioning servicemembers 
entering the 21st century workforce.
    Several aspects of the redesign will improve the process for 
transitioning servicemembers looking for licensing and credentialing 
based on their military skills and training. TAP will provide 
predictive assessments which include online and/or written assessment 
tools to appraise and provide participants with information on the 
following:

        <bullet>  Individual strengths--professional and qualitative
        <bullet>  Professions for which they are best suited and, based 
        on data, have the highest chances of success

    The TAP online curriculum will include a ``Skills Appraisal of 
Transferable Skills'' assessment tool; a ``Signature Strengths'' 
assessment tool; and a ``Work Preferences and Work-Related Values'' 
assessment tool. These tools will enable transitioning servicemembers 
to identify the appropriate certification program that meets their 
career goals.
    Additionally, the TAP redesign will help transitioning 
servicemembers better understand the Verification of Military 
Experience and Training (VMET) document. DoD and DHS provide this 
document to certify job skills and experience acquired while on active 
duty that may apply to licensing and certification for employment in 
the civilian sector.
    The current TAP workshop helps acquaint transitioning 
servicemembers with licensing and certification resources available 
through the government. This includes Web sites such as the Army and 
Navy Credentialing Opportunities On-Line (COOL) sites 
(www.cool.army.mil, www.cool.navy.mil). Two Department of Labor Web 
sites, the Workforce Credentials Information Center and Occupational 
Information Network (O*Net), provide detailed information on civilian 
workforce skill requirements and credentials, along with a separate 
section on military resources.

    Registered Apprenticeships

    DOL also coordinates with the Department of the Navy to support the 
United States Military Apprenticeship Program (USMAP), which provides 
over 15,000 active duty Coast Guard, Marine Corps, and Navy 
servicemembers with the opportunity to complete civilian Registered 
Apprenticeship requirements while they are on active duty. DOL issues a 
nationally recognized ``Certificate of Completion'' to servicemembers 
who complete their apprenticeship. Many state licensing boards for 
occupations in the building and construction industry, such as 
electrician and plumber, often require individuals to demonstrate 
completion of Registered Apprenticeship to sit for the licensing 
examination. Additionally, DOL facilitates veterans and transitioning 
servicemembers' access to Registered Apprenticeship opportunities 
through coordination with the Building and Construction Trades 
Department, AFL-CIO's Helmets to Hardhats (HTH) program. This program 
enables veterans that do not complete their USMAP apprenticeship to 
connect with civilian registered apprenticeship programs in the 
building and construction industry.

    DOL Web sites

    O*Net (www.online.onetcenter.org) is a database of occupational 
requirements and worker attributes. It describes occupations in terms 
of the skills, knowledge, work tasks and activities, and other 
requirements. Using O*Net OnLine, veterans and transitioning 
servicemembers can learn about the requirements of civilian occupations 
and build skill-based resumes by searching for occupations that use 
designated skills or by using crosswalks from military classifications 
or apprenticeship programs and link to other online information 
resources such as employment outlook and wages.
    DOL also maintains the Workforce Credentials Information Center 
(www.careeronestop.org/CREDENTIALING/CredentialingHomeReadMore.asp). 
This site provides detailed information and guidance on how a Veteran 
or transitioning servicemember can translate military skills and 
experience into credentials. This includes a Certification Finder and 
Licensed Occupations database, which can be searched by occupation, 
industry, or keyword; licenses can also be searched by state or Federal 
agency.

    Collaboration with Job Corps

    VETS recognizes that leveraging and improving existing programs 
does not go far enough in facilitating the transition to civilian 
credentials and licensing programs. VETS and the Department of Labor's 
Employment and Training Administration's (ETA) Office of Job Corps 
launched a demonstration project last month that will allow Veterans 
20-24 years old to obtain training at no cost, leading to an industry-
recognized certification or state licensure, assistance with job 
placement, and up to 21 months of support for program graduates.
    VETS and ETA Job Corps will participate in a demonstration project 
to allow eligible Veterans to participate in Job Corps at three 
selected Job Corps sites. VETS TAP facilitators and Job Corps 
counselors will conduct outreach sessions with TAP participants to 
promote participation. Once a participant has been identified and 
accepted into the program, he/she will be given the opportunity to 
select one of the three Job Corps training centers. A Veteran will be 
advised that he or she may attend other Job Corps centers, but such 
participation will be outside the scope of the demonstration project.
    The demonstration project will accommodate up to 300 transitioning 
servicemembers who require employment and training services to help 
them transition from the military to the civilian workforce. While Job 
Corps has set aside 300 slots for the demonstration project, the actual 
participation during the year may exceed that number due to Job Corps' 
model of continuous enrollment.
    The demonstration project is specifically designed to provide 
unique skill and education training in a variety of trades and 
professions that is appropriate for Veterans who have developed many of 
these skills during their time in the military. The Job Corps program 
is self-paced and some Veterans will be able to accelerate through 
tracks based on their experience, knowledge, skills, and abilities. 
Many of these training tracks will prepare participants for careers in 
the renewable energy and energy efficiency industries. Upon graduation, 
the Veteran may earn an industry-recognized certification and begin the 
21 month Career Transition track, which includes 9 months of placement 
services and 12 months of follow-up services.

    Increased Engagement with Employers

    Often times, an employer will assist in providing a new employee 
with the required licensing and certification to perform their work 
duties. VETS intends to promote this opportunity by increasing 
engagement with employers to increase the hiring of Veterans and 
transitioning servicemembers. This will involve communicating the value 
proposition for hiring Veterans more effectively; making the hiring 
process more convenient and efficient; and developing hiring 
partnerships with national and local employers who provide licensing 
and certification to their new employees.
    VETS is developing new relationships with major private sector 
organizations to enlist their advice and support to increase Veterans' 
hiring. A major initiative is a partnership we are developing with the 
U.S. Chamber of Commerce to allow access to their affiliated Chambers 
around the nation. We will begin with a pilot project involving 12 
states. Through this partnership, VETS state directors (DVETs) will be 
invited to address chief executive officers and senior executives at 
Chamber breakfasts and lunches to explain the value proposition of 
hiring Veterans and how to hire Veterans within their city or state.

    The Federal Hiring Initiative

    A pathway to licensing and credentialing goes beyond the private 
sector and involves transition into civilian government jobs. To ensure 
that Veterans have priority, access to, and the qualification to make 
this transition, VETS is partnering with the VA, DoD, DHS, and the 
Office of Personnel Management to lead the effort to implement 
Executive Order 13518 Employment of Veterans in the Federal Government, 
which President Obama signed on November 9, 2009. This order 
establishes a Council on Veterans' Employment cochaired by Secretaries 
Shinseki and Solis with Director Barry serving as Vice Chair. The 
overall goal is to increase the number of Veterans in the Federal 
workforce. Additionally, agencies are required to establish a Veterans' 
Employment Program office, or designate an agency officer or employee 
with full-time responsibility for its Veterans' Employment Program. A 
new Web site has been created www.fedshirevets.gov.
    The Council has published the government-wide Veterans' Recruitment 
and Employment Strategic Plan for FY 2010-FY 2012. One of the plan's 
strategic goals is to align Veterans' and transitioning servicemembers' 
skills and career aspirations to Federal employment opportunities. 
While this is not strictly a licensing and certification effort, it is 
a related initiative that allows the Federal Government to leverage the 
considerable investment that the country has made in military training 
and experience.
    This initiative will match Veterans' skills with Federal career 
opportunities by developing an interactive program to translate 
military skills to Federal civilian occupations. It will produce a 
document for Veterans and transitioning servicemembers outlining 
potential Federal careers based on their military experience. Finally, 
it will also develop resume banks/skills inventories for a 
transitioning servicemembers, so hiring officials are able to easily 
search and identify Veterans with skills to meet staffing needs.

    Conclusion

    VETS understands the need to provide a clear pathway for Veterans 
to transfer the significant experience they gain in the military toward 
good jobs in the civilian economy. DOL and VETS are facilitating this 
transition through innovative programs, and collaborative engagement 
with public, private and nonprofit sector organizations that can 
accelerate the licensing and certification of our Nation's Veterans. As 
we move forward, we will continue to look for better and more effective 
ways to inform and enable transitioning servicemembers and Veterans of 
opportunities to receive licenses and credentials. During this time of 
economic uncertainty, it's especially important that we ensure those 
who have served this country have every opportunity available to 
leverage their skills and training, when they complete their military 
service, to create meaningful civilian careers.
    I appreciate the opportunity to appear here today, and look forward 
to working with the Subcommittee on this important topic.

                                 <F-dash>
          Prepared Statement of John R. Campbell, Deputy Under
   Secretary of Defense (Wounded Warrior Care and Transition Policy),
                       U.S. Department of Defense

    Madam Chairwoman and Members of the Subcommittee:
    Thank you for the opportunity to discuss the role the Department of 
Defense (DoD) plays in helping servicemembers obtain licenses and 
certifications as they transition from active duty. Education and 
training are keys to obtaining meaningful employment and a better 
quality of life once a servicemember retires or separates from the 
military. Servicemembers are encouraged to take full advantage of all 
educational opportunities and training programs afforded while they are 
on active duty such as tuition assistance and the Post-9/11 GI Bill. 
The Department also focuses on providing separating servicemembers 
useful information and assistance in all aspects of the transition 
process, including preparation for post-military employment, as they 
re-enter civilian life. Attaining a civilian credential promotes 
professional growth and communicates to employers the transferability 
of military training and experience. It is crucial to the transition 
process that servicemembers are able to take full advantage of their 
military experience in order to reach and achieve their full employment 
potential after they leave the military.

    TRANSITION ASSISTANCE PROGRAM (TAP)

    Although this statement addresses other programs and resources to 
assist servicemembers in their transition to civilian life, TAP remains 
the primary platform used by DoD, the Department of Labor (DOL) and the 
Department of Veterans Affairs (VA) to inform, educate and provide one-
on-one counseling to transitioning servicemembers regarding the 
translation of their military skills and experience into civilian 
language. Successfully accomplishing this activity enables 
servicemembers to be strong competitors for career opportunities in the 
civilian workforce.
    We continue to provide licensure and certification information in a 
range of ways and in different formats in order to appeal to individual 
learning styles and ensure the widest possible dissemination. The 
information is provided through classroom delivery from an instructor, 
by online interaction and Internet research, and through one-on-one 
coaching. This ensures that servicemembers have current and accurate 
information at their fingertips in order to make informed decisions 
about their future. A key feature of effective licensure and 
certification programs is that they are introduced to servicemembers 
early in their careers, not just at the time of separation, as 
discussed in more detail later.
    TAP is a collaborative partnership among DoD and the Military 
Services, DOL, VA, and the Department of Homeland Security (DHS). Each 
agency is responsible for providing its portion of TAP. During the 
mandatory DoD portion, commonly referred to as preseparation 
counseling, servicemembers, including the National Guard and Reserves, 
receive information and/or referral to installation experts about 
licensure and certification. After servicemembers complete the 
preseparation counseling portion of TAP, they receive a copy of a 
checklist (DD Form 2648 for Active Duty and DD Form 2648-1 for the 
National Guard and Reserves) so they can refer back to it and look up 
Web sites and other information to reinforce what they received during 
the preseparation counseling session. The counselor is required to 
explain ``Licensing, Certification and Apprenticeship Information'' and 
discuss with transitioning servicemembers. The checklists have all the 
topics required by statute that a counselor must address during the 
preseparation counseling session. The forms are used by separating 
servicemembers and their spouses to record that preseparation 
counseling was conducted. There are also additional resources and 
references addressed during this session.
    If the servicemember desires more information on this or any other 
topic on the checklist, which exceeds the general knowledge of the 
counselor, then he or she checks a ``YES'' block next to the item on 
the form, and the counselor will refer the servicemember to a subject 
matter expert who is able to assist the member with the desired 
information, or get the answers to questions which the transition 
counselor may not have been able to answer. The subject matter expert 
may be a family support transition or education counselor located at 
the installation, or it may be a DOL or VA representative who provides 
TAP support at the installation. Servicemembers are always encouraged 
to do research on the internet and it is recommended they start with 
America's Career InfoNet, the DOL Web site on licensure and 
certification (http://www.acinet.org). The Workforce Credentials 
Information Center, within this site, provides a wealth of licensure 
and certification information. The member can also access the 
Occupational Information Network called O*Net 
(www.onlineonetcenter.org) which also falls under the purview of our 
partners at DOL. This site is considered the nation's primary source of 
occupational information. Using O*Net allows the servicemember to do a 
crosswalk between their Military Occupational Code and the civilian 
equivalency of that code, linking them to the Standard Occupational 
Classifications in the civilian workforce.
    The information received during the preseparation counseling 
portion of TAP is reinforced during the other three core components of 
TAP: DOL's TAP Employment Workshop, VA's Benefits Briefing, and the 
Disabled Transition Assistance Program (DTAP). National Guard and 
Reserve personnel also receive a Uniformed Services Employment and Re-
Employment Rights (USERRA) briefing in lieu of the full two and a half 
day TAP Employment Workshop. However, DOL has advised each state's 
Adjutant General of the opportunity to receive TAP employment workshops 
whenever and wherever desired. Transitioning servicemembers, including 
National Guard and Reserve personnel, are strongly encouraged to visit 
one of approximately 3,000 DOL One-Stop Career Centers where they 
receive priority service consisting of help with translating their 
military skills to civilian occupations, receiving a skills assessment, 
or getting assistance in finding a job. In addition to receiving 
information on licensure and certification, servicemembers also receive 
information on apprenticeship resources.

    TAP--THE WAY FORWARD

    The current program has been in place for nearly two decades 
without major enhancements and the original design was not intended for 
current demand. Initially developed in the late eighties and 
implemented in the early nineties, TAP exists for the benefit of 
servicemembers and their families, including Active Duty, National 
Guard and Reservists. To strengthen TAP and reinforce its value to 
servicemembers and their families, TAP will move from a traditional 
event-driven approach to a modern, innovative lifecycle approach. The 
Department is working to implement this strategic plan with focuses on 
information technology, strategic communications, and resources and 
performance management. The end-state for the TAP overhaul will be a 
population of servicemembers who have the knowledge, skills, and 
abilities to empower them to make informed career decisions, be 
competitive in the global workforce and become positive contributors to 
their community as they transition from military to civilian life.
    A Joint Interagency Strategic Working Group for TAP was established 
and an assessment of TAP was conducted in July and August of 2009 to 
evaluate overall program effectiveness and identify improvement 
opportunities. The goal of the assessment was to develop an inventory 
of potential TAP improvement initiatives by identifying gaps and 
capturing improvement opportunities across the dimensions of policy, 
process, content, delivery methods, technology, outreach, and data 
analytics. A key factor also involved documenting those TAP improvement 
areas to address previously identified needs, such as Wounded, Ill and 
Injured (WII) and National Guard and Reserve Component, and identifying 
opportunities to leverage successes across services, potentially 
reducing redundant investments.
    Assessment findings were organized by the assessment dimensions 
(stakeholders, policy, process, technology, communications, and 
metrics) with an understanding that TAP offsite sub-working groups 
would be organized to develop the ``road map'' and strategic plan of 
the future. The major findings involved five core areas: Policy and 
Legislation; National Guard and Reserve; Strategic Communications; 
Technology and Social Networking; Standards and Performance Management. 
The sub-working groups remain in place to advance TAP imperatives. 
Integrated program management plans and a master schedule are currently 
being developed to track requirements, activities and progress.

    OTHER RESOURCES

    In addition to DOL's ``America's Career InfoNet'' Web site, other 
resources such as the Army and Navy Credentialing Opportunities Online 
(COOL) Web sites are readily available. Army and Navy COOL sites, 
discussed in greater detail below, explain how Soldiers and Sailors can 
meet civilian certification and licensure requirements related to their 
military occupational specialties or ratings. They also serve as a 
resource to identify what civilian credential relates to a 
servicemember's military occupational specialty (MOS) or Rating and how 
to obtain them. Additional resources include the DoD Verification of 
Military Experience and Training (VMET) document, the DoD/DOL United 
Services Military Apprenticeship Program, the Defense Activity for Non-
Traditional Education Support (DANTES), and TurboTAP, DoD's Official 
Transition Assistance Program Web site. All of the aforementioned were 
developed and designed to help servicemembers translate their skills 
and experience into opportunities for civilian employment.
    Because the core Transition Assistance Program is predominantly 
classroom oriented, the Military Services also provide one-on-one 
counseling, coaching, detailed briefings, guidance and other assistance 
to meet the needs of our servicemembers. Beyond the ``core TAP'' a 
variety of additional workshops and seminars are provided to assist in 
writing effective resumes, translating military skills to civilian 
skills, and self and skills assessments. There are also separate 
workshops on Federal resume writing.
    Also included in the preseparation counseling session is a 
discussion of DOL's Web site, Career One Stop (www.careeronestop.org). 
In this application, servicemembers link to the Credentials Center, 
which they can use to locate State-specific occupational licensing 
requirements, agency contact information and information about 
industry-recognized certifications. There are also associated workforce 
education and examinations that test or enhance knowledge, experience 
and skills in related civilian occupations and professions. These sites 
have been developed and improved through close partnerships between DoD 
and DOL.

    TURBOTAP

    To accommodate today's technologically reliant servicemembers, 
TurboTAP was designed for easy accessibility and navigation. 
Servicemembers can access useful information located throughout the 
site. Among the many features of the TurboTAP Web site is a 
Preseparation Guide for Active Component Servicemembers, a Transition 
Guide for the Guard and Reserves, and an Employer Hub. Both guides deal 
with employment assistance, and provide a wealth of information on 
employment assistance and credentialing programs. They also link 
directly to Army and Navy COOL, the O*Net, the Occupational Outlook 
Handbook and many other resources relating to licensure and 
certification.

    DoD AND MILITARY SERVICES PROGRAMS AND TOOLS

    The DoD and military Services have significantly augmented their 
focus on licensure and certification. The next portion of this 
statement will touch on some additional programs and tools put in place 
by DoD and the Services to assist Members with licensure and 
certification,prior to a Member leaving active duty.
    In recognition of the importance of the need for highly qualified, 
experienced information assurance personnel, DoD has established a 
policy requiring certain individuals with privileged access to DoD 
information systems to obtain civilian credentials. This DoD 8570.1 
Directive, made official in August 2004 and implemented according to 
the requirements of DoD 8570.1M Manual in December 2005, requires any 
full- or part-time military servicemember, contractor, or foreign 
employee with privileged access to a DoD information system, regardless 
of job or occupational series, to obtain a commercial information 
security credential accredited by the American National Standards 
Institute (ANSI) or equivalent authorized body under the ANSI/ISO/IEC 
17024 Standard. The Directive also requires that those same employees 
maintain their certified status with a certain number of hours of 
continuing professional education each year. The number of people 
affected by this mandate is estimated to top 100,000, including any 
full- or part-time military servicemember, contractor, or foreign 
employee with privileged access to a DoD information system, regardless 
of job or occupational series.

    ARMY

    The Army has embraced licensure and certification as a key method 
of helping Soldiers apply their military training and work experience 
to the civilian workforce. They have conducted extensive research to 
link each MOS to civilian jobs and applicable civilian licenses and 
certifications. The Army has identified civilian credentials related to 
100 percent of its enlisted and Warrant Officer MOSs. Some of these 
credentials are directly related to the MOS and others are related to 
embedded skills attained by the Soldier through Army training and 
experience.
    The extent to which Soldiers are able to use their military 
training and experience to attain civilian licenses and certifications 
is determined through comprehensive gap analysis comparing MOS training 
with civilian credentialing requirements. The gap analysis is conducted 
on credentials determined to be most directly related to the MOS or to 
the skills attained through MOS training and experience.
    As part of the gap analysis, an attainability rating is assigned to 
each relevant credential. This rating indicates the estimated ability 
of a first-term Soldier to obtain a given credential. Attainability 
ratings reflect the likelihood of a Soldier attaining the corresponding 
credential during his or her first term of service, attaining it in a 
subsequent enlistment, or encountering difficulty in translating their 
military training and work experience to a civilian credential.
    The results of the research linking MOSs to civilian jobs and 
credentials, along with the results of the gap analysis, are available 
to Soldiers through the Army COOL Web site (https:www.cool.army.mil). 
This robust site provides Soldiers, counselors, family Members, and 
employers with comprehensive information about certification and 
licensure relevant to Army MOSs. Enhancements to the Army COOL Web site 
are continual. New search features and additional credentialing 
resource information were recently added and the Web site was also 
expanded to include Warrant Officers.
    The site also helps Soldiers find civilian credentialing programs 
related to their MOS and it helps them understand the requirements for 
obtaining a credential. In addition, it identifies resources that will 
pay credentialing fees. The Web site is specifically designed to aid 
Soldiers in translating their military training and work experience to 
the civilian workforce. COOL Web site usage is consistently high. The 
site receives thousands of ``hits'' each month, approximately two-
thirds of which are MOS-specific. Soldiers can also receive one-on-one 
counseling in licensure and certification from education counselors at 
each installation. The Army COOL initiative is closely integrated with 
other Army and DoD programs that can help Soldiers meet credentialing 
requirements, including the servicemembers Opportunity Colleges Army 
Degree (SOCAD) program, DANTES credentialing program, and Army e-
learning. In recognition of the importance of credentialing for Soldier 
professional development, the Army, in 2003, began awarding promotion 
points for technical certifications for Soldiers competing for 
promotion from Sergeant to Staff Sergeant. These Soldiers can receive 
10 promotion points for each certification up to a total of 50 points.

    NAVY

    The Navy's credentialing program offers Department of Navy (DON) 
servicemembers expanded opportunities to earn civilian occupational 
licenses and certifications. The program has been developed to promote 
recruiting and retention and to professionalize the Navy workforce 
(both active duty and reserve), thus improving mission readiness. It 
also enhances the Sailor's ability to make a smooth transition to the 
civilian workforce. The Navy's credentialing program has two key 
components--dissemination of information on civilian licensure and 
certification opportunities and payment of credentialing exam fees.
    The Navy COOL, a publicly accessible Web site (https://
www.cool.navy.mil), serves as a hub of comprehensive information to 
guide Sailors in pursuing occupational credentials related to their 
Navy work experience and training. The Web site was brought online in 
2006 in collaboration with the Army and utilizes the same underlying 
database of civilian credentials that is used for the Army COOL Web 
site. Navy COOL disseminates the results of extensive research and 
analysis linking each DON rating, job, designator, and occupation to 
civilian jobs and applicable civilian credentials. It provides the 
results of comparability analyses conducted to identify potential gaps 
between DON training and civilian credentialing requirements and 
provides extensive information on resources available to fill the gaps. 
The Web site is targeted toward Sailors, family Members, Navy veterans, 
career and education counselors, credentialing agencies, and potential 
civilian employers. COOL feedback shows interest from other military 
services (active, reserve, and veterans) for their own service-specific 
COOL Web site.
    In September 2007, DON approved funding of credential exams that 
are directly related to a Sailor's job or occupation or to a critical 
skill set within. The Navy funds both mandatory and discretionary 
credentialing exams. To date, over 2,400 credential/job combinations 
are approved for funding and over 34,000 exams have been funded (as of 
30-Jun-2010) at an average cost of approximately $270 per exam.
    Program metrics indicate the success of the Navy credentialing 
program is high:

        <bullet>  To date, Navy COOL has experienced over 67.2 million 
        hits (averaging 2.2 million hits per month).
        <bullet>  Credentialing staff has personally briefed over 
        19,000 Sailors on the Navy's credentialing program.
        <bullet>  More than 5,000 e-mails have been received providing 
        feedback on the Navy's credentialing program with over 98 
        percent of the feedback being positive.
        <bullet>  More than 3,000 Sailors participating in the Navy's 
        credentialing program are re-enlisting/extending to take 
        advantage of this program.

    AIR FORCE

    Air Force emphasis on licensure and certification is twofold--
career-related degrees and certification from civilian schools. The 
first option an Airman has is a degree conferred only to enlisted 
Members only by the Community College of the Air Force (CCAF). CCAF 
confers associate degrees in each enlisted member's career field. The 
degree consists of accredited college-level training from the Air Force 
along with general education courses from civilian colleges. Each year 
the Air Force confers over 17,000 associate in applied science degrees. 
Since CCAF received regional accreditation in 1980 from the Southern 
Association of Colleges and Schools, it has conferred a total of 
344,000 associate degrees. The degree is equivalent to the civilian 
world's terminal associate degrees for trade certification.
    All Air Force Specialty Codes (career fields) translate well to 
comparable civilian work experience. In a 2009 survey of CCAF 
graduates, 82 percent said that most or all of CCAF credit transferred 
to bachelor-level degree programs. In addition to the associate degree 
opportunity, Air Force policy is to fund one license or certificate per 
Air Force career to both officers and enlisted. Each year the Air Force 
expends approximately five million dollars for licensure/certification 
of Airmen, or approximately 3 percent of the military tuition 
assistance budget with 3,500 earned certifications. The COOL search-
tool equivalent for Airmen, known as the Credentialing and Research 
Tool (CERT), links the CCAF degree programs with nationally recognized 
professional certifications relevant to specific career fields.

    MARINE CORPS

    The Marine Corps uses a variety of resources to assist its Marines 
with licensure and certification, including DOL's America's Career 
InfoNet Web site, Army and Navy COOL Web sites, the VMET Document, the 
United Services Military Apprenticeship Program, the Occupational 
Information Network O*Net, DANTES and TurboTAP. Additionally, there are 
Marine Corps Transition Assistance Management Program (TAMP) personnel 
who are Certified Workforce Development Professionals and possess the 
skills necessary to assist Marines in translating their military 
experience and training into understandable civilian terminology.
    The Marine Corps has also conducted extensive reviews of the 
transition and education programs and services and established a 
planning framework for major program reforms. The primary objective is 
to provide every Marine with an opportunity to successfully achieve 
their stated performance goals from accession to interment. The program 
redesign will include the integration of complementary services, to 
include Transition Assistance, Voluntary and Off Duty Education, 
Personal Financial Management, and Family Member Employment Assistance. 
This integrated personal and professional readiness approach to program 
delivery is being developed to support Marine Corps institutional aims 
and successful occupation of individual Marines via established 
roadmaps for professional military development/promotion, portable 
skill development, transportable education credit contributing to 
employment/career, and financial planning to support personal and 
professional roadmaps.

    OTHER EMPLOYMENT ASSISTANCE

    The Operation Warfighter (OWF) program is a DoD-sponsored 
internship program that offers recuperating wounded, ill and injured 
servicemembers meaningful activity that positively impacts wellness and 
offers a formal means of transition to return to duty or enter into the 
civilian workforce. The main objective of OWF is to place recuperating 
servicemembers in supportive work settings that positively benefit the 
recuperation process.
    OWF represents a great opportunity for transitioning servicemembers 
to augment their employment readiness by building their resumes, 
exploring employment interests, developing job skills, benefiting from 
both formal and on-the-job training opportunities, and gaining valuable 
Federal Government work experience that will help prepare them for the 
future. The program strives to demonstrate to participants that the 
skills they have obtained in the military are transferable into 
civilian employment. For servicemembers who will return to duty, the 
program enables these participants to maintain their skill sets and 
provides the opportunity for additional training and experience that 
can subsequently benefit the military. OWF simultaneously enables 
Federal employers to better familiarize themselves with the skill sets 
of wounded, ill and injured servicemembers as well as benefit from the 
considerable talent and dedication of these transitioning 
servicemembers.
    To date, the program has placed approximately 1,600 servicemembers 
across more than 100 different Federal employers and sub-components. 
The program currently has 225 active internship placements.
    The Veterans Employment Initiative (VEI), created by Executive 
Order 13518 aims to increase the number of veterans in the Federal 
Government. DoD is a strategic partner in this initiative along with 
the Office of Personnel Management (OPM), VA, DPL, and DHS. The Order 
established an interagency Council on Veterans Employment that advises 
the President and the Director of OPM on the initiative. The Council 
serves as a national forum for promoting veterans' employment 
opportunities in the executive branch and develops performance measures 
to assess the effectiveness of the VEI. Agencies covered by the VEI 
have established Veterans Employment Program Offices or designated a 
full-time staff person dedicated to providing employment services to 
veterans. Veterans and the public may also access the VEI's helpful Web 
site at www.fedshirevets.gov.
    The National Resource Directory (NRD) is a partnership among DoD, 
DOL and VA. The information contained within the NRD 
(www.NationalResourceDirectory.gov) is from Federal, state and local 
government agencies; veterans service and benefit organizations; non-
profit and community-based organizations; academic institutions and 
professional associations that provide assistance to wounded warriors 
and their families.
    The NRD is an easily accessible, comprehensive tool for 
transitioning servicemembers who are looking for education and 
training-related, and employment opportunities. Content on the National 
Resource Directory is gathered, reviewed and updated by a team of 
subject matter experts with a military background. The NRD features 
hundreds of resources on job training, scholarships, tuition assistance 
programs, internships, apprenticeships, licensing & certification, the 
GI Bill and the Yellow Ribbon Program.
    To ensure that users are getting the information they need, the NRD 
utilizes several social media methods to distribute resources and new 
information. One of these methods is an e-mail marketing service. 
Currently, more than 3,200 NRD subscribers receive regular updates 
about education, training and employment. News and updates are also 
posted through the NRD Facebook page and LinkedIn groups.

    CONCLUSION

    Although the focus of this hearing is on what DoD, VA and DOL are 
doing to assist servicemembers in translating their military training 
and experience into comparable civilian sector competencies as they 
seek employment, there also needs to be a focus on what the 
servicemember needs and finds most effective. Each agency must do all 
it can to provide the best possible information, education, counseling, 
coaching and support to our deserving servicemembers. The discussion 
must also include servicemember responsibility and we believe that by 
providing an array of sources of information and support mechanisms to 
the Members we are helping them take hold of their future and equipping 
them with the tools to direct their careers far into the future. There 
is no doubt we can be more efficient and effective, and we will.
    The Department understands there is a strong consensus within 
Congress and the Veterans' community that more needs to be done to help 
servicemembers translate their Military Occupational Codes into 
civilian sector language. Even though a great deal is being done, the 
Department recognizes that more can be done and that we must continue 
to find new ways to not only reach our servicemembers and impart 
knowledge to them, but also strive to ensure they grasp and understand 
the information. We must also measure the successes and identify best 
practices.
    The Department acknowledges the importance of providing 
servicemembers with clear and definitive information on licensure and 
credentials across the duration of their military careers. Providing 
this information early on allows servicemembers to plan and seek out 
any additional classes required to achieve their goals. To that end, 
the Department is revamping TAP as we move into the next decade. 
Transition assistance will become a process that occurs throughout the 
military lifecycle from the time of accession through separation, not a 
single event that occurs at the time of separation or retirement, or in 
the case of demobilizing/deactivating National Guard and Reserves, when 
they are released from active duty.
    Over the next year we will be working on a number of initiatives 
relating to the revamping of TAP, including: Policy and Legislation, 
improved processes related to deployment patterns and realities of the 
National Guard and Reserves, Strategic Communications and Outreach, 
Technology and Social Networking and Resource and Performance 
Management. We will keep the Subcommittee abreast of our progress and 
we will solicit your input as well.
    Madam Chairwoman, this concludes my statement. On behalf of the men 
and women in the military today and their families, I thank you and the 
Members of this Subcommittee for your steadfast support.

                                 <F-dash>
  Prepared Statement of Margarita Cocker, Deputy Director, Vocational
       Rehabilitation and Employment Service, Veterans Benefits 
                            Administration,

                  U.S. Department of Veterans Affairs

    Madam Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, thank you for inviting me to appear before you today to 
discuss how VA's Vocational Rehabilitation and Employment (VR&E) 
Program helps servicemembers apply their Military Occupational 
Specialties to employment in the civilian sector. VR&E strives to 
insure a seamless transition for servicemembers and Veterans through 
outreach and early intervention. VA's Vocational Rehabilitation 
Counselors and Employment Coordinators leverage Servicemembers' and 
Veterans' transferable skills whenever possible, while keeping the 
focus on individuals' current level of abilities and aptitudes, as well 
as their future career potential. VA greatly appreciates the 
opportunity to discuss this important topic.

    Overview of Veterans Employment Services

    VR&E's primary mission is to assist servicemembers and Veterans 
with service-connected disabilities prepare for, and obtain, meaningful 
and sustainable employment through the provision of robust services 
individually tailored to each individual's needs. Services are provided 
at our 57 Regional Office locations and over 100 out-based VR&E 
locations. VR&E services begin with comprehensive evaluations to help 
servicemembers and Veterans understand their interests, aptitudes, and 
transferable skills. Next, our vocational exploration phase focuses 
their potential career goals based on labor-market demands and market 
requirements. This process helps each Veteran or Servicemember make 
informed choices and participate in the development of a rehabilitation 
plan that, to the maximum extent possible, builds upon his or her 
transferable skills toward an ultimate career goal. To help these 
individuals achieve their rehabilitation goals, VR&E may provide a 
broad range of employment services such as:

        <bullet>  Translation of military experience to civilian skill 
        sets using industry standard Transferrable Skills Assessments 
        (TSA);
        <bullet>  Short-term training geared to augment existing skills 
        that increase employability, such as certification preparation 
        tests and sponsorship of certification;
        <bullet>  Long-term training, including on-the-job training, 
        apprenticeship training, and college-level training, or 
        services that support self-employment; and
        <bullet>  Direct job-placement services, including resume 
        development, job-seeking-skills training, and post-placement 
        follow-up services.

    Licensing and Credentialing

    Licensing and credentialing assistance is provided, as needed, to 
facilitate employment in the particular individual's specific 
occupation. For example, many information-technology jobs require 
certification, while nursing and mental-health counseling fields 
require licensure. For Veterans and servicemembers with more severe 
injuries and barriers to employment, additional leading-edge 
certifications can also be provided to make them more competitive. The 
goal of each VR&E rehabilitation plan is to maximize the individual's 
transferable skills; match his or her interests and skill sets with 
labor-market demands; ensure compatibility of the job with existing 
disability issues, using adaptive technology whenever possible; and 
help the Veteran or Servicemember enter the job market at a level on 
par with his or her peer group and into a career position in which he 
or she can thrive--even if his or her disability should worsen.
    I would like to emphasize the importance of transferable-skills 
assessments and corresponding licensure or credentialing. During the 
vocational exploration phase, VR&E counselors identify servicemembers' 
and Veterans' military and civilian transferable skills and discuss 
these skills with them. The VR&E program conducts thorough assessments 
of Veterans' interests, aptitudes, and abilities, and then provides 
necessary services to ensure that exiting servicemembers and Veterans 
are able to compete for and achieve the highest level of civilian 
employment for which they qualify. VR&E counselors help individuals 
capitalize on their transferable skills when developing plans for 
future civilian career goals, while also insuring that interests, 
abilities, and aptitudes are matched up to these goals. Once 
servicemembers' and Veterans' career goals are identified, VR&E tailors 
individualized and comprehensive services to ensure employability in 
their chosen career fields, including proper credentialing, education, 
and licensing. This focus on basing the next career step on 
transferable skills enables these individuals to maximize their 
existing skills and ultimately obtain careers at a more advanced level.

    Conclusion

    The challenges our disabled servicemembers and Veterans face while 
in transition are an urgent priority for VR&E and VA. Building upon the 
excellent skills obtained in the military makes these individuals more 
marketable, and assists them in qualifying for more technical and 
advanced career opportunities. VR&E focuses on enhancing preexisting 
certifiable and or licensed skills attained during servicemembers' and 
Veterans' military experience, thus maximizing the investment in 
training they have made during their service on active duty.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or other Members of the Subcommittee may 
have.

                                 <F-dash>
       Statement of Hon. John Boozman, Ranking Republican Member,
                  Subcommittee on Economic Opportunity

    Good afternoon.
    Madam Chair, in reading today's testimony, I saw lots of discussion 
about the Transition Assistance Program and lots of Web sites that 
translate military skills and occupations into civilian equivalents. 
But I saw very little about how we go about getting education and 
training institutions to adjust their curricula to account for military 
training and education. Secretary Jefferson, I congratulate you on 
being the only witness today to directly identify the core of the issue 
as the role of state and local governments in licensing and 
certification. Too often, our men and women are needlessly required to 
repeat education or training already gained in military service. To me 
that means that states need to be more flexible in recognizing military 
training and skills.
    I am disappointed that the National Governors' Association declined 
once again to join today's discussion. To me, the states hold the key 
to solving this dilemma. We cannot afford the current economically 
inefficient system that ignores the millions of dollars spent on top 
quality military education and training.
    Madam Chair, maybe the best we can hope for is to provide veterans 
with the best education and training benefits and work with the 
education and certifying industries to increase the credit given for 
training as a way to speed licensing and certification.
    I yield back.

                                 <F-dash>
            Statement of John L. Wilson, Assistant National
            Legislative Director, Disabled American Veterans

    Madam Chairwoman and Members of the Subcommittee:
    On behalf of the 1.2 million Members of the Disabled American 
Veterans (DAV), I am honored to present this testimony in accordance 
with our congressional charter and DAV's mission to ``advance the 
interests, and work for the betterment, of all wounded, injured, and 
disabled American veterans.''
    This Subcommittee's concern for the financial circumstance of 
veterans and their families is well-founded, given the economic 
downturn our Nation's economy has taken. During this same timeframe, 
our Nation is involved in two wars and multiple deployments are no 
longer the exception, but rather the norm. Given this deployment pace, 
any previous opportunities military servicemembers may have had to 
obtain additional education or training on their own in order to meet 
the requirements for licensing or credentialing for the time when they 
are no longer in the military have become difficult to find. Such self-
effort is essential in most career fields when active duty personnel 
separate or when Guard and Reserve personnel are deactivated and they 
want to either find employment or return to earlier civilian careers. 
This is because most progression from apprentice to journeyman for 
enlisted personnel in most military career fields do not also result in 
civilian-equivalent licensure and certification.
    Licensure and certification are a primary form of recognition of 
competency in job-related skills and are relied upon by employers for a 
host of occupations to ensure that employees have the skill and 
knowledge base necessary to effectively ply their trades. Private 
sector employers, Federal, state, and local government agencies, 
professional associations, unions and the general public turned to 
credentialing to regulate entry into occupations and to also promote 
safety, professionalism, and career growth. The amount of private 
sector credentialing has grown tremendously and hundreds of 
professional and trade associations offer certification in specific 
fields. The past few years have shown a similar increase in 
occupational regulation by both the state and Federal Governments. As a 
result, over the past decade, the number of both mandatory and optional 
credentialing programs has increased steadily.
    The education, training, and experience obtained by military 
servicemembers provide tangible benefits for our Nation's defense. This 
same background can also provide a significant contribution to a 
skilled civilian workforce. However, every year, skilled servicemembers 
leaving the armed forces miss out on the chance to quickly move into 
good, high-paying, career-building jobs because they typically must 
undergo lengthy and expensive retraining in order to meet civilian 
licensure and certification requirements, often for the same type of 
jobs they held in the military. This time-consuming and costly waste of 
valuable human resources costs the veteran through forced 
underemployment, costs business because skilled workers are 
unavailable, and it has a negative impact on the economy due to delayed 
job creation and consumer spending, and unnecessary unemployment 
compensation insurance payments.
    Madam Chair, on January 14, 1999, former Secretary of Veterans 
Affairs Anthony Principi presented the final report of the 
Congressional Commission on Servicemembers and Veterans Transition 
Assistance. The issues raised in that report more than a decade ago 
still hold true. The Commission asserted then, and DAV agrees, that 
Congress, the administration and private companies must provide 
transitioning servicemembers with the means and opportunity to succeed 
in their civilian lives and to invest their talent and ability in the 
American economy.
    At that time, our Nation had enjoyed several years of sustained 
economic expansion yet the unemployment rate for newly separated 
veterans remained comparatively high. Unemployment rates for male 
veterans aged 20 to 24 and 35 to 39, the ages when most servicemembers 
separate or retire, were higher than rates for other veteran age 
cohorts and were higher than rates for similar nonveteran males. This 
unemployment pattern existed despite the fact that veterans have solid 
grounding in basic skills, are disciplined, have a demonstrated 
positive work history, are highly motivated, and have shown an ability 
to continually upgrade their skills.
    Today, according to a July 2, 2010 article in Army Times, the 
unemployment rate for veterans rose slightly in June 2010, to 8 percent 
overall and 11.5 percent for Iraq and Afghanistan-era veterans. This 
information raises the concern that expanding programs aimed at helping 
veterans find work may not be working as quickly as hoped in this 
stagnant job market. June employment statistics released Friday by the 
Labor Department's Bureau of Labor Statistics show the overall 
unemployment rate for veterans rose slightly from 7.8 percent in May. 
For veterans from the Iraq and Afghanistan era, the June unemployment 
rate was 11.5 percent, up from 10.6 percent in May. This is an 
improvement from March of this year when the unemployment rate was 14.7 
percent. For new male veterans, the unemployment rate for June is 10.8 
percent, compared with 15.5 percent for new female veterans. 
Previously, the rate was about equal for new male and female veterans.
    Efforts are under way to improve the employment situation. On March 
29, 2010 the U.S. Department of Labor (DOL) Veterans' Employment and 
Training Service announced a $2 million grant competition to assist 
eligible veterans by providing employment, training, support services, 
credentialing and networking information in renewable and sustainable 
energy. The grants are intended to provide services to assist in 
reintegrating eligible veterans into meaningful employment within the 
labor force and to stimulate the development of effective service 
delivery systems that will address the complex employability problems 
facing eligible veterans.
    The DOL has also been engaged with the U.S. Chamber of Commerce to 
provide employment opportunities to wounded veterans while still in 
recovery. Job fairs have been held near the hospitals where these 
veterans are recovering. Employers meet with potential employees to 
assess their skills and, if hired, establish a mentoring relationship 
to facilitate their transition from recovery and transition from 
military service to private sector employment. Just such a career fair 
was held at the National Naval Medical Center (NNMC) in Bethesda on 
June 4, 2010. The Fleet and Family Support Office, NNMC, in partnership 
with the U.S. Chamber of Commerce and the National Chamber Foundation 
hosted the event. The career fair included leading employers in various 
industries looking to fill a wide range of positions from entry-level 
to management. Servicemembers from Bethesda, Walter Reed, Ft. Belvoir, 
Ft. Meade, and Quantico participated.
    The Department of Veterans Affairs (VA) also provides assistance to 
veterans seeking employment through its Vocational Rehabilitation and 
Employment (VR&E) services. Vocational Rehabilitation Counselors work 
with eligible veterans to address impediments to future employment and 
locate other resources to address any rehabilitation and employment 
needs identified during the evaluation. Referral to other resources may 
include state vocational rehabilitation programs; DOL employment 
programs for disabled veterans; state, Federal or local agencies 
providing services for employment or small business development; 
Internet-based resources for rehabilitation and employment; and 
information about applying for financial aid.
    While much has been accomplished, work still remains. The 
Department of Defense (DoD) indicates that each year approximately 
25,000 active duty servicemembers are found ``not fit for duty'' as a 
result of medical conditions that may qualify for VA disability ratings 
and eligibility for VR&E services.
    In response to criticism of the VR&E Service, former VA Secretary 
Anthony Principi formed the Vocational Rehabilitation and Employment 
Task Force. The Secretary's intent was to conduct an ``unvarnished top 
to bottom independent examination, evaluation, and analysis of the VR&E 
program.'' The Secretary asked the task force to recommend ``effective, 
efficient, up-to-date methods, materials, and metrics, tools, 
technology, and partnerships to provide disabled veterans the 
opportunities and services they need'' to obtain employment. In March 
of 2004, the task force released its report, with 110 recommendations 
for VR&E service improvements. By the end of fiscal year 2007, only 89 
of the 110 recommendations had been implemented.
    Citing several studies of VR&E done within the past decade, the 
Veterans' Disability Benefits Commission (VDBC) in 2007 identified a 
host of ongoing problems with the program, including the following:

        <bullet>  A need for a more aggressive and proactive approach 
        to serving veterans with serious employment barriers;
        <bullet>  Limited numbers of VR&E counselors and case managers 
        to handle a growing caseload;
        <bullet>  Inadequate and ineffective tracking and reporting on 
        participants;
        <bullet>  Employment outcomes that are measured no further than 
        60 days after hiring; and
        <bullet>  The current 12-year limit for veterans to take 
        advantage of VR&E, which may be unrealistic.

    The coauthors of the Independent Budget--AMVETS, Disabled American 
Veterans, Paralyzed Veterans of America, and the Veterans of Foreign 
Wars of the United States--continue to support the recommendations of 
the Vocational Rehabilitation and Employment Task Force, as well as the 
following recommendations of the VDBC:

        <bullet>  Expand access to all medically separated 
        servicemembers;
        <bullet>  Make all disabled veterans eligible for vocational 
        rehabilitation and counseling services;
        <bullet>  Screen VR&E counselors and all applicants for 
        Individual Unemployability ratings;
        <bullet>  Increase VR&E staffing and resources, track 
        employment success beyond 60 days, and implement satisfaction 
        surveys of participants and employers; and
        <bullet>  Create incentives to encourage disabled veterans to 
        complete their rehabilitation plans.

    DAV notes that more must be done to ensure that our highly trained 
and qualified servicemembers do not face unnecessary barriers as they 
transition from the military to civilian life. We recommend that DoD, 
DOL and VA work with employers, trade unions, and licensure and 
credentialing entities to provide a means for military personnel to 
receive the necessary civilian equivalency to their chosen career 
fields when receiving military education and training, thus honoring 
their military service and allowing them to more easily transition into 
a civilian occupation without the need for complex and repetitive 
training or apprenticeships.
    This recommendation is in line with Resolution No. 047, passed at 
the DAV's most recent National Convention, which supports licensure and 
certification of Active Duty service personnel. DoD provides some of 
the best vocational training in the Nation for its military personnel. 
It establishes, measures, and evaluates performance standards for every 
occupation within the Armed Forces. There are many occupational career 
fields in the Armed Forces that can easily translate to a civilian 
occupation and there are many occupations in the civilian workforce 
that require a license or certification. These occupational standards 
meet or exceed the civilian license or certification criteria. Yet, 
many former military personnel, certified as proficient in their 
military occupational career, are not licensed or certified to perform 
a comparable job in the civilian workforce. This situation creates an 
artificial barrier to employment upon separation from military service. 
DAV supports efforts to eliminate employment barriers that impede the 
transfer of military job skills to the civilian labor market. 
Additionally, we ask DoD to take appropriate steps to ensure that 
servicemembers be trained, tested, evaluated, and issued any licensure 
or certification that may be required in the civilian workforce. We 
urge Congress to enact legislation making the Chapter 33 Post-9/11 GI 
Bill available to pay for all necessary civilian license and 
certification examination requirements, including necessary preparatory 
courses. Last, we support efforts to increase the civilian labor 
market's acceptance of the occupational training provided by the 
military.
    We must also encourage that additional attention be given to 
perceptions about veterans held by the public. As noted in the January 
1999 final report of the Congressional Commission on Servicemembers and 
Veterans Transition Assistance, there is a fundamental lack of 
awareness by civilian employers of the positive personal and 
professional characteristics possessed by most servicemembers and 
veterans. Previous attempts to inform the public and employers of these 
attributes have been short-lived and limited. There is also a general 
lack of awareness among employers of where and how to recruit veteran 
applicants for civilian jobs.
    A sustained national marketing program must be undertaken to 
favorably influence employer perceptions of veterans, and subsequent 
hiring decisions as well as where to recruit veteran applicants. 
Veterans bring skill sets that readily fit into practically every area 
of economic enterprise in our Nation's economy, yet many private 
employers may perceive us to only have skills suited to security or law 
enforcement while an examination of the hundreds of career fields in 
the military would certainly indicate otherwise.
    Madam Chair, I again want to thank you and the Subcommittee for the 
opportunity to present the views of DAV.

                                 <F-dash>
               Statement of Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to express our views on the issue of 
opportunities for transitioning veterans. This Subcommittee has worked 
diligently during this session to ensure employment opportunities are 
available for new veterans and veterans of the past. PVA appreciates 
the hard work and sincere effort that this Subcommittee applies to 
their mission which results in programs to help veterans assimilate 
back into society.
    The emphasis on licensure and certification can present significant 
barriers for transitioning military personnel seeking employment in the 
civilian workforce. Credentialing standards, such as education, 
training, and experience requirements, are developed based on 
traditional methods for obtaining competency in the civilian workforce. 
As a result, many transitioning military personnel who have received 
their career preparation through military service find it difficult to 
meet certification and licensing requirements due to the lack of 
civilian recognition of military training and experience. For some, 
this inability to become credentialed bars entry into employment in 
their fields entirely. For others, the lack of credentials will make it 
difficult to compete with their civilian-sector peers for jobs. Those 
who are able to obtain employment in their fields without the 
applicable credentials may face decreased earnings and limited 
promotion potential.
    Pilot programs have been initiated in some states to provide 
credentialing to servicemembers in a limited number of fields. PVA 
believes that there are a number of factors that have an impact on the 
ability of current and former military personnel to obtain civilian 
credentials. Many civilian credentialing boards do not have adequate 
knowledge of and do not give proper recognition to military training 
and experience. The lack of clarity regarding the procedures for 
exchange of transcripts between military and civilian credentialing 
boards creates undue barriers for military personnel.
    The Department of Defense (DoD) should assist Members preparing to 
transition from active duty to civilian employment through the proper 
dissemination of information. The DoD and the Department of Labor (DOL) 
must maintain involvement with the certifying organizations and 
coordinate efforts among Federal agencies and private industry. Armed 
Forces training schools should pay greater attention to the activities 
and requirements of civilian credentialing agencies.

ALTERNATIVE USE OF THE POST-9/11 G.I. BILL

    PVA along with the other coauthors of The Independent Budget 
supports the idea of using the Post-9/11 GI Bill for employment 
training programs. This highly regarded benefit should be available to 
veterans as they enroll in additional or supplemental training which 
would complete the requirements of civilian certification or licensing. 
This would involve expansion of Chapter 33 to include vocational, on-
the-job training, apprenticeships and certificate programs. The 
original GI Bill provided benefits for over 8 million WWII veterans, 
but just over 2 million of those went to a 4-year, degree seeking 
institution. The other 6 million sought training through 
apprenticeships, on-the-job training (OJT) and vocational training.
    Today's veterans are not provided the same benefit. The Post-9/11 
GI Bill only provides benefits to veterans who seek a degree. The 
remaining veterans must continue to use the Montgomery GI Bill (MGIB). 
Veterans pursuing these non-degree seeking careers are being penalized 
by being forced to pay into the MGIB to later receive a lesser benefit. 
Veterans, regardless of their post-military occupational desires, 
should have access to the benefits of the Post-9/11 GI Bill. In 
accordance with the recommendations of The Independent Budget for FY 
2011, Congress should grant Post-9/11 GI Bill benefits to veterans who 
enroll in apprenticeships, OJT and vocational programs.

DoD MILITARY--WORK TRANSITION PROGRAM

    The DoD Military--Work Transition Program could be an extension of 
the DoD ``Operation Transition.'' Operation Transition established a 
framework for transition programs administered by each of the military 
service branches. The program established in 2008, offers an extensive 
array of services and benefits designed for separating servicemembers. 
These services include counseling, personal financial planning, 
information about Federal Government employment, and other tools to 
prepare the separating members for future employment. This military-
work transition program would resemble the current DoD fellowship 
program. The fellowship program allows both military and civilian staff 
of the DoD to work in support positions for Members of Congress and 
Federal agencies. The military personnel continue in their current pay 
grade, including benefits, since they are still DoD employees.
    This would start as a pilot program which would allow the necessary 
time for Congress to evaluate its success and the effort involved in 
creating and monitoring such a program. However, legislative action may 
be required to allow military personnel to work in civilian 
nongovernment positions.
    This initiative would involve DoD working in coordination with the 
Department of Labor (DOL), Veterans' Employment and Training Service 
(VETS). VETS would identify and encourage private sector organizations 
that would participate. The ideal corporations would be those 
organizations that have already demonstrated that they value veterans 
when hiring new employees; organizations such as Home Depot, UPS, BNSF 
Railway, and GE. The Fortune 500 list contains many corporations that 
have never considered the benefits of employing veterans. However, 
those corporations that have multiple locations and a continuing need 
for mature personnel may be interested in this program. The message and 
benefits of employing veterans must continue to be presented to the 
business community.
    There is a wide variety of civilian work positions that this 
temporary personnel program could engage with. These could involve 
entry level positions as well as management training positions. Those 
positions that involve a collective bargaining agreement or a union 
contract would not be available for this program.
    Additionally, a 6 month period toward the end of a service Member's 
commitment could be the length of this program. The employer would 
agree to expose the military personnel to several aspects of the 
organizations activities such as production, marketing, sales, 
distribution, or financial services. The program's goals would be to 
allow the military personnel to experience more than one position while 
providing an additional staff Member for the employer. The employer 
would benefit from the additional assistance of a mature, disciplined, 
goal orientated staff Member. This individual could be an ideal 
candidate for permanent employment for the company upon separation from 
the military.
    Those military personnel who participate in this program would 
realize some of the challenges and often misfortunes of the corporate 
world. After experiencing the business world, some individuals could 
have second thoughts about their future. During this temporary work 
assignment, participants would undoubtedly evaluate the entire military 
benefits package they currently have. Traditionally starting salaries 
in the corporate world for most departing military personnel including 
officers are less than expected. This reality could influence a 
participant to decide to continue their career in the military for the 
quality of life it offers for themselves and their family. PVA would 
encourage the DoD, DOL, and VA to work together to explore this 
possibility of a military-work transition program.

MEDICS AND CORPSMEN TO PHYSICIAN ASSISTANTS

    The medical support personnel serving in the military have received 
many months of intense state-of-the-art training in their medical 
specialty including emergency medical procedures. Some may have 
advanced training with years of practical experience which could 
include life-saving procedures performed while serving in Iraq or 
Afghanistan. Unfortunately, this real life experience is not recognized 
by the civilian medical field. A program should be established 
including financial support in the form of a grant with accredited 
physician assistant colleges to help those transitioning medics and 
corpsmen. This would establish a fast track program that would 
encourage the participating medical teaching facilities to recognize 
and credit the military experience. After receiving an individual 
evaluation of a veteran's military medical background, and completion 
of appropriate supplemental classes, a veteran with previous military 
medical experience would be a candidate for the position of physician 
assistant. There is a projected shortage of medical support personnel 
in the future including physician assistants. These military trained, 
experienced personnel should be encouraged to stay in the medical field 
with the support and direction from programs offered by the VA.

CONGRESSIONAL SUPPORT FOR DOL--VETERANS JOB CORPS

    DOL VETS will soon offer a unique program for younger veterans up 
to age 24. The program which will be a version of their Job Corps 
program has never been targeted to veterans in the past. This 
apprenticeship program for young veterans will teach the necessary 
skills required for one of several trades. The program will offer 
housing, food, a living stipend, medical care from a VA facility, and 
the camaraderie of other veterans as they face new challenges. The 
pilot program will be offered at three mid-west locations this year. 
Unfortunately the program is limited to the first three hundred 
veterans that apply. With the demonstrated success of this program, we 
hope it will be expanded to every region of the country soon. This can 
offer hope for the men and women that have honorably served their 
country, but have not received specialty training that is transferable 
to the civilian world.

BRING BACK THE MESSAGE ``HIRE THE VETERAN''

    This slogan of ``Hire the Veteran'' has disappeared from the 
literature and information produced by the Department of Veterans' 
Affairs. For decades this message was included on many informational 
documents and VA forms distributed by the VA.
    In the present economic situation with a disproportional number of 
veterans unemployed the VA should start emphasizing this message once 
again. All Federal agencies that distribute information to the public 
should include this message somewhere on their literature. The VA could 
provide guidance to the other agencies on this initiative. This would 
be a constant reminder to America that the government does care about 
the employment of veterans. It would also remind government agencies 
that ``they'' should also hire the veteran.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, PVA would like 
to thank you again for allowing us to share our views on veterans 
employment. We are always available to work with this Subcommittee as 
it explores employment opportunities for America's veterans.

                                 <F-dash>

                   MATERIAL SUBMITTED FOR THE RECORD
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
Mr. Eric Hilleman
Director, National Legislative Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, NE
Washington, DC 20002

Dear Mr. Hilleman:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Licensure and Credentialing on July 29, 2010. Please answer the 
enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________
                      Responses from Eric Hilleman
             Veterans of Foreign Wars of the United States
    Question 1: Is there a Web site that servicemembers and veterans 
can access to learn which schools provide college credit based on their 
military experience?

    Response: To review the programs offered by the American Council on 
Education (ACE), please visit: http://www.acenet.edu/Content/
NavigationMenu/
ProgramsServices/MilitaryPrograms/index.htm.

    Question 2: Do you believe the barriers for servicemembers and 
veterans' translating their skills to the private sector has improved 
since our last hearing in 2007?

    Response: Many of the same barriers persist. ACE has evaluated 
military schools and Military Occupational Specialties (MOS) for 
transferable credit for a number of years. However, in the area of 
State-by-State accreditation/licensure it still depends upon the state 
and industry's interest in accepting the applicable MOS or experiences 
to meet equivalency for licensure.

    Question 2(a): What has changed since then that you believe has 
helped the progression and what do you notice is still missing?

    Response: With the advent of the Post-9/11 GI Bill many schools are 
interested in attracting Federal dollars, which has led to a surge in 
colleges and universities developing programming for veterans on 
campus. What hasn't changed is the levels of funding under the GI Bill 
in the areas of vocational training, OJT, and apprentices. There needs 
to be an incentive for states and professional industries to attract 
veterans, as well as standardization among industries and states in 
accepting military experience.

    Question 3: What are the key things that Congress can do to help 
veterans transition with their military training to a civilian career?

    Response: We need to better understand where the opportunities are 
for improvement. Given the high degree of variance among states and 
industries, we must understand what and where needs the greatest 
attention of Congress. The VFW recommends a study of the states and 
industries to determine which states are granting licensure for 
comparable military experiences.

    Question 4: In training servicemembers to do their jobs, is the 
military looking for different skills than their civilian counterparts?

    Response: Not necessarily, both the military and the civilian 
sector are seeking intelligent individuals capable of performing at the 
highest standards under pressure.

    Question 5: If Congress does not have the authority to provide 
licensure and certification for veterans leaving the military, then 
what should be done?

    Response: The VFW stands by its recommendation, two separate and 
distinct studies understanding the specific challenges and 
opportunities for improving the transfer of military education/
experiences into civilian sector equivalents.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
Mr. Joseph C. Sharpe, Jr.
Director, National Economic Commission
The American Legion
608 K Street, NW
Washington, DC 20006

Dear Mr. Sharpe:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Licensure and Credentialing on July 29, 2010. Please answer the 
enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                                                    American Legion
                                                    Washington, DC.
                                                 September 23, 2010
Honorable Stephanie Herseth Sandlin, Chairwoman
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chairwoman Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on various legislation on July 29, 2010. I 
respectfully submit the following in response to your additional 
questions:

    Question 1: In your testimony you recommend that ``credentialing 
agencies could develop a military specific credentialing requirement 
that recognize equivalent training.'' If each State has different and 
unique requirements, how can this be done?

    Response: There are recognized credentialing agencies that oversee 
credentialing between states and could assist in recognizing the 
credentialing requirements that military servicemembers undergo during 
their military training. This would serve to assist servicemembers and 
veterans in their transition to civilian positions.

    Question 2: Is it the States or the Federal Government that would 
be in the best position to help veterans with licensing and 
certification?

    Response: The American Legion would recommend both. Each State has 
a separate licensing and credentialing requirement that needs to 
recognize military training as part of fulfilling their state 
requirements. In addition, there are national licensings that can be 
addressed by that specific Federal agency. The American Legion sees the 
Federal agencies as recognizing military training for credentialing 
earlier, due to the States having different and multiple requirements.

    Question 3: What are the key things that Congress can do to help 
veterans transition with their military training to a civilian career?

    Response: Congress should become more involved in ensuring that 
military training converts into the civilian licensure and 
credentialing. Oversight over DoD's actions in the training phase of 
servicemembers would allow Members who undergo military training to 
receive the same training that would qualify them for their civilian 
counterpart. In addition, Congress should be willing to allocate funds 
for programs that DoD could facilitate. Programs that would provide and 
pay for additional training for all servicemembers who seek to get 
their civilian licensure and credentials. This needs to be made 
available for all servicemembers who wish to further their career goal 
in every branch of the Armed Forces.

    Question 4: One of the other witnesses writes that future TAP 
should involve more technology and have an internet component. How 
should the human interaction fit into a more technology based TAP 
program?

    Response: The American Legion realizes that one of the downfalls of 
the TAP program is servicemembers are preoccupied with their transition 
needs, such as their family, college and moving. Once they get home, 
veterans start to realize that they need additional information in 
order to make their transition as smoothly as possible. With the age of 
technology, the computer and Internet provide valuable resources for 
veterans and their families. The American Legion believes that an 
Internet based resource does solve some of those problems, but does not 
address all issues. Having the ability to call a case manager at times, 
or via email, to discuss your transition problems would be a great way 
to maintain human interaction and still provide a valuable resource.

    Thank you for your continued commitment to America's veterans and 
their families.
            Sincerely,
                                    Joseph C. Sharpe, Jr., Director
                                       National Economic Commission

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
Thomas Zampieri, Ph.D.
Director of Gvernment Relations
Blinded Veterans Association
477 H Street, NW
Washington, DC 20001

Dear Dr. Zampieri:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Licensure and Credentialing on July 29, 2010. Please answer the 
enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                                       Blinded Veterans Association
                                                    Washington, DC.
                                                  September 3, 2010
The Honorable Stephanie Herseth Sandlin, Chairwoman
VA Subcommittee on Economic Opportunity
335 Cannon House Building
Washington, DC 20515

Dear Chair Herseth Sandlin,

    The Blinded Veterans Association appreciates the chance to provide 
responses to your Committee follow up questions at the VA Subcommittee 
Economic Opportunity hearing held on July 29, 2010 on Licensure and 
Credentialing for veterans. Servicemembers transitioning from the 
military with military occupational training and experience often run 
into barriers to their being accepted into colleges because of the lack 
of acceptance of the level of training and experience they have from 
many universities or community colleges leaving them frustrated and 
told they must start as freshmen students in many cases.
    In regards to the questions sent to BVA we would like to respond to 
each below:

    Question 1: Is it the states or the Federal Government that would 
be best positioned to help veterans with licensure and certification?

    Response: BVA believes that the Federal Government should leverage 
the States and academic institutions to improve the educational 
counseling of veterans to obtain their goals for licensure or 
credentials to meet employment laws and regulations for occupations. 
Colleges should be encouraged financially and through educational 
policy to establish veteran guidance counseling services at all state 
universities and technical schools.

    Question 2: What are the key things that Congress can do to help 
veterans transition with their military training to a civilian career?

    Response: BVA testimony highlighted that more academic counseling 
services to analyze and award credit for military training and 
occupational skills is necessary within military, and current military 
universities like the Uniformed Health Sciences Academy at Fort Sam 
Houston TX and the Air Force University, should have pilot funded 
programs to expand providing servicemembers credit hours for both 
occupation courses and senior experience and leadership skills. While 
the DOD AARTS/ SMART Programs provide active duty personnel or veterans 
of the Army (AARTS) or Navy, Air Force, and Marine Corps (SMART) with 
an official transcript of military training or courses evaluated by 
American Council on Education (ACE) and 2,300 public colleges do 
recognize these ACE endorsed transcripts as official documentation of 
military training, the student veteran must still find the civilian 
college academic counselor who will match the courses to admission and 
degree requirements which is lacking on many campuses. This problem 
could be eliminated by having DOD educational credits provided to the 
veteran upon discharge.

    Question 3: If Congress does not have the authority to provide 
licensure and certification for veterans what should be done?

    Response: BVA would recommend in addition to the above, that The 
American Association of Collegiate Registrars and Admissions Officers 
(AACRAO), the Council For Higher Education Accreditation (CHEA), and 
American Council on Education (ACE) in conjunction with State education 
offices plans for reviewing military occupational skills training and 
certificates for college credits. Governors have great influence over 
the state universities in this regard and Federal grants to colleges 
can be used to encourage participation in these programs.

    In addition to the above BVA would urge congress to make changes to 
improve upon the Chapter 31 Vocational Rehabilitation VR subsistence 
and housing allowance that are currently lower than the Post-9/11 GI 
Educational Benefits, and these benefits must be increased to allow 
service connected disabled veterans the ability to meet the additional 
costs of attending school.
    In addition BVA would encourage the VA Committee to introduce 
legislation for returning medics and corpsmen to be able to enter into 
pilot program to assist them in becoming trained as physician 
assistants. These life savers with emergency medical skills are being 
lost as vital resource to meeting health care challenges because 
colleges are not willing to spend time on counseling them and providing 
them with academic support to enter PA programs.
    On behalf of the BVA we again appreciate your leadership on the 
issue and efforts to improve the employment opportunities for veterans.
            Sincerely,

                                             Thomas Zampieri Ph. D.
                                   Director of Government Relations
CC: Congressman John Boozman
Ranking Member VA Subcommittee

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
Mr. Vince Patton, Ed.D.
Master Chief Petty Officer of the United States Coast Guard (Ret.)
Director, Community Outreach
Military.com/Monster Worldwide
8280 Greensboro Drive
Suite 700
McLean, VA 22102

Dear Dr. Patton:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Licensure and Credentialing on July 29, 2010. Please answer the 
enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________

                          Military Advantage--A Division of Monster
                                                   www.military.com
                                                        McLean, VA.
                                                  September 2, 2010
U.S. House of Representatives
Committee on Veterans' Affairs
ATTN: Ms Orfa Torres
335 Cannon House Office Building
Washington, DC 20515

Dear Ms Torres:

    In response to your letter dated August 12, 2010 referencing 
questions from Chairwoman Sandlin, I am enclosing the responses to the 
five questions.
    Please do not hesitate to contact me you have any questions either 
by phone, 703-269-4968, or by email, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3046595e53551e405144445f5e705d5f5e434455421e535f5d1e">[email&#160;protected]</a>
            Sincerely,

                                      Vincent W. Patton, III, Ed.D.
                                       Director, Community Outreach

                               __________

 Questions for the Record from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                 Hearing on Licensure and Credentialing

    Question 1: You state that the Transition Assistance Program format 
does not work. What should be the format for TAP?

    Answer: The current TAP format consists of a 2\1/2\ day workshop 
that covers a wide array of information that I do feel overall is 
essential for every transitioning servicemember. The problem is TAP 
workshops are set up where servicemembers represent a range of career 
points, be it the end of their first or subsequent enlistments through 
retirement. As a result attendees for the most part have different 
immediate needs based on their years of service, type of discharge or 
reason for leaving the service. TAP covers a basic overview on 
transitioning information, where most, if not all attendees may require 
additional information or coaching to address their specific needs.
    From an optimal point of view, I would suggest that TAP workshops 
be identified based on the individual's service tenure (time in 
service), or whether they are being separated for disability reasons, 
or retirement. While there still will be a broad range of interest from 
TAP attendees, by categorizing the workshops, the attendees may fall 
into a better compressed grouping to address their individual needs. 
Again, this is optimal, and I do recognize that this cannot be done in 
all cases because of resource constraints, as well as scheduling issues 
both for the transitioning servicemember as well as from the workshop 
facilitators.

    Question 2: In your testimony, you state that it would be 
impossible to deliver an effective one size fits all transition 
program. What would be the basic information that all servicemembers 
would need when they transition from the military?

    Answer: As stated in my response to question one, with categorizing 
TAP workshops by service tenure and types of separation, attendees will 
still require the same basic information that is offered in TAP classes 
today: VA benefits, GI Bill/Education, Employment information (resume 
writing, interviewing skills, and access to employment opportunities), 
Familiarization of Veteran Service Offices and Military Service 
Organizations. Also, in addressing employment information besides 
resume writing, interview skills and how to access employment 
opportunities via online, employment centers, etc, many transitioning 
servicemembers need to know more about compensation as well as 
translation of military to civilian skills. All too often, 
transitioning servicemembers, especially those who are retiring do not 
fully understand or comprehend how their skills are assessed when 
addressing their true economic worth for employment or what their 
skills translate in civilian terminology.

    Question 3: Can you explain how Military.com offers a personalized 
TAP?

    Answer: Through leveraging technology and the power of the 
Internet, we created a ``Transition Center'' (www.military.com/
transition) which addresses the key essential topics that transitioning 
servicemembers and veterans often ask us as they prepare for their 
civilian experience. We also learned that military transitioning is 
something that should be ongoing, where the servicemember who moves on 
to the status as a military veteran often has a need for immediate 
recall of information. The information must be current and up-to-date, 
and allow for the veteran to know where to access certain pieces of 
information as well as a continuing education process on topics of 
importance to them.

    Our ``Transition Center'' covers the following topics:

        <bullet>  Veteran Benefits
        <bullet>  Employment Information
        <bullet>  Finding a Mentor
        <bullet>  Resume Writing
        <bullet>  Education
        <bullet>  Financial Information
        <bullet>  Relocation
        <bullet>  Reserve and Guard Options

    We personalize this information through feedback from the members 
on what type of information they have found useful, allowing us to seek 
articles from subject matter experts and other resources which Members 
sign up to receive up-to-date informational newsletters periodically. 
As indicated in my testimony, the Veteran Career Network, or VCN 
provides our Members with a personal touch by providing them with a 
Military.com Member who has volunteered to be available as a mentor, 
assisting any veteran in employment opportunities. The VCN which 
currently has over one million registered Members (10 percent of 
Military.com's overall Membership) serves as a fraternal network where 
veterans connect with each other. This is done in a multitude of ways, 
some connect because of familiarity with one another, or by service, 
Military Occupational Specialty (MOS), military unit served, or by 
interest in the mentor's civilian occupation or place of employment or 
other professional affiliation. All of these categories are included in 
the VCN Member's profile. We learned through our interaction with our 
Members that the social networking applications that we have on 
Military.com have become useful in allowing veterans to establish 
contact with one another, even if they have never met before.

    Question 3(a): Can TAP be personalized only for those seeking 
employment?

    Answer: No, TAP can be personalized for more than just those 
seeking employment. We have also found through our VCN that some 
mentors signed on to assist other veterans with assistance on access to 
disability information, or how they have taken advantage of using the 
GI Bill, or any other matter where the mentor's experience as a user of 
veteran benefits can be helpful in assisting others. While our VCN is 
marketed as a career transition tool, we have also noted that 
connecting with other veterans to share their experiences has reached 
beyond employment topics.

    Question 3(b): Do you think this is a good substitute for one-on-
one career counseling?

    Answer: We believe that our VCN serves as a one-on-one counseling 
resource, as Members are directly connecting with each other. 
Military.com does maintain the confidentiality of the connections, as 
the Members connect by sending their personal messages through our 
secure Military.com messaging system, which is automatically forwarded 
to the receiver. Neither party in the communication will know each 
other's email address unless they themselves provide it.

    Question 4: How does Military.com measure how successful its Web 
site is compared to Department of Labor's O*Net Web site?

    Answer: Military.com's Skills Translator (www.military.com/skills-
translator) success is based on the additional features that are 
provided beyond the O*Net's capabilities. While O*Net provides the 
interpretive content of civilian occupations that correlates with the 
MOS, the Military.com Skills Translator also incorporates three 
additional features allowing the veteran and transitioning job seeker 
to not only view his or her descriptive MOS skill sets, but also 
through the key phrases indicated in the translation, corresponds with 
the over 300,000 monthly job postings that are in the Monster.com 
(Military.com's parent company) database. This allows the veteran to 
have a glimpse of what his or her MOS' civilian equivalent jobs are 
listed, nationwide. This also allows another resource for the veteran 
to help in fine-tuning his or her resume to ensure that they have the 
right terminology for the jobs that they are qualified for based on the 
translation. Our skills translator also generates a separate listing of 
academic and vocational training offerings, should the job seeker feel 
that he or she may want to pursue further education in the field of 
interest that has been designated by the skills translator. This is 
also helpful for those individuals who may require needed continuing 
education for the purpose of credentialing and licensure. Finally, the 
skills translator provides a list of mentors accessible through the 
VCN, giving the veteran an opportunity to reach out to someone for 
personal assistance or networking. Our Members have found this to be 
useful for this one-of-a-kind featured resource in helping those who 
are seeking employment assistance.

    Question 5: Are your job fairs for separating servicemembers or for 
veterans?

    Answer: Our Military.com Career Fairs (www.military.com/career-
expo) are designed for both transitioning servicemembers, veterans, and 
for military spouses. We market our events to the entire military 
community of all ranks: active duty, Reserve/Guard, retirees, veterans 
and military spouses. We hold 34-40 events around the country each year 
in partnership with the Noncommissioned Officers Association (NCOA).

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
The Honorable Raymond M. Jefferson
Assistant Secretary, Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

Dear Secretary Jefferson:

    I would like to request your response to the enclosed questions for 
the record and deliverables I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Licensure and Credentialing on July 29, 2010. Please answer 
the enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________
               Veterans' Employment and Training Service
    Responses to Questions for the Record and Deliverables from the
                 House Committee on Veterans' Affairs,
           Subcommittee on Economic Opportunity July 29, 2010
                 Hearing on Licensure and Credentialing

    Question 1: Can you elaborate on the national barriers you 
discovered to the national approach?

    Response: The national barriers revolve around the decentralization 
of credentialing in the United States. In many cases, the determination 
of whether to require and issue a license or certification to practice 
a profession is made by State and local governments. As a result, the 
specific requirements for obtaining a particular license or 
certification can vary greatly from location to location. This 
prohibits the creation of a nationwide standard, and requires that any 
licensing effort work on an individual basis with each State or 
locality that establishes the standards for the credential.

    Question 2: Has VETS been doing outreach to all the State and local 
governments to ease the attainment of a license or certification?

    Response: The Departments of Labor and Defense chartered the DoD-
DOL Credentialing Working Group in November 2006 to address the issues 
of licensing and credentials for Veterans. The efforts of the working 
group ceased in 2009 before the step of conducting outreach to State 
and local governments could be reached.

    Question 3: In a previous hearing on September 20, 2007, the DOL 
witness said that a Work Group was incorporated under the guidance of 
Public Law 109-461. The group was to focus on military occupations that 
comprise a high proportion of existing servicemembers and that can be 
matched to high demand occupations in high-growth industry. Based on 
this comment, could you tell us what the end result was?

    Response: The DOL-DoD Credentialing Working Group worked to 
identify the 10 major Military Occupational Specialties (MOS) that 
might require minimal additional training or training adjustments to 
the curriculum at the service schools. The working group collected data 
on all MOSs based upon the number of servicemembers in that MOS, and 
then conducted a cross-walk to high growth civilian occupations.

    Question 3(a): How many military occupations were matched?

    Response: Ten MOSs were identified as high density fields that 
cross walked to high growth industries with minimal additional training 
or training adjustments to curricula.

    Question 3(b): Did servicemembers need to re-certify or re-take a 
licensure test for their civilian occupations once they were matched?

    Response: Because the working group's efforts ceased in FY 2009, 
the step of determining recertification or retaking of exams was never 
reached.

    Question 4: In a previous hearing on September 20, 2007, the DOL 
witness said that the Work Group was incorporated under the guidance of 
Public Law 109-461 ``will assess the instruction used to train 
servicemembers and contract it to the civilian training that leads to 
credentialing. Working with the Service Schools and industries, the 
group will determine what military training is relevant to 
certification for civilian employers.'' Can you please update us on the 
findings?

    Response: Because the working group's efforts ceased in FY 2009, 
the steps of assessing the instruction used to train servicemembers and 
determining what military training is relevant to certification for 
civilian employers was never reached.

    Question 5: In a previous hearing on September 20, 2007, the DOL 
witness said ``We are currently developing a competitive Solicitation 
for Grant Applications using available program year 2007 funding that 
will support a demonstration for one MOS. The program will last for 3 
years. We intend to request additional funding in the future years that 
will allow this single demonstration program to expand to the 
authorized 10 MOSs.'' Can you please update us on the demonstration 
program?

    Response: PL 109-461 authorized a demonstration program in the 
Fiscal Years of 2007 through 2009. No funding was made available to 
support the program. The Department's testimony anticipated identifying 
funding to start a program focusing on one MOS. The intent was to use 
Veterans' Workforce Improvement Program (VWIP) funding that was 
anticipated to become available. Unfortunately, sufficient funding did 
not become available for this demonstration that year and the 
demonstration was not conducted.

    Question 5(a): Which MOS was identified for this program?

    Response: Since funding was not available, no MOS was selected for 
a demonstration.

    Question 5(b): How was it successful and what were the problem 
areas?

    Response: A demonstration was not conducted.

    Question 5(c): Was additional funding requested?

    Response: The funding for VWIP in FY 2008 was consistent with the 
level in FY 2007, and therefore was sufficient only to continue the 
VWIP grants awarded in FY 2007.

    Question 6: How many veterans have secured jobs in the emerging 
green jobs sector?

    Response: In FY 2009 the VWIP program was refocused to concentrate 
on training and certifying Veterans for jobs on energy efficiency and 
renewable energy industries:

        <bullet>  Energy-efficient building, construction, and retrofit 
        industries;
        <bullet>  Renewable electric power industry;
        <bullet>  Energy efficient and advanced drive train vehicle 
        industry;
        <bullet>  Bio-fuels industry;
        <bullet>  Deconstruction and materials use industries;
        <bullet>  Energy efficiency assessment industry serving the 
        residential, commercial, or industrial sectors;
        <bullet>  Manufacturers that produce sustainable products using 
        environmentally sustainable processes and materials.

    In July 2009, 17 grants were awarded. Through March 31, 2010, 878 
Veterans have been placed into employment, and of these, 296 have been 
placed into jobs related to energy efficiency and renewable energies.

    Question 7: What can Congress do to support efforts to increase the 
civilian labor markets acceptance of the occupational training provided 
by the military?

    Response: We appreciate the interest of Congress in supporting our 
efforts to increase the labor market acceptance of MOS training 
provided by the military. DOL plans to discuss with DoD the possibility 
of restarting the DOL-DoD Credentialing Working Group. We would expect 
that there will be opportunities to work with the Congress on this 
important initiative, and we will keep Congress informed of the 
progress of this working group and the role that Congress could play as 
the group determines action steps and further initiatives.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
Mr. John R. Campbell
Deputy Under Secretary of Defense
(Wounded Warrior Care and Transition Policy)
U.S. Department of Defense
1400 Defense Pentagon
Washington DC 20301-1400

Dear Mr. Campbell:

    I would like to request your response to the enclosed questions for 
the record and deliverables I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Licensure and Credentialing on July 29, 2010. Please answer 
the enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________
                      Hearing Date: July 29, 2010
                             Committee: HVA
                 Member: Congresswoman Herseth Sandlin
                         Witness: Mr. Campbell

    Question 1: In a previous hearing held in 2007, then Deputy Under 
Secretary of Defense for Military Community and Family Leslye Arsht 
stated that as part of the commitment made in the Task Force Report to 
the President on ``Returning Global War on terror Heroes'' a special 
DoD-DOL Credentialing Working Group was in the process of collecting 
and collating data on all occupational specialties by military service 
including National Guard and Reserves based on how many people are in 
each specialty. The Department was to use the outcome of this study to 
identify adjustments that can be taken within the relevant Service 
Schools to potentially generate certifications in corresponding private 
sector jobs. Could you provide us a follow-up on the results and 
whether the information collected was used to generate certifications 
in corresponding private sector jobs?

    Answer: While work was begun on this task through a research 
contract, it was not completed due to competing demands, 
reorganization, and funding limitations. I, working with Mr. Jefferson, 
have directed my staff to reconstitute the DoD-DOL Credentialing 
Working Group in order to complete the research to identify the 
barriers encountered by veterans and transitioning servicemembers 
regarding various state credentialing and licensing requirements.
    Currently, two public Web sites--Navy (https://www.cool.navy.mil) 
and Army (https://www.cool.army.mil Credentialing Opportunities On-Line 
(COOL) Web sites)--already display military occupational specialties, 
the civilian equivalent occupations, and industry-recognized 
certifications and licenses for corresponding private sector jobs. Both 
are free Web sites available to all Military Services, veterans, 
civilians, academia, and industry.

    Question 2: Is it possible for the DoD to seek agreements with 
states to accept military accreditations?

    Answer: Yes, it is possible for the DoD to seek accreditation 
agreements with states. However, there is no guarantee that the states 
would accept military training and experience. Due to the fact that 
credentialing and licensing requirements vary from state to state and 
from program to program, this approach would require multiple 
agreements. A better approach might be for the states to acknowledge 
military service formal training. The newly constituted working group 
will explore this and other options as they better define the barriers.
    My staff has already begun working with the Defense State Liaison 
Office (DSLO). Each year the DSLO focuses on top issues to be addressed 
by states. The DSLO is currently reviewing input and evaluations for 
2011 and will have the top 10 initiatives finalized by first quarter of 
FY2011. One of the proposed issues under consideration is ``Acceptance 
of Military Training and Experience for State Professional Credential 
Requirements upon Separation from Military Service.'' The DSLO and the 
Office of Wounded Warrior Care and Transition Policy will work 
collaboratively over the next year to try and get state regulators to 
accept military trained separating Service members by examination or 
recognition of their military training certificates.
    While it may not be possible to conduct direct negotiations with 
every individual state for the hundreds of different occupations that 
they license, a key opportunity for enhancing transitioning 
servicemembers' and veterans' ability to attain state licenses is to 
encourage states to grant reciprocity. This would enable servicemembers 
(and their spouses) and veterans who hold a license in one state to be 
automatically granted licensure in the other states as well. One of the 
objectives of the joint DoD/DOL Credentialing Working Group is to work 
with national organizations, such as the National Governor's 
Association, the Council on Licensure, Enforcement, and Regulation 
(CLEAR), and the National Conference of State Legislatures (NCLE) to 
promote reciprocity for transitioning servicemembers, spouses and 
veterans.

    Question 3: Do you believe TAP as the primary platform is meeting 
the needs of separating servicemembers?

    Answer: The current Transition Assistance Program (TAP) program, a 
joint inter-agency program with DOL and VA, has been in place for 
almost 20 years without any major changes. The Department is in the 
process of transforming transition assistance from a one time 
separation event into a continuous process that occurs throughout the 
military lifecycle. In order to transform TAP, DoD is working with our 
TAP partners to:

        <bullet>  Transform the culture within DoD so that a 
        servicemember is continually preparing for transition out of 
        the military.
        <bullet>  Provide the recently released ``DoD Career Decision 
        Toolkit'' to every separating servicemembers leaving active 
        duty, including demobilizing/deactivating National Guard and 
        Reserve. The Toolkit provides transitioning servicemembers with 
        an interactive tool that compliments the current TAP employment 
        workshops.
        <bullet>  In addition to DoD wide initiatives, the Services 
        have also taken important steps to assist their transitioning 
        members. For example:

                a.  The Air Force has recently revised policy to ensure 
                all Airmen are informed of educational opportunities 
                and related financial assistance available while on 
                active duty as well as when they transition to civilian 
                life. The revised policy requires information outreach 
                within 3 months of arrival at every base of assignment; 
                prior to separation/retirement, and least every 3 
                months between arrival and separation/retirement.
                b.  The Marine Corps is developing an individual TAP 
                road map with special emphasis on education, career and 
                financial management/planning.

    Question 4: Why is the TAP mandatory for the Marines but not the 
other military branches?

    Answer: In order to comply with statute, current DoD-wide policy 
requires that all separating servicemembers receive pre-separation 
counseling. This counseling consists of instruction generally known as 
the ``TAP'' class. In addition to this core counseling, the Department 
offers addition elements such as the VA Benefits Briefing, Disabled 
Transition Assistance Program and the Department of Labor (DOL) TAP 
Employment Workshops. DoD policy allows the Military Services to 
exercise their own discretion concerning these additional portions of 
the Transition Assistance Program (TAP) that are not mandated by 
statute. For example, in the Navy, a sailor may opt out, in writing, of 
the voluntary DOL TAP Employment Workshop and/or the VA benefits and 
DoD TAP classes. The Department is in the process of reviewing its TAP 
policy, in collaboration with our partners at VA and DOL, to make 
information more widely available throughout the military lifecycle.

    Question 5: In your testimony you write that licensure and 
certification information is provided through classroom delivery from 
an instructor, by online interaction and through one-on-one coaching. 
Can you elaborate on these elements, and when in a servicemember's 
career do they take place?

    Answer: Information on licensing and certification is disseminated 
in a number of ways and at various points during a Service member's 
career. The mandatory pre-separation counseling session is a direct 
briefing provided at the end of active duty military service but each 
Service utilizes a variety of other tools and methods outside of the 
Transition Assistance Program (TAP) to provide such information, 
including:

        <bullet>  DoD TurboTAP Web site--http://www.TurboTAP.org
        <bullet>  DOL ACINET Web site--http://www.acinet.org
        <bullet>  Navy COOL Web site--https://www.cool.navy.mil
        <bullet>  Army COOL Web site--https://www.cool.army.mil
        <bullet>  Air Force CERTS Web site (equivalent to Army and Navy 
        COOL)--https://augateway.maxwell.af.mil/ccaf/certifications/
        programs
        <bullet>  Monster.com Web site--http://www.monster.com
        <bullet>  Articles in GI to Jobs and other Service-related 
        magazines
        <bullet>  Education Counselors at Base Education Centers

    All transitioning servicemembers (Army, Marine Corps, Navy, Air 
Force, demobilizing/deactiving National Guard and Reserves) receive 
information on licensing, certification, and apprenticeship resources 
during the mandatory TAP pre-separation counseling. Licensing and 
certification is a specific required module of the ``Pre-separation 
Counseling Checklist'' (DD Form 2648 and DD Form 2648-1). If a 
servicemember wants additional information, they can request one-on-one 
counseling assistance provided by a qualified education service officer 
or counselor.
    In addition to the information provided through the required pre-
separation counseling, the Military Services provide additional 
information about education, training and apprenticeship programs and 
opportunities that are available to servicemembers while on active 
duty. Initiatives that include licensure and certification information 
are provided within the Services. For example, Air Force has outreach 
within 3 months of a servicemembers arrival at every base of assignment 
and prior to separation/retirement. Navy requires classroom, online, 
one-one coaching, learning roadmap and targeted briefings. Army 
requires online and one-on-one counseling.

    Question 6: What kind of assistance and information do installation 
experts on licensure and certification provide servicemembers?

    Answer: Installation experts provide a variety of assistance and 
information to servicemembers, including:

        <bullet>  Identification of the types of license or certificate 
        required
        <bullet>  Licensure or certification information related to the 
        military occupation code servicemember has been trained in
        <bullet>  Gap analysis between the license or certification and 
        the military occupational code
        <bullet>  Types of funding available for training, education or 
        exams (test) in order to obtain the license or certification
        <bullet>  Approximate length of time to complete a license or 
        certification
        <bullet>  Individual State requirements for licenses
        <bullet>  Information on whether the license or certification 
        is transferable to other states
        <bullet>  Whether the credential is National, International or 
        only applies to that industry on a local basis
        <bullet>  Information on apprenticeship programs
        <bullet>  Information on whether union membership is associated 
        with that credential
        <bullet>  Information on career opportunities in career 
        occupations that require a license or certification

    For example:

    Navy Command Career Counselors provide information on occupational 
licensure, certification, and apprenticeship as part of annual career 
development boards. Each career development board is tailored to the 
individual Sailor, providing personal and professional goal coaching, 
recommendations, and Navy expectations. Credentialing is part of each 
career development board. Learning and Development Roadmaps unique to 
each rating, provide a list of licenses, certificates and USMAP 
information to every Sailor at specified times in their careers. The 
roadmaps are used by the career counselors and are available on Navy 
Knowledge Online (NKO). In addition, the Navy has Navy COOL-a 
comprehensive web portal on credentialing that links every Navy rating, 
job, occupation, and designator to related civilian credentials.
    The Air Force has an online tool called Credentialing and Research 
Tool (CERT) that links the Community College of the Air Force (CCAF) 
degree programs with nationally recognized professional certifications 
relevant to specific career fields. Within the CCAF catalog, there is a 
reference to certifications Airmen may pursue while earning a CCAF 
Associate in Applied Science degree or because of earning that degree.
    The Army and Marine Corps provide similar assistance and 
information through their education, career and transition counselors. 
The Army also has its own COOL Web site, which is similar in scope to 
Navy COOL.

    Question 7: Does the DoD consider the standards provided by the 
national credentialing boards for military licensure and 
certifications?

    Answer: The Department does consider such standards, but DoD 
training and performance standards are designed to meet specific 
National Security and DoD requirements and, therefore, civilian 
industry requirements are not always appropriate. In some cases, such 
as medical, nuclear, legal, engineering or aviation, the military must 
comply with the standards set by national credentialing boards.
    Some specific examples where national credentialing boards have 
been explicitly required include:
    In the Army and the Air Force, Emergency Medical Technicians (EMTs) 
are certified as an EMT Basic using national credentialing board 
criteria. They are also required to maintain their certification status 
in order to continue to hold this Military Occupational Specialty. In 
addition, the Army and Air Force have certified instructors for EMTs 
and their curriculum meet the U.S. Department of Transportation EMT-
Basic National Standard Curriculum (which is a requirement of the 
National Registry of Emergency Medical Technicians). The Navy also 
requires EMT-Basic certification for individuals performing certain 
jobs. For example, someone performing emergency medical service duties 
in an emergency room or as an ejection seat trainer.

        <bullet>  Air Traffic Controllers-Servicemembers who operate 
        within an air traffic control tower in the capacity of an Air 
        Traffic Controller must meet FAA credentialing requirements.
        <bullet>  DoD Directive 8570.01: Assurance Credentialing-In 
        recognition of the importance of the need for highly qualified, 
        experienced information assurance personnel, DoD has 
        established a policy requiring certain individuals with 
        privileged access to DoD information systems to obtain civilian 
        credentials. This DoD 8570.1 Directive, made official in August 
        2004 and implemented according to the requirements of DoD 
        8570.1-M, Information Assurance Workforce Improvement Program, 
        in December 2005, requires any full or part-time military 
        servicemember, contractor, or foreign employee with privileged 
        access to a DoD information system, regardless of job or 
        occupational series, to obtain a commercial information 
        security credential accredited by the American National 
        Standards Institute (ANSI). The directive also requires that 
        those same employees maintain their certified status with a 
        certain number of hours of continuing professional education 
        each year. The number of people affected by this mandate is 
        estimated to be 100,000.

    Question 8: Has DoD given any consideration to having 
servicemembers secure their civilian credential equivalent to their 
military credential?

    Answer: DoD is investigating ways to remove the barriers for 
servicemembers to secure their civilian credentials equivalent to their 
military occupational code. Specifically, DoD is:

        <bullet>  Re-constituting the DoD-DOL Credentialing Working 
        Group to complete the work started on identifying the gaps 
        between military occupational codes that could potentially help 
        servicemembers secure their civilian credential equivalent to 
        their military occupation.
        <bullet>  Collaborating with the Defense State Liaison Office 
        to pursue an initiative leading toward acceptance of military 
        training and experience for state professional credential 
        requirements upon separation from military service.
        <bullet>  Leveraging Service Branch approaches and initiatives, 
        such as the COOL Web sites and the United States Military 
        Apprenticeship Program (USMAP).

                                 <F-dash>
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                    August 12, 2010
Ms. Margarita Cocker
Deputy Director, Vocational Rehabilitation and Employment Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Ms. Cocker:

    I would like to request your response to the enclosed questions for 
the record and deliverables I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on Licensure and Credentialing on July 29, 2010. Please answer 
the enclosed hearing questions by no later than Thursday, September 23, 
2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.
            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
    JL/ot

                               __________
                        Questions for the Record
           The Honorable Chairwoman Stephanie Herseth Sandlin
               House Subcommittee on Economic Opportunity
                  House Committee on Veteran's Affairs
                 Hearing on Licensure and Credentialing
                             July 29, 2010

    Question 1: How long would a servicemember or veteran with severe 
injuries take to complete leading-edge certifications, which you 
mentioned in your written testimony?

    Response: The length of time to complete a certification varies 
depending on the type of certification the Veteran is pursuing. 
Computer certifications may be completed within 6 months once training 
requirements are met. Other certification programs, such as Certified 
Nursing Assistant, may take up to two or more years to complete the 
training requirements and the certification exam. Rehabilitation plans 
are written to reflect the approximate length of time to complete the 
program agreed upon by the Veteran and counselor. Tutoring and other 
assistance is provided to the Veteran if needed during the training and 
certification period to enable successful completion of their 
rehabilitation plan and meet their job goals.

    Question 2: How long does it take to do transferable skills 
assessment and is there a cost associated with it?

    Response: A transferable skill analysis (TSA) is a systematic 
application of logic to determine what types of employment a person's 
previous experience relates to, or to which it can transfer. A 
rehabilitation counselor can perform an informal transferable skill 
analysis by reviewing the Veteran's prior employment and educational 
history. Comparing this information to the information obtained in the 
Department of Labor's O*Net online tool, the counselor can determine 
which occupations would best maximize the use of skills the Veteran 
acquired in his or her past experience. The counselor must also 
determine which of the occupations would be consistent with the 
Veteran's capabilities and aptitudes.
    Conducting a TSA does not impose a delay in the processing and 
development of a plan of services. The analysis itself can be completed 
in less than a few hours depending on the complexity of the Veteran's 
background and disability conditions. Once the skills are identified 
and a job goal is selected, continued development of the plan occurs 
until all services are identified that will enable the Veteran to reach 
his/her goals. In many cases, counselors use the O*Net, which is a free 
online resource. Additional TSA tools, purchased by the VA on a case-
by-case basis, range in cost from $18 to $100.

    Question 3: How different are the challenges for a disabled veteran 
versus a non-disabled veteran?

    Response: Vocational Rehabilitation and Employment (VR&E) Service 
provides service to only disabled Veterans with at least a 10 percent 
disability rating or higher. Veterans with disabilities have increased 
employment barriers when returning from active duty. Veterans returning 
with disabilities have to meet the same certification and licensing 
requirements as Veterans without disabilities, however they may need 
additional supportive services to ensure their success. For example, 
Veterans with disabilities may need special accommodations in the 
classroom or testing environment.

    Question 4: Can you specify what kind of licensing and 
credentialing assistance does the VA provide?

    Response: Certifications and licenses approved for Veterans 
include, but are not limited to the following: information technology, 
nursing, dental assisting, teaching, counseling, truck driving, and 
other technical fields. Under the VR&E program, licensing and 
credentialing costs are paid for Veterans who have a signed 
rehabilitation plan in place requiring a license or certification to 
become suitably employed. State licensing and certification programs 
vary from state to state, and each VA counselor must keep apprised of 
changes in certification and licensure requirements.

    Question 5: How many veterans did the Veterans Rehabilitation and 
Employment program help last year secure a license or certification?

    Response: VR&E does not track the number of certifications and 
licenses obtained by Veterans each year. Occupational categories are 
tracked and reported in the Annual Benefits Report. VA rehabilitated 
8,213 Veterans into suitable employment during fiscal year 2009. While 
not all 8,213 Veterans were required to be licensed or certified in 
their trade, these Veterans were provided support to complete training 
and credentialing requirements for their specific occupational field.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
